<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2006 BUDGET REQUEST FOR THE SMALL BUSINESS ADMINISTRATION</title>
<body><pre>[Senate Hearing 109-47]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-47



     THE PRESIDENT'S FY 2006 BUDGET REQUEST FOR THE SMALL BUSINESS 
                             ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP



                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 17, 2005

                               __________

      Printed for the use of the Committee on Small Business and 
                            Entrepreneurship


 Available via the World Wide Web: http://www.access.gpo/gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
21-350                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     OLYMPIA J. SNOWE, Maine, Chair
              JOHN F. KERRY, Massachusetts, Ranking Member
CHRISTOPHER S. BOND, Missouri        CARL LEVIN, Michigan
CONRAD BURNS, Montana                TOM HARKIN, Iowa
GEORGE ALLEN, Virginia               JOSEPH I. LIEBERMAN, Connecticut
NORMAN COLEMAN, Minnesota            MARY LANDRIEU, Louisiana
JOHN THUNE, South Dakota             MARIA CANTWELL, Washington
JOHNNY ISAKSON, Georgia              EVAN BAYH, Indiana
DAVIE VITTER, Louisiana              MARK PRYOR, Arkansas
MICHAEL ENZI, Wyoming
JOHN CORNYN, Texas

                    Weston J. Coulam, Staff Director
    Patricia R. Forbes, Democratic Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page

                           Opening Statements

Snowe, The Honorable Olympia J., Chair, Committee on Small 
  Business and Entrepreneurship, and a United States Senator from 
  Maine..........................................................     1
Kerry, The Honorable John F., a United States Senator from 
  Massachusetts..................................................     4
Pryor, The Honorable Mark, a United States Senator from Arkansas.     8
Talent, The Honorable James M., a United States Senator from 
  Missouri.......................................................    15
Coleman, The Honorable Norman, a United States Senator from 
  Minnesota......................................................    16
Thune, The Honorable John, a United States Senator from South 
  Dakota.........................................................    31

                               Testimony

Barreto, The Honorable Hector V., Administrator, U.S. Small 
  Business 
  Administration, Washington, DC.................................     8
Coit, David, Managing Director, North Atlantic Capital, on behalf 
  of the National Association of Small Business Investment 
  Companies, Portland, ME........................................    36
Betancourt, Daniel, Member, Board of Directors for the 
  Association for 
  Enterprise Opportunity; President and CEO, Community First 
  Fund, 
  Lancaster PA...................................................    48
Massaua, John R., State Director, Maine Small Business 
  Development 
  Center; Member of the Board of Directors, Association of the 
  Small 
  Business Centers, Portland, ME.................................    52
Tuvin, Edward ``Eddie,'' First Vice President, Community South 
  bank on behalf of the National Association of Government 
  Guaranteed Lenders, Inc., Bethesda, MD.........................    66
Sands, Patricia, Owner, Spill-Guard, LLC, Arlington, VA..........    75

          Alphabetical Listing and Appendix Material Submitted

Barreto, The Honorable Hector V:
    Testimony....................................................     8
    Prepared Statement...........................................    11
    Fiscal Year 2006 Budget Request for the U.S. SBA.............    90
    SBA's FY2006 Legislative Package.............................    93
    SBA's Responses to Post Hearing Questions from Chair Snowe...   110
    SBA Responses to Post Hearing Questions from Ranking Member 
      Kerry......................................................   148
Betancourt, Daniel:
    Testimony....................................................    48
    Prepared Statement...........................................    50
    Microloan Borrowers Attending Hearing........................   109
Coit, David:
    Testimony....................................................    36
    Prepared Statement...........................................    38
Kerry, The Honorable John F.:
    Opening Statement............................................     4
    Prepared Statement...........................................   222
    Post Hearing Questions for The Honorable Hector V. Barreto...   148
                                                                   Page

----continued.

Massaua, John R.:
    Testimony....................................................    52
    Prepared Statement...........................................    53
Pryor, The Honorable Mark:
    Opening Statement............................................     8
Sands, Patricia:
    Testimony....................................................    75
    Prepared Statement...........................................    78
Snowe, The Honorable Olympia J.:
    Opening Statement............................................     1
    Post Hearing Questions for The Honorable Hector V. Barreto...   110
Talent, The Honorable Jim:
    Opening Statement............................................    15
Tuvin, Edward ``Eddie'':
    Testimony....................................................    66
    Prepared Statement...........................................    68

                        Comments for the Record

Crawford, Christopher L., NADCO, Prepared Statement..............   200
Jahn, Chris, Contract Services Administration:
    Prepared Statement...........................................   206
    Strategic Alliance Memorandum with the U.S. Small Business 
      Administration and CSA.....................................   209
Golden, Ellen, Association of Women's Business Centers, Prepared 
  Statement......................................................   213
Kerry, The Honorable John F.:
    Letter from Senator Kerry to Senate Committee on 
      Appropriations, 
      Subcommittee on Commerce, Justice, State and the Judiciary.   229
    Letter to Senator Kerry from The Women's Economic Self-
      Sufficiency Team...........................................   240
    Letter to Senator Kerry from The Wesst Corp..................   236
    Letter to Senator Kerry from The Pennsylvania Women's Center.   238
    Letter to Senator Kerry from the Kansas Women's Center.......   241
    Letter to Senator Kerry from The National Women's Business 
      Council....................................................   242
    Letter to Senator Kerry from The Minority Business Summit 
      Committee..................................................   245
    Letter and Prepared Statement from The Association for Small 
      Business in Technology.....................................   247
Mazza, Pamela, Piero, Mazza and Pargament, PLLC, Comments for the 
  Record.........................................................   250
Neese, Terry, Women Impacting Public Policy, Prepared Statement..   255
Newlan, Ronald S., HUBZone Contractors National Council, Letter 
  with 
  Comments for the Record........................................   261
Snowe, The Honorable Olympia:
    Letter to Senator Snowe from The Southern Good Faith Fund....   239
Varney, Simon, Maine Institute of Technology, Letter with 
  Comments for the Record........................................   263
Weeks, Julie R., National Women's Business Council, Letter with 
  Comments for the Record........................................   265
Yancey, W. Kenneth, SCORE, Prepared Statement....................   271

 
                    THE PRESIDENT'S FISCAL YEAR 2006
                         BUDGET REQUEST FOR THE
                     SMALL BUSINESS ADMINISTRATION

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005,

                              United States Senate,
          Committee on Small Business and Entrepreneurship,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SR-428A, Russell Senate Office Building, the Honorable 
Olympia J. Snowe, Chair of the Committee, presiding.
    Present: Senators Snowe, Coleman, Thune, Kerry, and Pryor.

   OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, CHAIR, SENATE 
                COMMITTEE ON SMALL BUSINESS AND 
    ENTREPRENEURSHIP, AND A UNITED STATES SENATOR FROM MAINE

    Chair Snowe. The hearing will come to order.
    Good morning, and I want to welcome everybody to today's 
hearing on SBA's budget proposal for fiscal year 2006.
    I am very pleased to join the Ranking Member, Senator 
Kerry, in being here today to hear from Administrator Barreto. 
We want to welcome you, Administrator Barreto. We thank you for 
your advocacy and leadership on behalf of small businesses 
throughout America, and we appreciate your willingness to 
testify here today on SBA's proposed priorities for the coming 
year.
    We will also be hearing from representatives of the small 
business community, as well, in the second panel.
    In his State of the Union speech, President Bush said we 
live in a country where dreams are born. Nowhere is that more 
evident than in America's 25 million small businesses, 
entrepreneurs who have certainly taken risks and persevered 
through difficult times to fuel the engines of America's 
economy. Small business has propelled our Nation's economic 
growth, producing over 50 percent of the GDP and creating 
three-quarters of all new jobs in America.
    The Small Business Administration has long been a critical 
partner in that success, with lending and technical assistance 
programs that have helped to create or retain nearly 4.5 
million jobs since 1999. That number continues to grow each 
year. I think that is an illustration of the success of many of 
the small business programs that I am sure you are all familiar 
with. But I think that that does underscore the value of the 
Small Business Administration programs.
    Against that backdrop of achievement, the SBA's budget 
regrettably has been drastically reduced by 36 percent over the 
past 5 years, which is illustrated again in this second chart, 
just to show you the magnitude of the decline over the last 5 
years with respect to appropriations.
    When you consider that SBA's budget represents less 3/
100ths of a percent of the total Federal budget, there should 
be no doubt the time has come to end these unwarranted cuts and 
instead invest in a strong future of economic vitality.
    As Chair of this Committee for the second consecutive year, 
I am deeply concerned about the SBA's budget. The 
Administration's proposed $592 million represents a 13 percent 
decrease from the Agency's 2005 request and a 26 percent 
decrease from the 2004 request.
    The SBA has a clear record of success, and yet inexplicably 
it is juxtaposed with endless budget cuts. This morning I will 
be listening very carefully and intently in analyzing the SBA's 
request by both the Administrator and the subsequent witnesses 
on the second panel. We will have an obligation to not only 
maintain, but to strengthen the SBA's proven core loan and 
assistance program, again illustrated in the third chart--we 
are into charts this morning and the SBA's lending program. But 
again, it demonstrates the value of these programs and the 
success with the number of loans that have been issued in the 
last several years.
    The SBA's financing program, which is a crucial source of 
financing for small businesses, has never been more in demand 
with both the 7(a) and the 504 programs delivering measurable 
results. The numbers from fiscal year 2004 spell out that 
indisputable success of the 7(a) program, providing over $13.5 
billion in loans to help small businesses to help create 
132,603 new jobs, overall retaining 538,658 jobs. As you can 
see over here on this chart in the different programs with 504, 
7(a), the SBIC, the Microloan surety, the comparisons. But I 
think it illustrates the point.
    The 504 program, I hope everybody can see it, $4 billion to 
support the creation of 86,847 jobs all combined, to retain 
jobs as well as those created, and you see 152,287 jobs.
    So again I think it is an example of the extent of these 
programs and why we ought to be building on and strengthening 
these programs, rather than undercutting them.
    In addition, the SBIC program invested more than $2.8 
billion in small businesses in 2004, creating over 78,000 new 
jobs. I am hopeful that we can successfully restructure the 
SBIC program this year to ensure a strong track record 
continues well into the future.
    For the next generation of small businesses, it is also 
critical that the SBA's financing reaches out to aspiring 
entrepreneurs. And that is why, in addition to helping 
established small businesses, Congress wisely determined that 
the SBA should aid new and fledgling small businesses with the 
Microloan program. When this program was zeroed out last year 
I, and several of my colleagues, worked hard and successfully 
to restore $17 million in the appropriations for this program 
in the 2005 budget. Once again, I strongly disagree with the 
Administration's ill-considered request to eliminate the 
Microloan program.
    What we are talking about is a small and efficient, cost-
effective program that stacks up very well on a jobs per dollar 
comparison to larger SBA programs. Consider, for example, that 
in 2004, according to the SBA, the 7(a) program created and 
retained one job for every $23,600 in loans. The 504 program 
created and retained one job for every $26,043 in loans. And 
the Microloan program created or retained one job for every 
$3,608 in loans.
    In my own State of Maine, Microloans actually created and 
retained one job for every $3,700 in loans, according to SBA's 
numbers. The point is a little seed money goes a long way when 
the hunger for economic opportunity is high.
    So I believe it is clear that we should be supporting 
programs that foster job growth, especially in States like 
Maine, rural States that have been hard hit by manufacturing 
job losses and require that additional economic stimulus.
    Moving to contracting, I commend President Bush and the SBA 
for proposing an increase in the Government contracting and 
business development budget by over $4 million. But with regard 
to the new PCR proposals, I am concerned that with the proposed 
hiring of only six new procurement center representatives the 
Agency's ePCR initiative will not adequately police contract 
bundling services.
    This is especially significant because the PCRs are the 
SBA's competition Ambassadors, the sole watchdogs for the 
interest of small contractors.
    Moreover, many SBA procurement initiatives such as the 8(a) 
and the 7(j) programs appear to suffer from performance and 
management deficiencies. We have seen a consistent failure to 
achieve HUBZone statutory goals and the SBA's proposal to fold 
the HUBZone budget into the SBA's general budget only make 
matters worse.
    In addition, the SBA is proposing for a second year to zero 
out two technology grant programs, Rural Outreach and the 
Federal and State Partnership. These programs leverage the 
infrastructure of State technology agencies and non-profit 
research incubators to increase the geographic diversity and 
competitiveness of small hi-tech firms for States such as 
Maine, which have comparatively lower participation in Federal 
R&D efforts.
    At a time when business magazines are reporting that China, 
our key competitor, is aggressively expanding its technological 
base, ending this private/public partnership seems exactly like 
a move in the wrong direction.
    I am similarly dismayed with the proposed funding freeze 
for SBA's resource partners, despite the fact that these 
programs surpass the SBA's goals, assisting almost 1.5 million 
startup and existing small businesses. In fact, the Small 
Business Development Center program alone served over 725,000 
clients and helped create or retain over 168,000 jobs in fiscal 
year 2003. Similarly, the SBA's Women Business Center programs, 
with its unique training and counseling, helped to create and 
retain over 6,500 jobs in fiscal year 2003.
    So clearly, results from these funding freezes are lost 
opportunities for entrepreneurs and would-be employees.
    The SBA freezes also extend to the veterans business 
program. I believe that decision is not only unwise, but also 
uniquely ill-timed, as over 193,000 Guard and Reservists have 
been deployed since September 2001. An estimated 37 percent of 
those servicemembers work for small businesses or are self-
employed, and many of them are accepting risk and financial 
hardships in order to answer the call to duty.
    So I think it is essential that the veterans business 
program is adequately funded with the necessary resources to 
offer targeted assistance to veteran-owned small businesses.
    With that, Mr. Administrator, I look forward to hearing 
your testimony, and from those who will be participating in the 
second panel to offer their views and perspectives, because 
clearly we have to do everything that we can to strengthen and 
maintain these very successful programs.
    The point of my opening statement here this morning is to 
demonstrate and reinforce the fact that these programs have 
worked exceptionally well and we need to do more to strengthen 
and buildupon the resiliency and the outcomes that they have 
been able to achieve for so little money, that would help so 
many parts of America that are not experiencing the kind of 
economic growth that some parts of the country are enjoying. 
And certainly that is true of rural America.
    So with that, I turn to the Ranking Member, Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
           A UNITED STATES SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you very much, Madame Chair.
    First of all, let me say that I think that is a very 
important statement that you just made. I think it is a very 
fair, even gentle, assessment of where we find ourselves. And I 
welcome the non-partisan and I think thoughtful assessments on 
what the small business interests are and where we ought to be 
going. I think the Chair has accurately put her finger on a 
number of different concerns and I share many of those concerns 
and I will talk about them in a minute.
    First, if I may as a point of personal privilege, I would 
like to just take a moment to say to all of the Members of the 
Committee that we are losing for retirement one of the really 
superb staff members in the U.S. Senate.
    Patty Forbes has worked at this Committee for a long period 
of time. She has worked in the SBA. I cannot think of many 
people who have contributed as selflessly, as competently and 
in as wonderfully a bipartisan fashion as she has.
    I think Senators on both sides of the aisle have grown to 
respect her expertise, her commitment to small business, her 
unfailing devotion to duty, if you will, the way in which she 
has always welcomed people from every walk of life on every 
issue and tried to find the compromise, tried to find the 
middle ground to make things work.
    I think this Committee has been blessed to have her. And I 
just want to say, for my own part, how grateful I am for her 
service. I think we all thank her.
    [Applause.]
    Senator Kerry. Madame Chair, I would like to submit letters 
and my full testimony for the record, as well as some testimony 
from other folks.
    Chair Snowe. Without objection, so ordered.
    Senator Kerry. Thank you very much.
    It is hard to know where exactly to begin. I know that an 
Administrator is put in a position of carrying out the will of 
an administration. There are budget chiefs and the President 
himself and others who will dictate what will happen. So I am 
going to try to recognize that as I direct comments at you, Mr. 
Administrator, and at the Administration. I do not want to slay 
the messenger, so to speak.
    But I have to say that this budget is just really 
disturbing. Just look at the fundamentals that the Chair has 
put up there. I have spent 22 years here now. I spent a lot of 
those years on this Committee. Our job is to try to help small 
business. Our job is to try to create jobs in America. This is 
not a partisan Committee. This is probably one of the least--
this and the Intelligence Committee--are the two least partisan 
committees in the Senate. We exist for the purpose of helping 
98 percent of the businesses in America to be able to create 
jobs and to grow America. There are some time-honored, proven 
ways in which we do that.
    The success stories of lending programs by the SBA, those 
companies that have been successful, have themselves repaid the 
Nation in taxes and salaries paid many times more than the 
budget of the SBA. There is no debit here that has to be made 
up somehow.
    And yet you are cutting. You are undoing and destroying 
programs that work. You are destroying them, the morale of the 
Agency as well. You may assert otherwise, but we know 
otherwise.
    The fact is, in the small business community, people are 
really struggling to be able to make things work.
    The Administration, in 4 years and a bit now, has yet to 
create one new net job in America. One new net job. And it is 
small business that creates those jobs.
    I would think you guys would be trying to find ways to grab 
whatever you can and go out there and excite innovation and 
incubation in small business.
    I know you come in here and you are going to say to us, as 
you did in the House and elsewhere, that you have this rosy 
scenario. You are doing more with less. You are saving taxpayer 
money, zero funding for loans and so forth. But the fact is you 
have shifted costs to borrowers and lenders through higher 
fees. And those higher fees put loans out of reach for the 
neediest small business borrowers in America. A lot of us in 
this room understand that the SBA is now taking credit for 
things that Congress did, that rescued the SBA, like the 7(a) 
running out of money and bringing people together. There is a 
long story here of biting off your nose to spite your face.
    The SBA's plan to save money by zero funding its largest 
loan programs, you have admitted two key facts about the plan. 
No. 1, it only works because you have shifted cost to the 
borrowers and lenders through the higher fees. And second, we 
are going to have people who testify and you can talk to small 
business people, and they will tell you how much harder it is 
to get that kind of lending, which is what this is for.
    I do not believe the proposed program levels are adequate 
to meet the likely demand for these loans. And that demand, in 
my judgment, is essential to responding to America's need to 
create jobs here in this country and to incubate.
    In addition, I disagree with the proposals to eliminate the 
Microloan program and the SBA participating securities program. 
Each of them serve a financing gap in the marketplace and that 
is why we are here. I know there are some who ideologically 
resist the notion that the Government ought to do anything with 
respect to marketplace. But history has proven over 220-plus 
years that intervention is often necessary. We have the Federal 
Reserve. We have the various lending programs. We have a 
commerce clause. We have certain rules that we have to play by 
and there are certain regulations and interventions that are 
necessary to leverage behavior.
    Those particular financing mechanisms provide for a gap in 
the marketplace, which is why this Committee, in bipartisan, 
non-ideological fashion, helped put them there in the first 
place. We all know that traditional lending institutions and 
venture capitalists often look for the fastest return on 
investment or the safest return on investment or a combination 
of the two and that does not always work for some kind of 
options.
    When I was Lieutenant Governor, I sat on the board of 
something called the Massachusetts Technology Development 
Corporation. We actually funded the companies that fell through 
the gaps. The minute they began to take off and turn 
successful, we got the heck out of it because we did not want 
the Government involved. But we put big companies on the big 
board in New York that otherwise would not have gotten there. 
Jobs were created and people became successful and it more than 
paid for itself. Why we turn away from these obvious success 
stories is absolutely beyond me. And I think the 
Administration's budget is shortsighted with respect to the 
economy.
    In the Microloan program, in all the years since its 
inception in 1992, there have been only one or two defaults. It 
creates jobs at a bargain rate, less than $4,000 a job versus 
the $33,000 of the SBA's other programs. And it meets the SBA's 
goals of more startups. Why are we not building it instead of 
reducing it?
    The 7(a) Community Express program, while a good program 
for more established small businesses, is not a substitute for 
the Microloan program. Your budget for this year, just like 
last year, continues your assault on entrepreneurial 
development programs that help low-income, minority, home-
based, rural and women entrepreneurs.
    I oppose the cuts to these programs. I am particularly 
concerned about what you are doing to the Women's Business 
Center and PRIME programs. The PRIME program has no substitute. 
You have praised it, Mr. Administrator. You have talked about 
how important it is. I could quote you here. ``It has no 
substitute and it helps a sector of our economy that needs it 
the most.''
    With regard to the Women's Business Center program, you 
have repeatedly said that you are not going to support 
sustainability grants which allow the most experienced and 
productive centers to continue receiving matching funding. That 
program has enjoyed strong bipartisan and bicameral support, 
including Chairwoman Snowe, Senator Talent when he chaired the 
House Small Business Committee, and most of the Members of this 
Committee. But you are going in the opposite direction.
    Repeated requests from the women's business community and 
strong support from many of us in Congress have kept this 
program going. But last year's extension, which passed as part 
of the Appropriations Bill, only funded the program through 
fiscal year 2005. And without a new authorization about 60 
percent of the Women's Business Centers are going to be forced 
to close. Is that a good idea?
    Madame Chairwoman, I am deeply concerned with the 
Administration's ongoing strategy that limits transparency and 
reduces the oversight authority of this Committee by removing 
program funding from line items in the budget and incorporating 
them into the operating budgets of managing offices, which 
given the experience we have been through, is a way of saying 
we are in for trouble down the road.
    I am especially concerned with the elimination of the line 
item for advocacy research and the lack of independence that 
would result from such a transfer of budget authority.
    So I thank you, Madame Chairwoman, for having this hearing.
    I might add, on the association health plans, here we come 
again. No bigger issue did I run into across the country than 
health care. That is America's crisis, not Social Security. 
Social Security is a problem. It is a problem that we can deal 
with, and we will deal with it, just as we have the past.
    The crisis is health care. And the President and the Small 
Business Administration ought to be leading on it. Of all of 
the people in the world to be leading on something, small 
business. It is small business people who cannot provide their 
care. They are the ones being crushed under the costs of health 
care.
    And the Congressional Budget Office has said that the 
association health plans will raise the cost of doing business 
for four out of five of the premiums that are paid. That is the 
CBO. It is non-partisan. It is just an assessment of what is 
going to happen. Four out of five small business workers and 
their families' premiums are likely to go up under that plan.
    We have a plan where premiums could go down. With a 
reinsurance plan, you could actually stopgap costs for all 
businesses in America. You could lower the premiums for 
everyone in America and begin to get a breathing spell and 
reduce costs in the country. But you have to make a different 
set of choices than this Administration is willing to make.
    So I am disappointed by the budget. I know that is not 
going to come as a surprise to you, but it is not a partisan 
disappointment. It is not prompted by anything to do with 
ideology. It is practical. It is based on sound experience of 
this Committee. It is based on what we know works. It is based 
on good business practices. And most importantly, it is based 
on the pleas and needs of small business people all across this 
country, whether they are Republicans, Independents or 
Democrats.
    I think your budget is out of touch with them and with the 
needs of the country, and I regret that.
    So I look forward to the hearing and we will see what we 
can do to try to cobble something together that makes sense.
    Chair Snowe. I thank you, Senator Kerry.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
             A UNITED STATES SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Madame Chair, and thanks for 
having this hearing today. You and Senator Kerry both have 
shown great leadership on this issue in the past and continue 
to do so. I look forward to hearing from our witnesses. Thank 
you.
    Chair Snowe. You have heard us for 20 minutes. Begin.

      STATEMENT OF HON. HECTOR V. BARRETO, ADMINISTRATOR, 
               U.S. SMALL BUSINESS ADMINISTRATION

    Administrator Barreto. Thank you, Chair Snowe and Senator 
Kerry and Members of the Committee. Thank you for inviting me 
here today to discuss the President's budget request for the 
SBA for fiscal year 2006.
    The past year was not without its challenges for SBA. We 
faced several critical issues and we worked together to reach 
agreements that benefited both America's small businesses and 
America's taxpayers. When 7(a) loan demand exceeded its budget 
authority, SBA and this Committee were able to come together 
with our lending industry partners to provide an additional $3 
billion in lending authority for the 7(a) program. This allowed 
the Agency to lift the loan caps and guarantee a record $12.7 
billion in small business loans in fiscal year 2004.
    At the beginning of fiscal year 2005, SBA began operating 
the 7(a) program at a zero subsidy rate. This trial period 
showed that a zero subsidy would not hinder access or delivery 
of the 7(a) program. As a result, again the SBA and the 
Committee and the lending industry came together to craft 
legislation that ensured long-term stability in the program.
    Since October the 1st, SBA has guaranteed $4.7 billion in 
loans and our lending partners have showed renewed support for 
the program. In addition, we are making more loans than ever to 
minorities, women and veterans.
    Last, SBA's programs under the Small Business Act had not 
been reauthorized in over 4 years and the Agency and this 
Committee seemed to be deadlocked in the negotiating process. 
However, persistence and diligence in pursuit to this goal 
produced a compromise 2-year SBA reauthorization, which the 
108th Congress approved. This compromise was part of the fiscal 
year 2005 Omnibus Appropriations Act and I thank you for your 
support of SBA's efforts to become more efficient. This 
legislation allows the Agency to better serve small businesses 
at less cost.
    Our fiscal year 2006 budget submission reflects a continued 
commitment to that goal. Last year I stressed to you that SBA's 
goal was to do more with less. I know that in Washington, DC. 
it is difficult to imagine supporting a program without 
continually increasing its budget, but SBA has proven it can be 
done. Since I became SBA Administrator in 2001, the Agency's 
annual appropriation has decreased, yet SBA's programs have 
reached more and more American entrepreneurs year after year.
    Last year was a great example of this kind of success at 
the SBA. The Agency provided $21.3 billion in loan guarantees 
and related financing to nearly 88,000 small businesses. SBA's 
core infrastructure of technical assistance programs, our 
SBDCs, our SCORE, our Women Business Centers and district 
offices provided their services to record numbers of small 
businesses in fiscal year 2004.
    SBA's Entrepreneurial Development Programs provide 
expertise and guidance to entrepreneurs who have the drive and 
the idea, but need a little help putting all of that together 
in a working business plan. SBA's continued support of the 
Federal Government's statutory commitment to provide a fair 
share of contracting dollars to small businesses. Small 
businesses received a record number of Federal contracts in 
fiscal year 2003, $65.5 billion, and exceeded the 23 percent 
Government-wide goal.
    SBA has also been innovative in creating contracting 
opportunities for small businesses. For example, the Business 
Matchmaking Program has given small businesses around the 
Nation a better opportunity to obtain Government and private 
contracts by introducing them to procurement officials who 
otherwise would be very difficult to meet. This allows small 
firms to learn about and bid on procurement opportunities in 
their areas of expertise. As a result, $29 million in Federal 
and private contracts have been awarded so far.
    SBA has been active in other areas of contracting, as well. 
I am proud of the hard work done to implement the provisions of 
PL 108-183 in record time, providing contracting officers with 
a powerful tool to award contracts to those who have given so 
much to our country, service disabled veterans. In December, 
the Agency implemented a new policy to more accurately monitor 
contract awards when a small business is purchased or merged 
with a larger business. The new policy requires a business to 
recertify itself as small when Federal contracts are 
transferred to it, in order to be continued to be counted as a 
small business contract.
    For years to come, victims of the worst hurricane season on 
record will remember how SBA helped them get back on their 
feet. During fiscal year 2004, the SBA's Disaster Program 
provided more than $884 million in low-interest loans to over 
28,000 homeowners and businesses. The supplemental 
appropriations allowed SBA to increase these numbers to over 
100,000 loans for up to $4 billion. This will enable the local 
economies to recover as quickly as possible.
    President Bush understands the vital role that America's 
small business play in creating opportunities. He also 
recognizes that small business generate two-thirds of all of 
the new private-sector jobs. The President's plan for economic 
growth and job creation, along with his small business agenda, 
has been successful in creating an environment in which 
entrepreneurship can flourish.
    Health care continues to be one of the largest burdens our 
small businesses must bear. Time and again, as I meet with the 
entrepreneurs around the Nation, they talk to me about the cost 
of health insurance. And it is only getting worse. We will 
continue to support the use of health savings accounts and urge 
Congress to pass association health plans.
    We also plan to make the President's tax proposals 
permanent, which will help small businesses and their employees 
keep more of what they earn and reinvest that money in their 
families and their businesses. Recognizing these successes, we 
look forward to the future with renewed dedication to serving 
America's small businesses in a financially responsible manner.
    Now I would like to lay out the specifics of fiscal year 
2006 budget request. SBA's total request is for $592.9 million. 
This request provides for a strong active SBA that can 
effectively and efficiently meet the demands of its customers, 
America's entrepreneurs, while minimizing the cost to the 
taxpayers. Through improved management and program reforms, SBA 
will better serve small businesses.
    SBA requests $16.5 billion in lending authority for its 
7(a) loan program. This record amount of lending authority will 
provide the loans small businesses need in a timely manner and 
without disruption due to the stability of the zero subsidy 
rate policy. This request will also give SBA the authority to 
provide $5.5 billion in loans through the 504 Certified 
Development Company Program, also at no cost to the taxpayers.
    SBA continues to support venture capital for small 
businesses. SBA requests $3 billion in authority for the SBIC 
Debenture Program. For 50 years this program has provided 
venture capital for success stories such as Nike, Intel, 
Calloway Golf, and many others. However, we are not proposing 
to reinstate the Participating Securities Program at this time. 
In 10 years of operations, this program has resulted in 
reestimated losses of $2.7 billion to taxpayers. And that kind 
of result is unacceptable.
    Through more flexible budget structure, SBA is seeking 
increased efficiency and quality of services. The request 
proposes that the Agency work through its Nationwide 
infrastructure of Women Business Centers, veterans outreach 
centers, SCORE chapters, Small Business Development Centers and 
district offices.
    This budget also includes continued funding for the 
Agency's Disaster Program. As you are aware, the SBA is a major 
part of the Government's mechanism to help disaster victims get 
back on their feet.
    Some of the heaviest burdens borne by small businesses in 
America are the result of unnecessary Federal regulation and 
red tape. That is why I am pleased that the SBA's budget 
includes $9.1 million for the Office of Advocacy. This funding 
will allow advocacy to fulfill its mission.
    In his February 2 State of the Union address, the President 
underscored the need to restrain spending in order to sustain 
our economic prosperity. As part of this restraint, it is 
important that total discretionary and non-security spending be 
held to levels proposed in the fiscal year 2006 budget.
    The budget savings and reforms in the budget are important 
components of achieving the President's goal of cutting the 
budget deficit in half by 2009 and we urge the Congress to 
support these reforms. The fiscal year 2006 budget includes 
more than 150 reductions, reforms and terminations in non-
defense discretionary programs of which two affect SBA. These 
are the Microloan and SBIC Participating Securities Programs.
    SBA must be forward thinking. We must anticipate changes in 
the marketplace and adjust our programs based on the realities 
of today's small business environment. SBA's fiscal year 2006 
request is good for America's small businesses and taxpayers 
and I ask for your support for our fiscal year 2006 budget 
request.
    Thank you again for the opportunity to appear here today. I 
am happy to answer any of your questions.
    [The prepared statement of Administrator Barreto follows:]

        Prepared Statement of Hector V. Barreto, Administrator, 
                   U.S. Small Business Administration

    Madam Chair, Ranking Member Kerry and Members of the Committee, 
thank you for inviting me here today to discuss the President's Budget 
Request for the U.S. Small Business Administration (SBA) for Fiscal 
Year (FY) 2006.
    As the Committee is aware, the past year was not without its share 
of challenges for the SBA. However, I am proud to say that last year 
was also one of great success for both the Administration and the 
Senate Small Business and Entrepreneurship Committee. We were faced 
with several critical issues, but we were never able to work together 
and reach agreement in ways that proved beneficial to both America's 
small businesses and America's taxpayers.
    In FY 2004, when the 7(a) loan program's demand exceeded its budget 
authority, the SRA and the Committee were able to come together, and 
with the assistance of our partners in the lending industry, to provide 
an additional $3 billion in lending for the 7(a) program, at no 
additional expense to the taxpayers. This allowed the Agency to lift 
the loan caps and operate the program at full capacity for the 
remainder of FY 2004. As a result, the Agency guaranteed a record $12.7 
billion in small business loans in FY 2004.
    At the beginning of Fiscal Year 2005, under the continuing 
resolution, the SBA began operating the 7(a) program at a zero subsidy 
rate. This ``trial period'' showed that a zero subsidy rate would 
hinder access to and delivery of the 7(a) program, As a result, the 
SBA, the Committee, and the lending industry came together to craft 
legislation that allowed the program to operate without appropriations 
from Congress and ensure long-term stability in the program.
    This change significantly reduced the potential for future progam 
disruptions and uncertainties, and allowed the Agency to reduce its 
budgetary needs while continuing to service America's small businesses.
    I know some have expressed concern that the resumption of the 2002 
fee levels would harm small businesses. However, since October 1, SBA 
has guaranteed over $4.4 billion in loans, an increase of over 11 
percent over last year, and our leading partners have shown renewed 
support for the program. In addition, we are making more loans than 
ever to minorities, women and veterans.
    At this time last year, the SBA's programs under the Small Business 
Act hadn't been reauthorized in over 4 years, and the Agency and the 
Committee seemed to be deadlocked in the negotiating process. However, 
persistence and deligence in pursuit of this goal of reauthorization 
finally produced a compromise in the form of a two-year SBA 
reauthorization that passed at the end of the 108th Congress.
    Chair Snowe, I would like to compliment you and your staff on 
ensuring that this legislative compromise was included as part of the 
FY 2005 Omnibus Appropriations Act and for your support of SBA's 
efforts to become more efficient. This legislation allows the Agency to 
better serve more small businesses at less cost. Our FY 2006 budget 
submission reflects a continued commitment to that goal. Small business 
customeers are taxpayers and understand the need to cut unnecessary 
costs and keep up with an ever-changing marketplace.
    Last year, I stressed to you that SBA's goal was to do more with 
less. I know that in Washington, DC, it is difficult to imagine 
strongly supporting a program without continually increasing its 
budget, but SBA has proven that it can be done.
    Since I became SBA Administrator in 2001, the Agency's annual 
appropriation has continued to decrease, yet SBA's programs have 
reached more and more American entrepreneuers year after year.
    Last year was a great example of this kind of success at the SBA. 
The Agency provided $21.3 billion in loan guarantees and related 
financing for approximately 87,800 small businesses in FY 2004; these 
being record levels.
    Out of that $21.3 billion, nearly one-third went to women-owned and 
minority-owned businesses, which is more than any prior year; over $500 
million went to African Americans; approximately $2.8 billion went to 
women; over $1.2 billion went to Hispanics; and over $115 million went 
to the Native American community. These figures represent the 
Administration's continued commitment to ensuring that the SBA's loan 
programs truly serve those small businesses that would otherwise have a 
difficult time accessing capital from the lending world. I am proud of 
the successes documents by these efforts.
    Our administrative transformation efforts have also produced 
similar results. As this Committee knows, the Agency has been going 
through a transformation process designed to realign some of its dated 
infrastructure to meet the changing face of the 21st century business 
world. The needs of the SBA's customers remain paramount, and 
modernizing and realigning the Agency's human capital resources, 
operations, and organizational structure to match those needs is 
crucial to the Agency's continued relevance. Last year, the SBA began 
consolidating administrative servicing functions, allowing field office 
staff to work more closely with their clients in the small business 
community. The Agency's field offices are using technology, outreach, 
marketing, and customer relationship management to better meet small 
business needs. Through these modernization efforts, more SBA employees 
will be in more locations, providing direct assistance to the small 
business community at a lower cost.
    The SBA has also been effective in streamlining processes on the 
loan finance management side of the organization. Currently, over half 
of SBA's 7(a) loans are made through SBAExpress, which is processed 
electronically in a 36-hour timeframe. Centralization has reduced the 
7(a) program guarantee and purchase liquidations timeline to an average 
of less than 45 days. The 504 program reduced loan application 
processing time to just two days, five times faster than the prior 
national average of ten business days. These dramatic improvements 
directly affect the SBA's partner lenders, and ultimately, the Agency's 
customers, America's small business owners.
    SBA's core infracture of technical assistance programs--SBCDs, 
SCORE, WBCs, and district offices--provided their services to record 
numbers of small businesses in FY 2004. SBA's Entrepreneurial 
Development programs provide much-needed expertise and guidance to 
those entrepreneurs who have the drive and the idea, but may need a 
little help putting all of that into a working business plan.
    The SBA also continued its mission to support the Administration in 
meeting its statutory commitment to provide a fair share of contracting 
dollars to small businesses. Small businesses received a record number 
of Federal contract dollars in FY 2003--$65.5 billion--and exceeded the 
23 percent government-wide goal. I am also proud to say the Federal 
contracting dollars increased for women-owned businesses, 8(a), SDB, 
HUBZone and Service-disabled veteran-owned firms. In FY 2004, the SBA 
provided procurement assistance to over 37,000 small businesses.
    The SBA has also been innovative in creating additional contracting 
opportunities for small businesses. For example, the Business 
Matchmaking program has given small businesses around the Nation a 
better opportunity to obtain government and private contracts by 
introducing them to procurement officials who otherwise would be very 
difficult to meet. The program's goal is stimulate jobs and growth for 
small businesses by taking advantage of opportunities that are normally 
confined to distinct geographical areas such as the Washington, DC area 
or a city where a major corporation is located. Since the program 
started 2 years ago, 23,000 one-on-one appointments between small 
business owners the Federal and corporate procurement officials have 
been conducted. The program has allowed small firms to learn about and 
bid on procurement opportunities in their areas of expertise. As a 
result, $29 million in Federal and private contracts have been awarded. 
More than 50 percent of the small businesses that have received 
contracts through this initiative are women-owned or minority-owned 
businesses.
    SBA has been proactive in other areas of contracting as well. I am 
proud of the hard work done by my staff last year to implement the 
provisions of P.L. 108-183 in record time, providing contracting 
officers with a powerful tool to award contracts to those who have 
given so much to our country; service-disabled veterans.
    Additionally, the Agency recently published a rule clarifying the 
responsibilities of prime contractors and giving contracting officers a 
tool to ensure that small business subcontractors are treated fairly 
when doing work on Federal contracts--an issue plaguing many small 
businesses. In December, the Agency also implemented a new policy that 
enables the Federal Government to more accurately monitor contract 
dollars awarded to small business concerns that are subsequently 
purchased by large business concerns. The new policy requires a 
business to recertify itself as small when a change-of-name or novation 
agreement has been executed if the contract is to continue being 
counted as a small business contract.
    In the past year, the SBA has moved to a completely automated 
electronic application process for both the 8(a) and Small 
Disadvantaged Business (SDB) Programs. As a result, the average time to 
process an 8(a) application has fallen from over 100 days to 45 days, 
and for SDB, the drop is from 110 days to 40 days. Consequently, time 
and government resources are being used more efficiently, and at the 
same time, better customer service is being given to small businesses.
    While I am always more than pleased to talk about the active role 
that the Agency plays in the small business world, I really couldn't be 
more proud of the humanitarian assistance provided by SBA's Office of 
Disaster Assistance.
    For years to come, people will remember the tremendous work the SBA 
did in 2004 to help disaster victims recover from the worst hurricane 
season on record. During FY 2004, the SBA Disaster Assistance program 
approved low-interest loans to over 28,500 homeowners and businesses 
grossing over $884 million. The supplemental appropriations allow the 
Agency to increase these numbers to over 100,000 loans for up to $4 
billion. The direct public benefit of these SBA loans is that the 
businesses and local economies in disaster areas will be able to 
recover much more quickly than would have otherwise.
    While we can enjoy the successes of the last year, we must continue 
to look towards the future with renewed dedication to serving America's 
small businesses in a financially responsible manner. In fact, the 
disaster Assistance program has begun its transformation to electronic 
processing, simplifying the process for disaster victims and providing 
them with faster responses while reducing costs to administer the 
program.
    President Bush understands the vital role that America's small 
businesses play in creating opportunities. He also recognizes that 
following times of economic downturn, small businesses play a leading 
role in economic recovery, and that it is small businesses that 
generate approximately two-thirds of all new private sector jobs. The 
President's plan for economic growth and job creation, along with his 
Small Business Agenda, has been successful in creating an environment 
in which entrepreneurship can flourish.
    Health care continues to be one of the largest burdens our small 
businesses must bear. Time and again, as I meet with entrepreneurs 
around the Nation, they talk to me about the cost of health insurance, 
and it is only getting worse. We also plan to make the President's tax 
proposals permanent to help small businesses and their employees keep 
more of what they earn to re-invest that money in their families and 
their businesses.
    Finally, we want to help the President repair the Social Security 
system. Some people have claimed that the system is not in need of 
repair, that the crisis is fifty years away, but I believe it is our 
responsibility to those in their teens and twenties now to fix the 
program for their future rather than waiting until the problem becomes 
acute and unmanageable. I also believe that acting now is the best and 
fairest way to craft a solution that will not result in unfair costs on 
small business employers and employees or benefits cuts to those who 
have paid into the system in good faith. It is time for us to take the 
800-pound gorilla out of the picture and remove its unwelcome presence 
from the plans and futures of small business owners and their employees 
who are paying the taxes that feed it.
    Now, I'd like to lay out the specifics of our FY 2006 budget 
request. The SBA's total budget request is $592.9 million. This budget 
request provides for a strong, active SBA that can effectively and 
efficiently meet the demands of its customers, America's small business 
entrepreneurs, while minimizing the cost to the American taxpayer. 
Through improved management and program reforms, the SBA will better 
serve America's small businesses.
    The SBA requests $16.5 billion in lending authority for its 7(a) 
loan program--a $500 million increase over the enacted level for FY 
2005 and almost a 25 percent increase over FY 2004 levels. The 7(a) 
subsidy rate for FY 2006 remains at zero, meaning the 7(a) program can 
guarantee $16.5 billion in small business loans without requiring a 
taxpayer subsidy.
    This Budget Request will give SBA the authority to provide $5.5 
billion in loans--also a $500 million increase over the FY 2005 enacted 
level--through its 504 Certified Development Company (CDC) program with 
no cost to the taxpayers. The 504 program, which was established to 
increase small businesses' access to real estate and other long-term 
fixed asset financing, continues to have job creation as an important 
program goal. The SBA is continuing to take steps to increase small 
businesses' access to 504 loans by increasing competition among CDCs 
and streamlining the application process.
    SBA is asking for $3 billion in debenture authority for the Small 
Business Investment Company (SBIC) program. This program has continued 
to operate with expectations, providing benefits to recipient firms and 
with financial projections. The Administration's budget does not 
propose reinstating the SBIC Participating Securities program in 2006. 
In ten years of operations this program has resulted in re-estimated 
losses of $2.7 billion, $1.7 billion of which are realized cash losses.
    I am continuing my advocacy for greated efficiency and more and 
better quality of services to small businesses by consolidating 
delivery of services to small businesses through the Agency's core non-
credit programs. As we discussed last year, SBA does not need 
restrictive line-items placed in its budget in order for the Agency to 
reach more small businesses.
    The HUBZone program is an excellent example of this. In FY 2004 and 
FY 2005, Congress mandated that the SBA spend $2 million on the HUBZone 
program. Congress expanded access to this program in the recent SBA 
reauthorization bill. While SBA is not asking for a special line item, 
the SBA fully intends to support this program from within our Salaries 
and Expenses account. As you can see from the Agency's FY 2006 budget, 
SBA plans to provide $7.3 million in support for the HUBZone program, 
providing resources that keep the program strong without hampering our 
ability to meet challenges and serve all of our customers' needs.
    Further, SBA is working to enhance the HUBZone program and its 
other government contracting programs through monitoring and assessing 
the effectiveness in reaching their target audience. Results of this 
analysis will help SBA better use its resources in reaching these 
businesses. Through the Business Matchmaking Initiative, SBA will put 
more small businesses in touch with procurement officers at all levels 
of government and those at-large businesses. The one-on-one meetings 
facilitated through these events provide small business owners with an 
opportunity to speak directly with the decisionmakers.
    SBA will also be working more closely with other Federal agencies, 
ensuring that their contracting practices maximize opportunities for 
small businesses while still providing a good deal for the taxpayer. 
Through EPCR and the ESRS systems, the SBA will have more tools to 
monitor prime and subcontracts to ensure small businesses are given 
adequate opportunities to contract with the Federal Government.
    The SBA also believes it can provide a full range of technical 
assistance more effectively by using its core national delivery 
programs. The Budget Request proposes that the Agency work through its 
primary infrastructure of 104 Women's Business Centers, 4 Veterans 
Outreach Centers, 389 SCORE chapters, 1163 SBDCs, and 68 district 
offices. They can reach more customers and offer higher levels of 
service to targeted constituencies and, by eliminating the duplication 
and bureaucracy that is inevitably created by a large number of smaller 
programs, they can do it far more effectively.
    The Budget Request also includes continues funding for the Agency's 
Disaster Loan Program. The SBA works very closely with the Federal 
Emergency Management Agency to assist those small businesses and 
individuals directly affected by disasters such as tornadoes, floods 
and hurricanes. As you are aware, the SBA is a major part of the 
government's mechanism to help disaster victims get back on their feet.
    As the Committee is well aware, some of the heaviest burdens borne 
by small businesses in America are the result of unnecessary Federal 
regulation and red tape. That is why I am pleased that SBA's budget 
includes $9.1 million for the Office of Advocacy. This funding will 
allow Advocacy to fully staff its regional operations; to continue 
training Federal agencies on how to comply with the Regulatory 
Flexibility Act; and to research, document, and report to Congress on 
small business matters.
    In FY 2006, the Office of Advocacy expects to same small business 
$5.6 billion in potential regulatory costs. Madam Chair, that is a 
substantial amount of savings for America's entrepreneurs.
    Another crucial area where the SBA continues to make progress is in 
lender oversight. Since the Loan and Lender Monitoring Systems (L/LMS) 
became operational in 2003, it has provided the SBA and the Federal 
Government with an exceptional level of oversight of SBA's guaranteed-
loan program operations. L/LMS is a risk-based approach to oversight 
that provides the Agency with greater insight into SBA's lenders. It is 
more streamlined and efficient, allowing us to better deploy our 
resources to those areas where the SBA has the greatest exposure while 
being less intrusive to the lenders.
    Specifically, L/LMS has improved SBA's lender oversight by directly 
increasing our loan portfolio and lender monitoring capability. The 
result is SBA's first database confining future credit risk analysis 
with past performance. L/LMS also enables the SBA to use historical 
business loan level data when assessing risk levels.
    The impact of L/LMS has been profound. For example, in previous 
years, the Kansas City Review Branch and District Offices reviewed most 
of the SBA's lenders. Preferred 7(a) lenders were reviewed onsite every 
year and other lenders were reviewed once every three years. L/LMS now 
provides non-disruptive off-site monitoring capabilities that consider 
both the performance and credit risk of every loan the lender makes and 
funds.
    The SBA is committed to continuously reassessing and improving the 
potential impact of L/LMS for the Agency and its customers. We are 
constantly evaluating new ways in which we can improve our own 
operations to meet the full potential of L/LMS.
    All of us at the SBA are quite proud of the Agency's legacy of 
achievement. Many of today's most successful businesses received SBA 
assistance in their formative stages. Who knows which of tomorrow's 
industry leaders are today receiving their 7(a) or 504 loans, their 
Government contracting opportunities, or their counseling through the 
SBA's programs and services?
    However, we at the SBA cannot rest on our laurels. We must be 
forward-thinking, anticipate changes in the marketplace, and adjust our 
programs based on the realities of today's small business environment.
    The SBA's FY 2006 request is good for America's small businesses 
and American taxpayers. If offers an opportunity for us to work 
together with our Congressional partners to ensure that the SBA 
continues to assist small businesses. We ask for your support for our 
Budget Request. Thank you for the opportunity to appear today. I am 
happy to answer your questions.

    Chair Snowe. Thank you, Administrator Barreto.
    Before we turn to questions, I am going to recognize 
Senator Talent from Missouri. He is not a member of this 
Committee, but he has been a longtime advocate for small 
business and previously served in the House as Chair of the 
Small Business Committee.
    So I certainly welcome his presence here today and, most 
importantly, his testimony and his input.
    Senator Talent.

              STATEMENT OF HON. JAMES M. TALENT, 
             A UNITED STATES SENATOR FROM MISSOURI

    Senator Talent. I appreciate that very much. I want to 
thank the Chair and the Ranking Member, first of all, for 
letting me testify and then sandwiching me in after the 
Administrator. I appreciate the Administrator's indulgence 
before he takes questions.
    I wanted to testify just very briefly, Madame Chair, 
because I feel so strongly about the importance of sustaining 
the SBA's Participating Security SBIC Program. It is, as the 
Chair knows and the Ranking Member knows, it is the only equity 
investment program the Government sponsors in the SBA. The 
other programs are all loan programs, good programs, but now 
ones that directly provide capital.
    Anybody who talks to small business a lot knows that the 
shortage of investment capital, either to get started or to 
grow, is one of the big problems that they confront.
    We know about this program in Missouri. Of $8.9 billion in 
participating security investments since the program began in 
1994, approximately $135 million have been invested in 
Missouri. Those investments netted an estimated 3,750 jobs and 
over $641 million in portfolio company revenue.
    The example I always use because it has relevance to my 
family is the Build-A-Bear Company. Between 1998 and 2001, two 
SBICs invested $13.2 million in Build-A-Bear Workshop. It is a 
retail and Internet business. For those who do not have 
daughters or granddaughters and therefore may not know about 
this, Build-A-Bear Workshop is a retail and Internet business 
that provides a place for people of all ages to make and name 
their unique bear or other stuffed creation. The first store 
opened in St. Louis in 1997. Now the company operates 170 
stores in 40 States and Canada. It is opening a store in 
Sheffield, England. It has gone from 30 employees to 4,000 
employees. Madame Chair, it would not have happened if not for 
the SBIC Participating Investment Program.
    I know there are problems and the Government is incurring 
losses. We are coming out of a recession and whenever we do, as 
the Chair and the Ranking Member knows, we have to look and 
refine these equity investments as well as the loan programs. 
And we certainly need to do that. I also agree that we need to 
get to a zero subsidy rate for the program. I think we can do 
that.
    But what I would ask the Committee to consider and the 
Administrator to consider and to do is to work with the SBICs 
in restructuring the program to come up with a zero subsidy 
rate, but in a way that allows the program to continue. I think 
we can do that. I hope that the Administrator will consider 
that. And I hope those at OMB will consider that, as well. I 
know they have never really had confidence in this program, but 
I can tell you it works.
    Again, thank you. I am not going to interrupt the hearing 
any longer, but I thank you, Madame Chair, for permitting me to 
testify.
    Chair Snowe. Thank you, Senator Talent.
    Your points are well taken and we appreciate the expertise 
you have brought to this matter, because this is a crucial area 
for venture capital for small businesses. You are absolutely 
right. We have to find a way to address this problem.

               STATEMENT OF HON. NORMAN COLEMAN, 
             A UNITED STATES SENATOR FROM MINNESOTA

    Senator Coleman. Madame Chair, before Senator Talent 
leaves, I want to associate myself with his comments. We face 
the same situation in Minnesota. We understand some of the 
difficulties.
    But we are really faced with what I call a ``perfect 
storm.'' We went into recession. These are the companies that 
were hit by that. But I think we can look back at what some of 
the challenges are. We can get to the zero subsidy rate.
    So I commend my colleague from Missouri and let him know 
that I stand in full support of what he has to say and look 
forward to working with Administrator Barreto.
    By the way, thank you for your leadership. Thank you for 
doing an outstanding job. I have always enjoyed the 
relationship. I think this is an opportunity where we can build 
something that is worthwhile for all of us.
    Chair Snowe. Thank you, Senator Coleman. Thank you, Senator 
Talent.
    Administrator Barreto, let me begin. Obviously you have 
heard bipartisan disappointment expressed on the direction of 
some of these programs. We understand the economic vise that 
you are certainly in, in trying to develop as part of the 
overall Federal budget. It is obviously multiple challenges.
    But I also think in that process, as I have always had in 
advocating a balanced budget, you have to be discerning about 
what ultimately are the priorities for the Federal Government.
    I happen to think, whether I were Chair of this Committee 
or not, that we ought to be investing in small business 
programs because they give you the biggest bang for the buck. 
It is where job creation is happening in America. If it were 
not for small business, it would not be happening. Those are 
the clear and discernible facts.
    I think that is the challenge here today, what we can do to 
reverse that direction. It may well be that under your 
leadership, that in spite all of those cuts that you have had 
to endure within these programs, you have managed to make sure 
that they are moving in the right direction in terms of job 
creation.
    The question is how low can you go before you do harm? That 
is the problem, when you see a 36 percent decline over the last 
5 years and yet we have managed to create, as I showed in the 
chart, 4.5 million jobs since 2001, 3.2 million with these 
appropriations and these types of decreases. But when you are 
talking about eliminating programs like the Microloan program 
for example, or the PRIME program, folding in HUBZone, another 
program that I think should meet its statutory goal, we have to 
figure that one out, as well, level fund the non-credit 
programs like SCORE and Women's Business Centers, veterans 
outreach centers, for four consecutive years ultimately it does 
harm.
    In an economy that is disparate, depending on where you 
live in America, and I can cite that chapter and verse 
representing the State of Maine. It has a disparate economy. It 
is a rural economy. We are here to figure out how we are going 
to fuse America to be one, rural and urban, so that everybody 
has the ability to enjoy the economic opportunities this 
country can afford.
    And so while we have had all this great growth in certain 
parts of the country, it is not happening all over. The one 
unifier, in my estimation, happens to be small business. That 
is the unifying factor. I do not want to see rural economies 
withering up. Even in my State, when we see what is happening, 
turning back their governments because they cannot afford to 
run them in small towns. That is happening in many parts of 
America. Small business can be the key to all of that.
    That is my concern. We ought to be looking at well, you 
know, in the overall Federal Government, the macro budget, what 
are some key programs? It is amazing what these programs do and 
what they generate for job growth. I am not so sure all of our 
colleagues know that in the United States Senate, as much as we 
have tried to give that message. We should be doing more of 
this. We should not be moving in the direction of cut, cut, cut 
because ultimately it is going to have a multiplying effect in 
the wrong direction. We are charting a different course than we 
should be charting for these programs.
    Second, we are demanding on high fees, which gets me to my 
next point. It is on the 7(a) program. You are going to see a 
118 percent increase in the last 3 years in the 7(a) program. 
Now, I understand that it is being reestimated. The subsidy 
rate, was reestimated. Now it is a third lower, so it was 
calculated so much higher last year. We need to find out 
exactly why that happened, frankly, because ultimately the 
lenders and small businesses are paying that fee. If it was 
disproportionately high and it was erroneously calculated, then 
we better find out why.
    But that is the problem. That is what we are depending upon 
now. Getting the zero subsidies, getting higher fees. I know 
you have asked for a fee for the secondary market, to have that 
authority in case you wanted to use it. That is another issue.
    But that is what we are dealing with here. So I do not see 
how that moves us in the right direction to help all of 
America, because I think we need to help all of America. I 
think small business is the key to rejuvenating a lot of 
economies. We have got mom and pop operations that can develop 
and nurture that otherwise would not get the money from the 
conventional lender.
    So I would like to have you start with how we can move in a 
different direction, understanding our concerns so that 
terminating these programs that are job creators or reducing 
them is moving exactly in the wrong direction.
    We should be doing more. And if it is doing so great, we 
ought to be building upon that. I do not know of any other 
programs that get this kind of return on investment.
    Administrator Barreto.  Thank you, Senator. I agree with 
what you said.
    But I want to put it in a little bit of perspective. We are 
doing more every single year. Over the last 3 years we have 
literally doubled the number of loans that we do and the dollar 
amount. And we have done it in every single community. Our 
loans to minorities were up again for the fourth straight year. 
Loans to minorities were a third of all of our loans. We are 
doing more loans to women-owned businesses, veteran-owned 
businesses.
    And it is happening for a variety of reasons. It is 
happening because of some of the structural changes that we 
have made to the way that we run our programs and how we 
interface with our partners. It has also happened because the 
economy has gotten better and more small businesses are 
optimistic of their future. And it has happened because we have 
become better partners to our lenders.
    I would like to read you something, very briefly. This was 
a quote from Anthony Wilkinson, the Chief Executive of NAGGL, 
the National Association of Guaranteed Lenders. He said that 
the bankers have concerns about the higher fees, but they are 
not nearly as bad as a cap or a shut-down. He said the 
overriding priority for lenders is guaranteeing a smoothly run 
program. He said the 2006 budget does that. He says the good 
news is that we have a program that is open and is not capped. 
He is a leader of the National trade association.
    Also, today we got some great news. It was U.S. Bank, and I 
will read you a quote from their executive. They have agreed to 
pay all of the fees for the small business lenders. They have 
made a business decision. They are going to pay all of these 
fees and I think this is going to make them very competitive.
    He said: ``To the best of our knowledge, a fees-paid loan 
initiative has never been attempted before, but we have already 
received a great response from both of our U.S. Bank partners 
as well as our external referral sources.''
    The point is that these loans and the way that they are 
structured is good business for our lenders. That is why more 
lenders are joining the program. That is why we are making more 
loans. That is why every community is benefiting.
    I brought some charts with me, as well, Senator. And as you 
see here, this will give you an idea of the stair step growth 
that we have seen in every community. Minority loans, 
represented by the yellow bar, is what we did last year. This 
is what we are tracking so far this year. And I have broken it 
down into every community, African-American, Hispanic, women, 
veteran. We have never reached so many as we are today.
    Chair Snowe. I do not doubt it, but we could do more. And 
that is what is puzzling about this request. Because, for 
example, Women's Business Center, we have the sustainability 
centers. We have 49. We have made great strides with that 
program, great investments. And now there is no funding for the 
sustainability centers. I think that that is unfortunate that 
this budget does not reflect that. That is one example.
    Getting back to the 7(a) program increase, it may well be 
that there are lenders who can absorb those costs and do it 
that way. But again, it is going to be done on an ad hoc basis. 
We now rely on all programs in terms of being zero subsidy, 
high rates, high fees. At what point is that going to be 
discriminating against those businesses who simply cannot do 
it, our entrepreneurs?
    Because we are changing it in a way that is going to 
exclude many from participating in these programs. I think that 
is a problem. I understand the budgetary constraints and the 
challenges here. But I think that these fees are going to have 
varying effects, depending on where you are in America and who 
you are and what the options are. That is my concern.
    When you calculated this by a third less over the last few 
months and the 7(a) fee ultimately, and now it is going higher 
next year, and then proposing a fee for the secondary market, I 
mean that is all cumulative. That is not going to invite 
participation and growth in these programs that have been 
working so well.
    Administrator Barreto.  One of the things I know there was 
a concern was about the fees late last year when we were 
dealing with this. And some of the folks were saying to us it 
is going to draw people out of the program and they are going 
to do less loans. Last year was the best year in our history. 
This year we are up in our 7(a) loan portfolio, up 28 percent. 
We are up 16 percent in our 504 loan portfolio. We are up 57 
percent in loans to African-Americans, 16 percent to Hispanics. 
We are up 51 percent in loans to women. The fastest growing 
segment of our small business loans are those loans under 
$35,000 that are reaching those emerging markets.
    So we have not seen the drop off. And primarily I believe a 
lot of it has to do with the fact that our lenders have told us 
many times before they need consistency. They need a higher 
lending level.
    When we first started, Senator, we were doing about $9.5 
billion in the 7(a) loan program. This year we may do $16 
billion. In a short 3 years that budget authority is expanded. 
And that is really the bottom line for a lot of these small 
businesses. They want to know that they can access the program. 
They want to know that there is not going to be any caps on the 
program. And they want to know that there will be enough budget 
authority to meet that demand. And that is what we are 
accomplishing right now.
    Chair Snowe. I well remember the 7(a). In fact, we 
indicated at the time that it was underestimated by the 
Administration on that particular question. And the cap and 
shut down occurred because there was an underestimation of the 
demand for that program by far.
    Administrator Barreto.  And also because of the continuing 
resolution, the fact that every year for the last 3 years at 
the beginning of our fiscal year we are on a continuing 
resolution. That put tremendous pressure on us. That is why we 
ran out of money. We will not have that problem anymore because 
we are a zero subsidy rate program. So we will not have those 
kinds of situations every time our fiscal year starts.
    Chair Snowe. A couple of points. First of all, the Senate 
did do its reauthorization. It was the House who failed to do 
that last year, which was regrettable, frankly, because it put 
us in the situation it did with the continuing resolution and 
having to include all that language in there. And frankly, 
especially with the decisions that were being made by the 
Appropriations Committee in the 7(a) program, that put small 
business at a disadvantage. We passed it unanimously early-on 
in the process last year. So regrettably, we were not able to 
accomplish that overall.
    Finally, I think we need to analyze exactly what the effect 
is across this country regionally, in terms of who is 
participating and who is benefiting. Because I do believe that 
that is an issue. I think small business and these programs can 
do so much to expand the economic growth in parts of the 
country that otherwise are not benefiting. I think that is 
truly--what we ought to be doing is maximizing our investments 
in this program.
    If this is working so well, then why are we moving in the 
opposite direction in terms of the level of appropriations? 
That is the issue here. Frankly, it is mystifying. We ought to 
be discerning enough to figure it out. And this is one where it 
is pretty apparent.
    Administrator Barreto.  I agree with you, Senator. One of 
the key things, I think, to remember--and I think you mentioned 
it before in your comments--in our key programs we have really 
maintained level funding. The differentiation, from these large 
budgets in the past, is that we needed an appropriation to fund 
our 7(a) program. We saved almost $100 million right there.
    This year we are also not asking for as much in our 
disaster program because we received funding through a 
supplemental. Obviously, our budget submission is not going to 
include Congressional initiatives.
    So there are some differences, but none of those 
differences are going to impact our ability to accomplish our 
mission this year. This year, we will have the best year in our 
history. And next year we will have a better year than we will 
have this year because of what this budget represents.
    Chair Snowe. I appreciate that.
    Senator Kerry.
    Senator Kerry. Madame Chair, thank you.
    I apologize ahead of time because I am going to have to 
step out after these questions. But I want to--let me start by 
making the point, Mr. Administrator, that there is some 
revisionism going on here and there is a certain amount of 
credit taking on your behalf that belies the record of what you 
sought and what you wanted to do.
    The fact is that you requested $12.5 billion. That was the 
Administration request. We put it up to $16 million. You are 
sitting here taking credit for a whole bunch of loans that you 
did not want to make. That is number one.
    Number two, the funding mechanism that you put in place 
with these higher fees was opposed by the U.S. Chamber of 
Commerce. It was opposed by the ABA, by Women Impacting Public 
Policy, by most of the groups involved in this lending or whose 
members need the loans. The only reason they accepted it 
finally was not because they thought it was going to do a 
better job for lending and growing the program the way the 
Chairwoman has said, but because they thought there would be no 
program at all.
    If you think that is great management and leadership, that 
is your choice. I do not, and I do not think the Chairwoman 
does either.
    The issue here is why we are not taking success and 
building on it. Dell is the last computer manufacturer left in 
this company. They used to do TVs and radios. We are struggling 
as to where the job base is going to be in America.
    I come back to my opening comment, which is, you ought to 
be exciting that entrepreneurship. You say we are making more 
loans. It is somewhat over your resistance that you are making 
more loans and we are glad you are making more loans, but you 
are not making as many loans as you could be, and they are more 
expensive than they ought to be. And you are not reaching some 
of the targeted audience that you should be.
    Those are the standards here, not are you doing more. But 
are we doing what we ought to be doing, and are we reaching the 
people that we are seeking to reach.
    I will give you an example. The Office of Advocacy recently 
reported that 44 firms received over $2 billion in Federal 
contracts in fiscal year 2002, but were misreported as small. 
These were not small firms. My question is: Does your $65 
billion reported to have gone to small firms in 2003 stand up 
to the same test for accuracy that was applied to the 2002 
achievement? Are they small?
    Administrator Barreto.  You are referring to the----
    Senator Kerry. Are you sure the $65 billion went to small 
firms as it did not, as we saw in 2002 contracting?
    Administrator Barreto.  First of all, let me take one step 
back. I do not wish to take credit for all of the great things 
that are happening in the small business community. I think 
that credit belongs to our partners, our lenders, our resource 
providers and the small businesses themselves. Our job is to be 
able----
    Senator Kerry. But you are. You are sitting here and saying 
we are making more loans. You did not want to make more loans. 
Congress gave you the power to make more loans.
    Administrator Barreto.  I am saying the SBA, through our 
programs and our resource partners, is making more loans. Those 
are just the facts. That is what we are doing right now.
    I would also say that what we have tried to do when we 
analyze what to ask for, is see what we have done in the past. 
Last year we did $12.7 billion. This year we think we can do 
closer to $16 billion. Next year we are raising it to $16.5 
billion.
    With regards to these businesses that you reference, 
sometimes what is happening with these small businesses is they 
get a contract and then over time they grow and they go outside 
of the size standard. That is a good thing. We want those small 
businesses to be successful. Sometimes they are so successful 
that they merge with another enterprise and now obviously that 
would not be considered a small business.
    Before the Advocacy study came out----
    Senator Kerry. That is not what I am talking about.
    Administrator Barreto.  Those are the cases that when we 
have gone back and reviewed them, most of the cases fall into 
those categories. This is not a wholesale practice of large 
businesses taking contracts from small businesses. I do believe 
that most of that $65.5 billion went to small businesses. We do 
not have a large amount of data representing that these 
contracts are going to large businesses.
    By the way, that is why we put out a regulation last year 
that is novation rule. When these small business contracts are 
being transferred to larger enterprises, it is their 
responsibility to recertify again. So that will take care of a 
lot of the issues that were dealt with in the advocacy study.
    One of the best ways to police this are the small 
businesses themselves. When they are going after a contract and 
they are a small business and they realize somebody else got 
that contract, believe me, they are going to let us know and 
they are going to petition that contract be overturned.
    So we do not see this as something that is happening on a 
wide basis.
    Senator Kerry. I hope not, obviously. When you see such 
problems, such as the accounting for the 7(a) loan program's 
subsidy rate, which was 70 percent out of whack, where you 
overcharged some $42 million to small businesses just on that, 
would you consider that efficient?
    Administrator Barreto.  You are referring to the subsidy 
rate calculation?
    Senator Kerry. Yes, the subsidy rate calculation.
    Administrator Barreto.  One of the things that obviously we 
have been tasked with, that this Committee asked us to look at, 
was the subsidy rate this problem has been something that has 
been dogging this program for years. We have steadily made 
progress in reducing that subsidy rate down to zero. Obviously, 
the subsidy rate is not static. It depends on what is happening 
in the portfolio. As new information comes, sometimes we are 
able to lower that. Sometimes it is going to raise a little 
bit.
    Senator Kerry. We went through this model. We have had this 
discussion over the years about the modeling and how you set 
it. I think a lot of people have made constructive suggestions.
    Administrator Barreto.  GAO has verified it, Ernst & Young 
has verified. A number of different entities have reviewed this 
modeling and said that it is appropriate for what it is that we 
are trying to accomplish.
    Senator Kerry. So you think a 70 percent error rate is 
acceptable?
    Administrator Barreto.  I am not sure it is a 70 percent 
error rate. But one of the things that happens with these 
programs is that if they are not operating efficiently, the 
people who participate in them vote with their feet. The 
lenders will not make these loans. Small businesses will not 
seek these loans. And we have not seen that to be the case.
    Senator Kerry. You get the gist of my point. I do not want 
to go back and forth with you and I know you are going to 
defend it. But I do not think 70 percent is acceptable. And I 
think we ought to try to find a way to narrow that down. It 
ought to be the error to your side, not to theirs. That is 
number one.
    Administrator Barreto.  I agree.
    Senator Kerry. Let me get back to something else. This is 
the second year in a row that you want to try to eliminate the 
Microlending program. Now, some of the justifications that you 
give for that actually make sense. When you say you want to 
serve more women and minorities compared to other programs and 
so forth. The problem is it is filled with contradictions.
    Compared to other programs, proportionately you say they do 
already get more than any other program. You say you want to 
reach the underserved areas. But currently 40 percent of 
Microloans go to rural business. You say you want to reach more 
startups. Currently 40 percent of all Microloans go to startups 
and they exceed the SBA's goal.
    So your goals are contradicted by the realities of what is 
already happening, number one.
    Number two, you say that the SBA Microloan program can be 
substituted for by the Community Express program. But that 
program does not loan to startups, only established businesses. 
So you have eliminated a whole category right up front. You say 
you want jobs created and the SBA's Microloan program creates 
jobs for $3,500, as I mentioned, versus a much larger amount. 
The program is so well designed with its loan loss reserve and 
technical assistance program that a spokesperson from the SBA 
said in a recent article in the Wall Street Journal that the 
Mircroloan program has a ``minuscule'' default rate, 
``miniscule.'' And I mentioned the one or two defaults earlier.
    So how, given these problems, do you justify moving off 
into this arena, where you cannot do the things that it does 
today and does successfully? I do not understand that.
    Administrator Barreto.  And obviously we talked about this 
last year, as well, and nothing that has changed over the last 
year has really changed from our perspective. Last year we did 
2,425 Microloans, those under $35,000 in the United States.
    At the same time, we did 24,000 loans under $35,000 in the 
SBA Express program. Many of those were in the Community 
Express program, which also provides training to them. In 
addition, there are 600 lenders, non-Government microlenders in 
the United States, that do a much better job at this than we 
do, reach many more people.
    In fact, I would agree with you that the Microloan program 
has created a market for many other private sector entities to 
be making these same types of loans to these same types of 
communities.
    Senator Kerry. That does not address the startup issue and 
it does not address the rural issue.
    Administrator Barreto.  Again, a third of those loans that 
are made inside of the SBA Express program are going to 
emerging markets, are going to minority communities, are being 
made out in the rural communities.
    Senator Kerry. Established businesses.
    Administrator Barreto.  And many of those are new 
businesses, very new businesses in the minority communities, 
for example. The thing for us is it costs us a lot of money to 
make a Microloan. It costs us a dollar for every dollar that we 
put out. Last year we put out $33 million in the Microloan 
program and at the same time we put out $375 million of these 
smaller loans in the 7(a) program.
    Three years ago we were not making many small loans. The 
average loan size at the SBA in 2001 was almost a $250,000. And 
a lot of those small businesses came to us and said look, I 
need to be able to get these small loans. We need to do it 
across the board, not just in the Microloan program. That is 
where we made a lot of those changes to the SBA Express 
program.
    Senator Kerry. This committee, I think, began the whole 
effort to try to reach those lower level years ago, long before 
you came here. So the Committee has been long pushing for 
Microlending and smaller lending and so forth. What is 
happening is I think you are going to shut out a very important 
market for these kinds of startups, which runs contrary, 
incidentally, to the whole value system about work and work 
ethic which we are trying to instill in certain communities.
    Administrator Barreto.  The Community Express program does 
do the startups. That is part of the 7(a) portfolio. The SBA 
Express will be dealing with a little bit more established 
companies, but Community Express will do startup loans.
    Senator Kerry. I am just being shown, this is apparently 
from a 7(a) Community Express Lender questionnaire on small 
business lending which says: Can I use this loan to buy a 
business or start a new business? And the answer the Community 
Express Lender put out is: No, at this time all of our business 
loans are meant for existing businesses.
    So I would just ask that this be put in the record.
    Chair Snowe. Without objection.
    Senator Kerry. We can figure it out as we go forward.
    Madame Chair, I have gone on longer than I should, but I 
would like to ask permission to have the record extended and to 
submit some questions in writing.
    Chair Snowe. It will be extended, without objection.
    Senator Pryor.
    Senator Pryor. Thank you, Madame Chair.
    Let me, if I may, follow up on a couple of points that the 
Chair made a few moments ago. The first thing that she talked 
about is how small business is really where the action is in 
our economy. That is particularly true in my State. When you 
look at Arkansas, basically the backbone of my State's economy 
is agriculture and small business. When we look at job creation 
and job growth, even though we have a lot of great Fortune 500 
companies in Arkansas, small business really is where the 
action is. So small business is something that I think we are 
all concerned about for our own reasons and our own 
perspectives.
    The other thing that she mentioned is the Women's Business 
Centers program, and I would like to ask you about that. During 
the last 10 years, the centers generated an estimated economic 
impact of $500 million. Do you agree with that figure, $500 
million?
    Administrator Barreto.  I have seen some figures that 
relate to that. I am not sure what the methodology they use or 
how they track that, but I have seen some numbers showing that.
    Senator Pryor. Somewhere around $500 million?
    Administrator Barreto.  I believe so.
    Senator Pryor. You ought to know what that is because you 
are changing the program. With an investment of only $37 
million over a 10-year time period there was a $500 million 
return on that investment. In other words, a $500 million 
economic impact. That seems to be a pretty good return on 
investment. Would did you agree with that?
    Administrator Barreto.  We totally agree with that.
    Senator Pryor. Again, not to dwell too much on my State of 
Arkansas, but just recently this week there was an announcement 
that once again a small plant in a small town is going to lay 
off its entire workforce and close the plant. About 200 jobs 
will be going away.
    But when you look at the Women's Business Centers and the 
activity that they have been able to generate in a small State 
like mine; I think that about 3,400 people have participated in 
the program, 300 businesses have been started or expanded and 
500 jobs have been created; there has been a large impact. All 
this activity may have been in small communities, small 
businesses, but overall it has had a large impact on my State 
and I am sure it has had a similar impact around the Nation, as 
well.
    My question to you is how you justify cutting funding for 
this program when it has created such sustainable jobs and 
sustainable businesses?
    Administrator Barreto.  Thank you for that question, 
Senator.
    Let me first say that we agree with you, Women Business 
Centers are critically important. The purpose of Women Business 
Center Program is to provide these grants to non-profit 
organizations for them to start these Women Business Centers 
and help the women businesses in their area. And they have done 
a good job to do that.
    But the way that the program was envisioned is this was 
supposed to happen for 5 years. After 5 years these 
organizations would be self-sufficient. The problem that we 
have had is there are many areas around the country, in rural 
States like Arkansas and many urban centers that do not have 
Women Business Centers because they cannot get them because 
there is not enough money.
    The intention of Women's Business Centers was to provide 
these groups and these communities a hand up, not a handout, a 
hand up. This was not supposed to be a static entitlement 
program.
    The centers that are doing very well are centers that have 
been around for a few years. They are associated with a Chamber 
of Commerce or another business association and are also 
raising monies from other areas. These centers are not SBA 
centers. These centers belong to those communities. They belong 
to those organizations. We want to help them be successful.
    So what we are basically suggesting is that we go back to 
what the original purpose of the program is. Los Angeles just 
got their first Women's Business Center, a city that has 
probably the most small businesses, the most women small 
businesses of any place in the United States, until recently 
could not even have a Women's Business Center. So those are the 
kind of opportunities that we want to address.
    We think Women Business Centers are very important. We want 
to grow new Women Business Centers around the country.
    Senator Pryor. But there again, let us get back to what you 
said a few moments ago. They have worked well.
    Administrator Barreto.  Yes, they do, they work very well.
    Senator Pryor. So why change it?
    Administrator Barreto.  Because the original purpose of the 
program was to be a 5-year grant. That is the original purpose 
of the program. So what we want to do is help those Women's 
Business Centers be successful over that 5 years so they can 
become independent. The most successful ones are.
    Please remember that the Women Business Centers do not 
receive all of their funding from the SBA. They leverage that. 
Our most successful examples of technical assistant providers, 
the SBDCs, the SCORE, the Women Business Centers, leverage 
those investments. And that is how they become successful. That 
is what we want Women's Business Centers to do.
    Senator Pryor. Let me go back to another one of Senator 
Snowe's questions to you that you did not answer, and that is 
if the programs are working so well why cut their funding?
    With her you gave a lot of background and you end up losing 
everybody. Again, why are you cutting funding for programs that 
are working so well?
    Administrator Barreto.  What we are doing is we are 
investing our resources in programs that are working well and 
that is shown by the numbers. Numbers are a stubborn thing. We 
are training more people than ever before. We are doing more 
loans to women. We are doing more contracting. We have doubled 
the number of loans that we have done over the last few years. 
We are reaching every community in the United States.
    That is the bottom line for a business, you look at those 
success statistics. For us, we are doing more in every area. 
Again, what the SBA does is we facilitate these programs and 
these opportunities. We work with many other resource partners. 
We are not the only ones that do these programs.
    But what we do is very unique and not just anybody can do 
that. That is why I think that we have been successful over the 
last couple of years.
    Senator Pryor. Answer her question and mine. Why are you 
cutting funding for programs that work?
    Administrator Barreto.  Senator, with all due respect, you 
would have to be specific as to which program you are referring 
to, and then I would be able to answer that question.
    Senator Pryor. There is a long list of programs. Just pick 
one.
    Administrator Barreto.  I will answer any question you 
would like me to answer, Senator.
    Senator Pryor. Let us look at the Women's Business Centers. 
Why are you cutting funding for this program?
    Administrator Barreto.  The original purpose of the program 
was for it to be a 5-year program. We want those Women's 
Business Centers to be successful and we want to create new 
Women's Business Centers in areas that are not served right 
now.
    There are many, many women's groups and women centers that 
come to us all the time, saying we would like a Women Business 
Center in our area. And oftentimes we have to say no, we cannot 
fund a Women Business Center because we do not have the 
resources to do that.
    These changes that we are making to Women's Business 
Centers will allow us to do that, to start identifying new 
opportunities and make those Women Business Centers successful. 
We want to work with them in the early years so that they do 
not get to year five and then come back and say we are not 
going to make it without your funding.
    Again, remember, these are not our Women Business Centers. 
These centers belong to those communities.
    Senator Pryor. I think we are plowing the same ground over 
and over, and I guess I am not satisfied with your answer. But 
I have been handed a long list of programs that have been 
zeroed out. Just zeroed out. Not changed, but zeroed out.
    Administrator Barreto.  Again, it would depend on what 
program you are referring to. One of the things that we did, 
and it was referenced in the earlier testimony, is that we have 
asked for resources, for example, in our Office of advocacy, in 
the Office of the Ombudsman, in the 7(j) Technical Assistance 
program, in the HUBZone programs, in the USEAC programs, in the 
Native American outreach.
    But is not represented by a line item. In fact, we, as has 
been customary over the years, spend much more on those 
programs than is actually reflected in a specific line item.
    Senator Pryor. For example, the PRIME program. You have 
taken that funding from $5 million to zero. Why are you doing 
that? Has PRIME not worked well?
    Administrator Barreto.  One of the things that has happened 
is that----
    Senator Pryor. Has PRIME worked well?
    Administrator Barreto.  The program is duplicative of what 
we are doing, the technical assistance that we can provide to 
those communities.
    I have a chart here I would like to show you. One of the 
strengths of the SBA is the fact that we have one of the widest 
networks of any agency or any Government department. This map 
right here reflects all of the resource providers that we have 
in the United States. They are in every State, in every major 
metropolitan area. We believe that we can continue doing the 
job with the current network that we have.
    So on programs that we feel are duplicative, yes, we are 
not going to ask for funding and we are going to continue to 
fulfill that mission inside of the network that we currently 
have. We spend hundreds of millions of dollars on this network. 
We want to make sure that it is being fully utilized.
    The good news is that it is being fully utilized. Three 
years ago, the SBA counseled and trained through all of its 
resource providers about 1.5 million small businesses in the 
United States. Last year we did 2.5 million, and it has been 
level funding in those programs.
    In other words, those programs are more productive now than 
ever before. And we believe they are going to continue being 
more productive.
    Senator Pryor. Madame Chair, I think I am overstaying my 
welcome. Thank you so much.
    Chair Snowe. Thank you, Senator Pryor, I appreciate it.
    Senator Coleman.
    Senator Coleman. Thank you, Madame Chair, and thank you, 
Administrator Barreto.
    I presume we could get into debates about specific 
programs. But I hope, and I am confident we have common vision 
in the fundamental importance of small business and growing it 
in this country. I have a much more optimistic view of the 
nature of the American economy than some of our colleagues. But 
we have seen a lot of job growth in the last year, close to 3 
million new jobs since March of 2003. But is about small 
business.
    A Republican Congress did not build the economy, and Alan 
Greenspan did not build the economy, big Government did not 
build the economy. It is American entrepreneurs. And so the 
things that we can do to support their efforts are important.
    As we have this discussion, I do hope and I want to put in 
the record, that we do not forget that it is things like bonus 
depreciation and increased expensing and cutting regulation and 
a whole range of other things that are shackles around small 
business. And as we release those shackles, as we make capital 
more available, it is a lot better than loan programs. The 
programs are important, and I am going to talk about some. But 
I hope we do not forget the fundamental importance of those 
kind of structural things, tax rates, opportunities to reinvest 
capital, regulation, et cetera, that have an impact on what we 
talk about.
    I do share, and I have listened to your explanation about 
Microlending. I do not care what you call it, but I do think it 
is important, particularly the startup issue. I think it is 
actually a world model. I have traveled around in Africa and 
they do Microlending programs today. And so I just hope that we 
reflect upon the importance of this concept. What you have to 
deal with is the efficiencies of the operation. You can do 10 
times the number of loans in SBA Express, but there is 
something very important about Microlending, very important 
about startups, the folks who cannot get it.
    So we need to continue this conversation. I actually think 
it sends the wrong signal, the wrong message when we talk about 
getting rid of the Microlending program, even though you can 
come back justify certain things with numbers.
    But I think that message out there is also important and 
perception is important. And so I hope that we kind of keep 
that in mind.
    Let me just turn to another issue. We have a lot of small 
businessmen and women who are in the National Guard and the 
Reserve. And they are increasingly being stressed today for 
longer periods of deployment. I just got back from Iraq a 
couple of weeks ago and I talked to folks. How are you taking 
care of your family?
    Are we doing anything within the SBA to deal with the 
changing circumstances of so many American men and women who 
find themselves through the Guard, through the Reserve on these 
extended periods of deployment?
    Administrator Barreto.  Yes, sir, Senator and thank you 
very much for that question.
    We have done a lot over the last couple of years. One of 
the things that we started a couple of years ago you might 
remember is the Military Reservist Economic Injury Disaster 
Loan. It was so long of a title that we shortened it to Mr. 
EIDL. That was easier for us to remember.
    These were low interest loans to folks that had been 
deployed and owned a business. They could actually even go to 
individuals who did not own the business, but maybe had a key 
employee in that company deployed.
    What we also have done is made sure that as all of the 
military personnel are coming back, that they get a package of 
information from the SBA on all of the different things that we 
can do. Not just these Economic Injury Disaster Loans, but 
where Veteran Small Business Development Centers are that we 
fund.
    There are a number of different other programs of which 
they can take advantage. Obviously, something very important 
happened last year, and that was the signing of legislation 
that created a 3 percent Federal contracting goal for service-
disabled veterans. So we are going to work very hard to make 
sure that those folks that have paid the highest price to this 
country also have assistance from the SBA at their time of need 
when they come back.
    We are doing a number of different things from the 
procurement side like business matchmaking to actually plug 
them into real opportunities. So this is a very important issue 
for us. I have a National Advisory Committee of Veterans that 
report to me on a regular basis. I meet with them. We work very 
closely with the Veterans Department also looking for 
opportunities to get the word out there.
    Veterans are no different than other small businesses. A 
lot of times they do not know what they do not know and it is 
not their fault. It is our responsibility to reach out to them 
and make sure that we inform them, so they can take advantage 
of all the opportunities that we can bring to bear on their 
behalf.
    Senator Coleman. I appreciate that because the world has 
changed for certainly the Guard and Reserve folks in the last 
couple of years. So what we did 4 years ago is an entirely 
different circumstance.
    So I appreciate the focus and I would urge you to keep that 
attention and make sure that we are doing what needs be done 
for those folks who are putting themselves on the line and 
sacrificing for us.
    One last question. In one of the exchanges you talked about 
the HUBZone program. Can you give me--that is an area of 
concern for me, particularly effectiveness in rural areas. Can 
you help me understand a little bit what changes you are making 
and how that is going to make the program easier to use and 
effective, particularly in rural areas?
    Administrator Barreto.  Sure. As you are probably aware, 
there are some changes that are coming to fruition. We are 
going to be able to allow more small businesses, especially in 
those rural areas and Native American communities to apply for 
the HUBZone. We are doing a mapping process right now to get 
that information out. That should be done by the end of April.
    But we are trying to make it easier for small business to 
participate in the HUBZone program, as well. We have seen a 
large growth of HUBZone firms over the last couple of years, as 
more information goes out, as we continue to simplify the 
process of people registering so that they do not have to 
submit a phone book of forms to us, all of those things are 
helping.
    We are going to be doing a lot of information sharing with 
communities. We work very closely with the HUBZone 
organization, for example, and participate in their events. 
They participate in all of our events. So we think that this is 
another tool that small businesses can use to access Federal 
procurement.
    In fact, a lot of times we find that small businesses are 
participating in several different programs. They may be a 
small disadvantaged business, and 8(a) firm, a HUBZone firm, 
and participating in our procurement activities as well. That 
is really, we think is a very good situation. It just gives 
them more bites at the apple, if you will, and surrounds them 
with more tools.
    Senator Coleman. I appreciate it.
    A last comment then, just to reiterate what by colleague 
from Missouri, Senator Talent, raised on the Participating 
Security Program. I hope that the Administration will work with 
the Committee and work with small business to see what we can 
do to find a solution to help continue this program. I think it 
is important. Thank you.
    Thank you, Madame Chair.
    Chair Snowe. Thank you, Senator Coleman. Senator Coleman 
makes an important point on Microloans because under USAID, we 
provide, at least in 2002, $170 million for foreign 
microenterprises. So it is true, it is a worldwide tool to 
develop small businesses in underdeveloped countries.
    So clearly, it is very difficult to send a message of 
somehow eliminating this program for $15 million when we are 
doing it worldwide in foreign countries at $170 million.
    Senator Thune, welcome to the Committee. It is nice to have 
you as a Member of the Committee.

                 STATEMENT OF HON. JOHN THUNE, 
           A UNITED STATES SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Madame Chair and other Members of 
the Small Business Committee. I want to take a moment and thank 
you for the opportunity to serve on this important committee.
    Small businesses are the backbone of our economy in South 
Dakota, as well as the Nation. And whether it is a farming 
operation in a small town like Oneida, South Dakota, or a 
machine shop in Sioux Falls, small businesses do create the 
majority of jobs in my home State of South Dakota.
    In fact, 97 percent of employer firms in South Dakota are 
small firms. South Dakota has also seen the number of women-
owned businesses grow at a rapid rate. Between 1997 and 2004 it 
is estimated the number of women-owned firms in South Dakota 
increased by 26 percent. Employment grew by 109 percent, and 
sales increased by 211 percent.
    So we have got a great story to tell there. And I think 
what is important is that here in Washington we need to do 
those things to ensure that these small businesses have an 
environment in which they can thrive and prosper. I believe 
that includes reducing the burden of taxation, regulation, 
litigation facing small businesses today. It is clear that 
these burdens raise the cost of doing business substantially 
and, in turn, make it harder for small businesses to grow and 
create new jobs.
    Serving on this Committee is a unique honor for me since I 
have previously worked at the Small Business Administration 
during the Reagan Administration. And so I look forward very 
much to being involved with the issues that affect the Agency.
    I would like to thank Administrator Barreto for his 
willingness to come down here and to present the President's 
budget proposal today. The SBA is guaranteeing a record number 
of loans and helping more small businesses than ever. So I want 
to say thank you and give credit where credit is due in that 
regard.
    The President's budget proposal is, as I like to say, the 
starting point and not the ending point. And we are going to 
have a lot to say before this process is concluded.
    I am not going to get down into the weeds of the individual 
programs, but I look forward to working with you, Madame Chair, 
as well as with our colleagues on the Committee and in the 
Senate, to ensure that we have a budget that although will be 
tight and tough, addresses the important priorities of small 
businesses around this country and allows the Agency to 
continue to perform its duties and its services at a high 
level.
    Just by way of a question, if nothing else, I am curious to 
know in your experience, Administrator Barreto, having been 
there for some time now and obviously traveled the country and 
visited with a lot of small businesses--I do that on a fairly 
regular basis in my State as well, tour businesses, ask them 
what their issues are, what things can we in Washington do 
either for you or what things can we not do to you, I guess may 
be a better way to phrase it sometimes with some of the small 
businesses.
    But what do you see today as the biggest barrier to small 
businesses? What is it that you hear out there that, in terms 
of allowing these businesses to grow and create jobs and expand 
the economy in this country. What is that barrier?
    And then perhaps maybe just to expand upon that a little 
bit with respect to what the Agency is doing and realizing that 
you are somewhat limited in the tools that you have at your 
disposal to address those barriers.
    Administrator Barreto.  Thank you, Senator.
    There are a number of different issues. I have spent a lot 
of time as SBA Administrator working with small businesses 
directly. I learned a long time ago that you learn a lot more 
when you listen to your customers than when you talk at them. 
They will tell you everything that they need to be successful. 
So we have done a lot of that. I have traveled every part of 
this country, met with countless small business groups.
    You have hit a couple of areas that are critically 
important. Small businesses will say to us a lot of times look, 
the programs are great, we like the programs, they are great. 
But if I am not in business it does not matter.
    So the things that this Committee has worked on in the past 
with us I think have been very, very instrumental. Sometimes I 
do not think that we give enough credit to what this Committee 
and the Administration working together have already 
accomplished.
    The tax relief policy was huge. A lot of people did not 
understand that 80 percent of the benefit of the tax package 
went to small businesses. It saved them $75 billion. A lot of 
small businesses told us they could tell exactly when their 
business turned around. It was exactly when that tax package 
went into effect.
    Now what they are asking us to do is make it permanent. 
They are saying that now that business is starting to turn 
around, please do not make these things go away. Do not take 
away our deductibility, that $100,000 that afforded them the 
opportunity to buy equipment and inventory and technology that 
they were not buying before. So tax relief is hugely important.
    We referenced regulatory relief. Since this Administration 
has been in place we have saved small business something on the 
order of $80 billion simply by allowing them to comply with 
Federal regulation in a more streamlined manner or eliminating 
redundancies. Those are huge, especially for a small business.
    Senator Kerry mentioned earlier the importance of health 
care. And we totally agree. That is their No. 1 problem, their 
No. 1 criticism, because they get double-digit increases every 
year. They cannot pass those costs onto their customers. They 
are the only group, and they know it, that does not have access 
to health care. If you work for a corporation, if you are a 
member of your union, if you are a Government employee like me, 
you have got health care. If you are a small business, good 
luck. Most Americans that do not have health insurance either 
work for a small business or have a spouse that works for a 
small business.
    We started dealing with this last year with health savings 
accounts. That is a tool that they can use to lower their 
health insurance premiums. It does not solve the health 
insurance crisis in America. We need to expand health savings 
accounts, provide more incentives, more tax credits.
    We are very hopeful, and I know that we have all spoken 
about this many times, that we can deal with association health 
plans for the first time. It has not been dealt with in the 
Senate, and many of you know--and you dealt with this Senator 
Thune when you were a Congressman. The House has voted on 
association health plans twice, but the Senate has not taken it 
up yet.
    Small businesses are desperate for any kind of relief that 
they can get in this area. Their attitude is let us try this. 
If it does not work, we can always go back to what we had 
before, which was nothing. We believe that could lower their 
health insurance premiums 25 percent. 25 percent to their 
bottom line. It is like giving a small business a 25 percent 
raise just by helping them deal with health care. So that is a 
critical issue.
    We need to do something about tort reform, eliminate 
frivolous lawsuits. A lot of small businesses are put out of 
business because they are having to fight lawsuits that should 
not been brought in the first place. It is not saying eliminate 
all lawsuits, but those that are frivolous, those that get 
shopped around and really affect small businesses.
    We need to open up new markets for small businesses. That 
is why the things that we are doing with regards to 
international trade are so important. We talk a lot about 97 
percent or 98 percent of all businesses in the United States 
are small businesses. Well, 98 percent of all exporters are 
small businesses, too, but they only represent 30 percent of 
all the trade that is going on.
    All of those issues we have worked very closely with this 
Committee and SBA has taken a leadership position on this, too, 
advocating these issues on behalf of small businesses.
    Small businesses said to us in the beginning look, we 
appreciate everything that you do for us, but we need a voice 
at the table. We do not feel like sometimes folks in Washington 
understand what we are dealing with here. And now, working with 
the Senate and the work that we have been able to accomplish in 
the Administration, I think that they are starting to 
understand that they do have a voice at this table. This is a 
very important voice and we are going to continue listening to 
it and doing something about these issues that critically 
impact small businesses everywhere in the United States.
    Senator Thune. Thank you. Madame Chair, I am sure my time 
has expired. Thank you.
    Chair Snowe. Thank you, Senator Thune. I appreciate your 
comments and your presence here on the Committee.
    Speaking of the health care issue, that will be the next 
hearing and focus of this Committee. In fact, I introduced 
association health plans yesterday with nine other cosponsors. 
It is a bipartisan bill. And hopefully we can pave the way for 
enactment of this legislation this year.
    You are right, the House has passed it on two or three 
occasions previously, but we have been unable to do so in the 
Senate. So I think we really have to take away a lot of the 
myths about that legislation and what it actually does and deal 
with the facts. Hopefully, we can encompass that in the final 
analysis.
    I will release you very shortly here. I just want to make a 
couple of points on some of these issues.
    Let me just say I hope that we are able to have a 
conversation and discussion on some of these issues that I know 
have been proposed in the budget, but obviously are concerns to 
Members of this Committee. I know the Microloan program has 
worked very well throughout this country. I really do think it 
needs to be preserved as an independent entity within the Small 
Business Administration budget.
    I am just concerned that they will not be served by the 
7(a) Community Express program. In fact, I do not know if you 
happened to see a Wall Street Journal article that appeared 
last week about a man who used unusual collateral for the 
program, which was his prosthetic leg, which was an amazing 
story. Under the Microloan program you can end up using unusual 
collateral. Fortunately, they did not take it and they just 
obviously issued him the loan.
    But the point is here it is for those who are not able to 
qualify for traditional lending programs because of their 
history or whatever the case is, but certainly have something 
to offer in the small business arena. So I hope that we can 
work through that.
    Also, under the 7(a) lending program, you have to have a 
prior history of about one to 3 years. That is another part of 
the problem, as well, in merging those programs. Hopefully 
these other programs would take care of it. I really would like 
to preserve it at least for the 2,400 who have applied for the 
program.
    Finally, on the SBICs, we can discuss this whole issue. I 
will hear from the subsequent panel regarding the Participating 
Securities. There is no leverage budget projections in the 2006 
budget. Again, last year the Administration requested $4 
billion for this program. This year it is zero. There is a big 
disparity between $4 billion and zero. What would account for 
that change?
    Administrator Barreto.  $2.7 billion in estimated losses.
    Chair Snowe. I know, but I do believe there is a way of 
working through some of those issues because as Senator Talent 
was indicating, it is one of the very few venture capital--it 
is the only one for small business in the final analysis. I 
understand your concerns. We do not want it to be a money 
loser.
    Administrator Barreto.  Senator, I want to assure you we 
made $4 billion in commitments last year. We still have an 
existing SBIC program. There are 400 firms that currently 
participate in that program. We have asked for money for the 
debenture side of it, so we believe that we are going to be 
able to continue putting venture capital through that side of 
the program. And obviously we will continue working closely 
with this Committee and the industry to find any solutions that 
may be out there for us on this program.
    Chair Snowe. Also, what Senator Coleman referred to in the 
veterans business programs, as well. 37 percent of the Guard is 
now either employed or are small business owners who are 
participating, who have been activated. This is the largest 
activation since World War II. I think we have to move in the 
direction of helping them.
    This program has been level-funded for 4 years now at 
$750,000. I think we need to work on that, as well.
    And Senator Bond would not be happy if I did not raise 
HUBZones. So again, is there not a way of accomplishing the 
statutory goal? We have done that for the 8(a) program and you 
have spent three times as much on the 8(a) program and met and 
exceeded those expectations.
    Administrator Barreto.  We are working very hard on it. 
Obviously, the percentage of procurement in the HUBZone program 
has gone up. We are dedicating a significant amount of 
resources to the HUBZone program this year, through our GCBD 
budget that will be part of the salaries and expense budget. 
And will continue exploring every way that we can grow that 
program. It is an important program. We are committed to it. As 
I said before, it is another tool in the tool chest for small 
businesses to access Federal procurement.
    Chair Snowe. It certainly is. In fact, in the moratorium 
and redesignations again, I know for Worcester County in 
Northern Maine, which has been hard hit with base closings and 
so on and is still recovering, it is so important because some 
of those business entering that program have yet to utilize the 
benefits of that program. So I do think that that moratorium is 
essential as well.
    In any event there are a number of issues that it is clear 
we have to work through. Senate Thune said it well, this is the 
beginning of the process, and not the end. So I appreciate it 
and I appreciate your willingness to be here today and for your 
cooperation. We will be discussing health care, without 
question, indisputably. We need to get that done for the small 
business community.
    Administrator Barreto.  Thank you very much.
    Chair Snowe. Thank you, Administrator Barreto.
    Administrator Barreto.  Chair Snowe, Senator Coleman, 
Senator Thune, and all Members of the Committee, I appreciate 
the opportunity be here and I look forward to working closely 
with you this year.
    Chair Snowe. Absolutely. Thank you.
    Let us proceed with the second panel.
    Our second panel this morning represents the small business 
community on several key issues that are reflected in the SBA's 
2006 budget and legislative proposals.
    First, we will hear from David Coit, former Chairman of the 
National Association of Small Business Investment Companies, 
and Managing Director of a highly successful SBIC firm North 
Atlantic Capital, who happens to be based in Portland, Maine.
    Also testifying is Daniel Betancourt, who is representing 
the Association for Enterprise Opportunities. He is a member of 
the Board of Directors and is also President and CEO of the 
Community First Fund of Lancaster, Pennsylvania.
    Next on the panel is John Massaua, who will testify in his 
capacity as member of the Board of Directors, the Association 
of Small Business Development Centers. John is also a State 
Director of Maine's Small Business Development Centers. It is 
great to have you all here.
    Patricia Sands is here representing the Association for 
Women's Business Center. Patricia is the owner of Spill-Guard, 
LLC and has participated in the SBA's Women's Business Center 
program.
    Finally, testifying on the SBA 7(a) Guaranteed Lending 
program is Edward Tuvin, who is First Vice President of the 
Community South Bank based in Tennessee.
    I thank all of you for being here today, for traveling 
great distances from North and South. We are delighted to have 
your input. And now that you have heard from the Administrator, 
you might want to respond to some of those issues that will 
help to be clarifying or otherwise. But I do appreciate it.
    If each of you would summarize your testimony within 5 
minutes and then we can have questions and answers.
    Mr. Coit, thank you for being here.

 STATEMENT OF DAVID COIT, MANAGING DIRECTOR OF NORTH ATLANTIC 
CAPITAL ON BEHALF OF THE NATIONAL ASSOCIATION OF SMALL BUSINESS 
                          INVESTMENT 
                           COMPANIES

    Mr. Coit. Thank you, Madame Chair and Committee Members.
    I am here representing the National Association of Small 
Business Investment Companies. I am the immediate past Chair of 
NASBIC. I am still on the Executive Committee. As you know, 
Senator, I spent a lot of time here in Washington last year 
working on the Participating Securities program.
    My other job, as you said, is running North Atlantic 
Capital Corporation. It is in Portland, Maine. We invest $2 
million to $5 million. We are a Participating Securities SBIC. 
We invest in companies from Maine to Virginia to Western New 
York State, and very much feel that we do serve an underserved 
sector of the venture capital industry. We serve underserved 
geographic markets that you noted like in Maine, Western 
Massachusetts, Western New York State. We invest in 
manufacturing companies, which is the sector that is often not 
invested in or actively invested in by the broader venture 
capital community. We invest in amounts which are typically 
well below the average of the National industry.
    One of the points I want to make and leave you with today 
is that the SBIC industry, particularly the Participating 
Securities industry which is at risk, is filling a need that is 
not otherwise met by the broader industry. We know the program 
has some problems and we worked very hard last year to try to 
solve some of those problems. I think if we continue the effort 
this year, we might be able to have some success.
    We were actually pleased to see that the Administration 
supported the SBIC Debenture Program, at the $3 billion level. 
As Administrator Barreto said, that program has been around for 
a long time and is quite successful and has been successful 
over the years. I think it is important to note, though, that 
in its 46-year history that program itself has had problems so 
the fact that the Participating Securities program may be 
having some issues today does not mean it is time to scrap it. 
The debenture program, which I think everybody recognizes is 
extremely successful, has gone through its own bumps in the 
road and corrective measures have been taken. Today it is an 
extremely successful program. So we were very pleased to see 
that the Administration continued to support that program.
    We were equally unhappy and concerned that there was no 
support for the Participating Securities program going forward. 
This program does represent half of the investing that is done 
by the SBIC industry. It was designed specifically to address 
the equity gap that exists. I do take very strong exception to 
Administrator Barreto characterizing the Debenture Program as 
filling that need. In fact, the Participating Securities 
Program was created 10 years ago because the Debenture Program 
specifically did not meet the equity needs of small business. 
It is designed to support subordinated loans for mature 
companies which have positive cash-flow.
    So I want to be on the record that the debenture program 
does not meet the needs that we are talking about and it is 
something that we all need to work on.
    Senator Snowe, you have visited a couple of our companies, 
even in your home town, Diamond Phoenix Corporation and Elmet 
Corporation. I do not really have time today to go into the 
long and wonderful stories of these two companies.
    But just as an overview, these were two companies that 
North Atlantic invested in--actually, in the case of Elmet, 
four SBICs invested in it--which probably would not exist today 
in Lewiston, Maine, which had a great history back in the days 
of shoemaking and textiles and is still suffering to some 
degree to come into the modern economy. Here are two 
manufacturing companies which have transformed themselves with 
SBIC funding from old world economies to now addressing some 
very current world marketplaces. Both of them are growing and 
very successful. So they are two very strong examples. We are 
on record at SBA, the histories of those companies are on the 
SBA Website. It is very good examples of underserved markets 
both geographically and in terms of size and in terms of 
industry. They have been supported by the Participating 
Securities Program.
    Finally, I would be remiss in saying that having spent so 
much time here last year I was not very disappointed in the 
process. I think the industry worked well with your staff and 
the staff of the House Committee on Small Business. We crafted 
legislation that we thought made great sense. We worked with 
the private sector, both people who invest SBIC money and 
people who invest in SBICs. And I think we came up with a very 
elegant solution last year. Unfortunately, it did not pass the 
Credit Reform Act standards. The problem that the CRA issue was 
brought forth to us by OMB very late in the process.
    I hope this year that with the help of your staff and the 
industry we can get the Administration engaged in a more active 
dialog so that we do not waste a lot of time because your staff 
spent a lot of great time. Unfortunately last year was wasted, 
but hopefully we can complete the job this year.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Coit follows:]

    [GRAPHIC] [TIFF OMITTED] T1350.001
    
    [GRAPHIC] [TIFF OMITTED] T1350.002
    
    [GRAPHIC] [TIFF OMITTED] T1350.003
    
    [GRAPHIC] [TIFF OMITTED] T1350.004
    
    [GRAPHIC] [TIFF OMITTED] T1350.005
    
    [GRAPHIC] [TIFF OMITTED] T1350.006
    
    [GRAPHIC] [TIFF OMITTED] T1350.007
    
    [GRAPHIC] [TIFF OMITTED] T1350.008
    
    [GRAPHIC] [TIFF OMITTED] T1350.009
    
    [GRAPHIC] [TIFF OMITTED] T1350.010
    
    Chair Snowe. Thank you, very much.
    Mr. Betancourt.

    STATEMENT OF DANIEL BETANCOURT, MEMBER OF THE BOARD OF 
               DIRECTORS FOR THE ASSOCIATION FOR 
 ENTERPRISE OPPORTUNITY AND PRESIDENT AND CEO OF THE COMMUNITY 
                           FIRST FUND

    Mr. Betancourt. Thank you, Senator Snowe.
    Thank you for the opportunity to speak about the 2006 
budget. I am Dan Betancourt, as you mentioned, and I work for 
Community First Fund and we are a microlender. We cover a 10-
county area in Central Pennsylvania. We also have a Women's 
Business Center.
    I also am a member of AEO, the Association for Enterprise 
Opportunity, and we have over 500 microenterprise organizations 
across the U.S., so I am wearing that hat today.
    Obviously, we are not in agreement with the cuts in the 
Microlending program, the TA program, and the PRIME program.
    I think that the Administrator, when he talked about the 
Community Express and other programs that were to reach the 
markets that we are talking about, obviously I strongly 
disagree with that and I am going to talk about that.
    Just briefly, the areas of credit, the geography that that 
program covers, the market that it serves, the lack of 
startups, and those areas I am going to talk about briefly 
here.
    In terms of the individuals that are not served, the 
private sector, the banks that is, the 7(a), and the Community 
Express are really unable to reach the borrowers that we talk 
about or that we try to reach. Specifically, 40 percent of the 
microlending loans, as you mentioned, come from rural areas; 
less than 6 percent are being serviced by the Community 
Express. These are facts.
    In terms of the geography, the top Community Express 
lenders represent 72 percent of all Community Express loans. 
That it is obviously not reaching a lot of the areas of the 
country.
    Senator, in your State alone, zero loans were done for 
Community Express in the last 5 years and about 260 Microloans 
were done in your State in the last 5 years, just for the 
record.
    Chair Snowe. Do you have those figures Nationally? Those 
are interesting figures to have state-by-state because that is 
very important.
    Mr. Betancourt. About 21,000 loans were done, but we know 
that many of those loans, Community Express, were done on the 
East Coast and West Coast. There are a lot of areas of the 
country that are just not covered because the majority of those 
Community Express loans were done by 72 percent--72 percent of 
the Community Express loans were done by just a few lenders. 
That is a fact.
    Credit is another issue that the Microloan program really 
does a nice job at. Many of our clients have credit scores of 
less than 550. You will not even get a mortgage, in many cases, 
a conventional mortgage, if you have less than 600. So I think 
the Community Express Program states itself, in its literature, 
if you have bad credit you do not qualify for the loan. It is 
just very difficult.
    And the reason for that, and I think if you look at the 
Microloan program, is the technical assistance portion. We 
spend a lot of time, a lot of hands-on. We do have some folks 
that have bankruptcy and some difficulty, but we help them get 
back on track.
    The other thing is the default rate is less than 1 percent. 
How does that work? It is all the time that we spend with them.
    As already mentioned, our startups in terms of Microloans, 
over 40 percent of our clients are startups whereas less than 
25 percent from the Community Express are startups. In fact, it 
is commonly known that you need at least 1 year in terms of 
Community Express. At least about 40 percent of our borrowers 
do not even have a year. Again, helping them with their 
business plan and doing all those extra things to get on track.
    Demographically, 50 percent of our clients are people of 
color, 60 percent are women. In urban areas, over 90 percent, 
at least in Community First Fund's case, are people of color.
    I do want to introduce two entrepreneurs here today. The 
first one is Terry Wade. Terry runs a personal care business. 
Very briefly about Terry, she actually did apply for Community 
Express recently after receiving at least one Microloan and was 
turned down. I do have a letter indicating that; and this is 
not uncommon. We have many micro borrowers coming back. We are 
the minor leagues. We are preparing these borrowers. Eventually 
we think they will get there, but they are just not there yet. 
Terry is doing a nice job in her business. Thank you, Terry.
    Also, I do want to introduce Kekelwa Dall. She runs a 
health care business and is also a Microloan borrower. Thank 
you, Kekelwa.
    These are just two examples of the many, many, many 
borrowers.
    Chair Snowe. I noticed they are women-owned, too.
    Mr. Betancourt. I just want to say finally, that we hope 
that you will help us preserve the Microloan program, the $20 
million, the $17 million for the TA--which is very important--
and the $5 million for PRIME. I just want to note that the 
PRIME, we are only able to use that program in 16 States. It 
was eliminated in many of the States, just so you know.
    Thank you.
    [The prepared statement of Mr. Betancourt follows:]

    [GRAPHIC] [TIFF OMITTED] T1350.011
    
    [GRAPHIC] [TIFF OMITTED] T1350.012
    
    Chair Snowe. Thank you.
    John Massaua, welcome.

STATEMENT OF JOHN R. MASSAUA, STATE DIRECTOR OF THE MAINE SMALL 
   BUSINESS DEVELOPMENT CENTER AND A MEMBER OF THE BOARD OF 
                       DIRECTORS FOR THE 
           ASSOCIATION OF SMALL BUSINESS DEVELOPMENT 
                            CENTERS

    Mr. Massaua. Thank you.
    I speak today on behalf of not only the Maine Small 
Business Development Centers, but also the 63 State, regional 
and territorial SBDCs.
    With me here today is Don Wilson, President of the ASBDC 
and Jody Keenan, the State Director for the Virginia SBDC.
    Madame Chair, I provided to the Committee 22 pages of 
written testimony, but frankly it boils down to this. Let me 
get right to the point. The SBDC program is in severe financial 
stress, especially in the big flat States like Maine. Unless an 
appropriation of $109 million can be achieved, which 
essentially brings the program to 1998 level dollars, more 
downsizing will take place and SBDCs capacity will continue to 
diminish.
    For example, in Maine, we will need to lay off two 
counselors, 18 percent of our capacity. And in Massachusetts, 
three counselors will be laid off and a center director's 
position, currently open, will remain vacant.
    For the first time last fiscal year, SBDC counseling hours 
Nationally declined by some 94,000 hours or 6 percent. This is 
a trend that is beginning to show within reasonable expectancy 
that the SBA goal has for us is impossible to meet.
    We must act upon this if we are to continue helping small 
businesses in Maine and across the country. $109 million lets 
us get even with 1998 in Maine. It will increase our funding 
only by $100,000, not even enough to maintain the two 
counselors. We will probably lose one even if we do get the 
$109 million unless we are able to find some other sources.
    In the States that lost a percentage of population because 
of the census, they will get back only to 2001 dollars with a 
$109-million appropriation.
    Demand for SBDC services continue to rise. The SBDCs, 
despite reduced capacity, serviced 6 percent more clients in 
2004 than in 2003, but with less hours per client, which if you 
ask any counselor in Maine suggest less of a chance for the 
client to succeed. It takes seven to 15 hours to service a 
client to have a chance for success. And if it is a tech-based 
company, it takes 30 to 50 hours to service that client.
    We cannot be the revolving door for the SBA. We need to be 
able to serve all of our clients properly, like the 40 percent 
who are women-owned nationally--47 percent in Maine--the 31 
percent who are African-American, Hispanic and Asian-American 
and the over 9 percent who are veterans nationally--12 percent 
in Maine.
    The principles of reasonable expectancy dictate the law of 
diminishing returns. We are at the fulcrum point. We cannot get 
blood from a stone. If we are to succeed we must add more funds 
into the SBDC program.
    Madame Chair, this SBA budget is essentially abandoning 
rural America. And for that matter, the inner cities of 
America. The budget proposed and many of the programs it seeks 
to eliminate are going to cause that. As Mark Lapping from 
USM's Muskie Schools would put it, they--the Government--are 
making rural and inner city America peripheral to the 
mainstream.
    In Maine we have the fastest growing rate of poverty, along 
with Arkansas and Mississippi. Our per capita income is 9 
percent below that of the United States and 25 percent below 
New England as a region. We are faced with the prospects of two 
base closings and the potential downsizing of Bath Ironworks. 
Who is going to help these folks if that happens? Who will 
provide the leadership, the advocacy and the service to Maine 
to build entrepreneurship's business that enabled five out of 
100 to be significant in size to replace the job loss that 
continues in Maine and across America, especially 
manufacturing?
    The fact is that despite the supposedly positive economic 
numbers, we still are short 700,000 jobs in the private sector.
    Madame Chair, there is so much I want to say, but I am 
constrained by the time. We need the Microloan program to help 
those who find access to capital the most difficult. Do not be 
fooled by SBA's characterization that it can be replaced by 
Community Express. Community Express is merely a credit card 
program and we know how bad credit cards are for small 
businesses, as counselors.
    We need to fund the FAST program again so we can engage 
small business in the future with meaningful tech 
commercialization. We need to put a stop to the SBA's attempts 
to break a program that is not broke by their desire to 
recompete SBDCs and take them away from university-based 
programming.
    We need to work on creative ways to help the Women's 
Business Center program in order to be able to assist them in 
growing that program, not downsize it in the method that they 
want to do it.
    And we need the $109 million, and I know it is a tough 
budget year and tough decisions have to be faced. But I suggest 
the first place to look is to get part of the $109 million out 
of the SBA's budget because they use almost $16 million to 
manage the current $88 million program. As a professional 
manager, if I had to use 18 percent to manage my program, I 
would probably get my head cut off.
    Finally, I would like to remind Madame Chair that an 
independent study has verified for the last studied year, 2002, 
SBDC returned to the Federal Treasury $211 million for the 
investment Congress made in the SBDC program. That is about 2.5 
times return on investment, a number Bill Gates or Warren 
Buffet, or even the Office of Management and Budget, could only 
wish for in their dreams.
    Thank you, Madame Chair.
    [The prepared statement of Mr. Massaua follows:]

  Statement of John R. Massaua, State Director, Maine Small Business 
  Development Centers and Board Member, Association of Small Business 
                          Development Centers

    Chairperson Snowe, Ranking Member Kerry, and Members of the Senate 
Committee on Small Business and Entrepreneurship; I am John Massaua, 
State Director for the Maine Small Business Development Centers, an SBA 
partnership program with the State of Maine and other stakeholders, 
contractors and allies, administered by and at the--University of 
Southern Maine. I also serve on the Board of Directors of the 
Association of Small Business Development Centers (ASBDC). The Maine 
SBDC has 11 Service Centers and 25 Outreach Offices throughout the 
State of Maine. ASBDC's members are the sixty-three State, Regional and 
Territorial Small Business Development Center programs comprising 
America's Small Business Development Center Network. SBDC programs are 
located in all fifty-states, the District of Columbia, Puerto Rico, the 
Virgin Islands, Guam and American Samoa. The SBDC network is the 
Federal Government's largest small business management and technical-
assistance program with over 1,000 service centers nationwide serving 
more clients than all other Federal management and technical assistance 
programs combined.
    Madame Chair, I would like to thank you and the Senate Small 
Business Committee on behalf of ASBDC, and the nearly 6,000 dedicated 
men and women who are a part of America's Small Business Development 
Center Network, for inviting me to testify at this important hearing on 
the Administration's fiscal year 2006 budget for the U.S. Small 
Business Administration. With me today is Donald Wilson, President of 
the Association of Small Business Development Centers. We commend the 
committee, Madame Chair, for holding a formal public hearing on the 
Administrations budget request for the SBA for fiscal year 2006. It is 
important to look at the Administrations budget figures for the SBA in 
light of the current economy and the needs of the small business 
sector. We should also look at those numbers in light of historical 
trends in budget support for the small business sector of the nations 
economy.
    I would also like to take a moment Madame Chair to thank you, 
Ranking Member Kerry and the members of this committee for all of your 
efforts on behalf of small business throughout the 108th Congress. In 
particular Madame Chair, we would like to thank you and Ranking Member 
Kerry for your efforts along with your counterparts in the House for 
the role you all played in securing passage of the SBA reauthorization 
bill in the last days of the 108th Congress. We are deeply grateful for 
including in that important legislation the long needed confidentiality 
protections for SBDC clients nationwide.
    We would also like to thank you Madame Chair for your and Senator 
Kerry's efforts to try and stabilize the SBA's 7(a) loan program. The 
agreement worked out will apparently avoid a repeat of the catastrophe 
that occurred in December 2003 when SBA effectively shut down the 7(a) 
program.
    On a personal note, I want to thank you Madame Chair for your 
participation at home, in Maine, in understanding and advocating for 
small business, especially at the recent opening pf the joint Eastern 
Maine Community College--Maine SBDC Business Resource Center in Bangor. 
We were particularly delighted with your public comments about the 
importance and impact of the Maine SBDC in the context of the same for 
the entire national network. Thank you.
    I would like at this time to direct the Committee's attention to 
the state of the nations and in particular Maine's economy, the 
Administrations proposed SBA budget for fiscal year 2006, and the 
contribution of the nations small business sector to our overall 
economy. I will then focus my remaining remarks on the Administrations 
proposed funding for the SBDC national program and proposed 2005 
legislation by the SBA.
    The Bureau of Economic Analysis at the Department of Commerce 
reported late last month that the nations Real Gross Domestic Product 
increased by 4.4 percent in 2004. This compared to a 3 percent increase 
in 2003. It was also the best increase since 1999. However, the fourth 
quarter increase was at an annualized rate of 3.1 percent. This was the 
smallest quarterly increase all year and the lowest since the first 
quarter of 2003. We are grateful that the economy has continued to 
expand for the third year in a row. Congress needs to allocate Federal 
resources in such a way as to maximize the chances of keeping the 
current expansion going.
    The Federal Government must allocate resources in a way that will 
help insure that we increase the number of job opportunities for those 
being laid off as many large corporations continue to downsize and as 
corporate mergers increase. December 2004 was the busiest December in 
history for mergers and acquisitions, according to Thomson Financial. 
We need look no further than the merger of SBC and AT&T or Gillette and 
Procter and Gamble to see the impact that corporate mergers have on 
jobs as already evidenced in Maine by the creation through merger of 
Unum/Provident. The P & G/Gillette merger is expected to result in a 
loss of 6,000 jobs. The merger of SBC and AT&T is expected to result in 
the loss of 13,000 jobs. And we are not expected to know for a while 
what the job losses will be from the merger of Sears and Kmart or 
Citicorp and J. P. Morgan. We can be relatively confident that the 
layoffs will be substantial. And it is not just mergers that are 
resulting in substantial job loss. In mid-December, Delphi, the nations 
largest auto parts maker announced it was cutting 3,000 U.S. jobs. Who 
will create the new jobs to compensate for the job losses I have just 
described? We will look to small businesses for new job creation just 
as we have for the last decade or more. The question is, will there be 
enough new small businesses being formed and existing small businesses 
expanding to generate the nearly 160,000 new jobs we need every month 
simply to provide jobs for new workers seeking to enter the workforce? 
That will depend in part on whether the government modifies the 
discouraging and counterproductive downward trend in the real level of 
resources as well as the downward trend in the percentage of Federal 
resources allocated to assist small businesses.
    Correspondingly in Maine, economic conditions continue to be 
stressed as the legacy pulp and paper, timber, textile and shoe 
industries continue to decline rapidly. The threat of downsizing of 
Bath Iron Works and the possible closure of navy bases in Brunswick and 
Portsmouth loom large for the future of Maine's economy. 4.7 percent of 
Maine's workforce remains unemployed, a seasonally adjusted near 
constant statistic for all of calendar 2004. This relatively flat 
employment level overall masks a well-known trend that over the past 4 
years, Maine has lost over 17,000 manufacturing jobs. In two of our 
State's poorest counties, Piscataquis and Washington, employment 
declined by 1 percent, scary when one considers their 2004 average 
unemployment rates equaled 6.5 percent and 8.6 percent, respectively. 
Additionally, Maine's Per Capita Income varies widely from 
approximately $24,000 in Piscataquis County to approximately $35,000 in 
Cumberland County, well below regional levels by 25 percent and 8 to 9 
percent below the U.S. across all states.
    Notwithstanding a relatively flat unemployment rate, Maine is an 
impoverished state, no stranger to poverty, especially in sparsely 
populated counties. For generations, families have survived by working 
the land, fishing and lobstering, and laboring in factories and mills. 
According to the Portland Press Herald, steady job losses, persistent 
population drops and factory closings have made it tougher for families 
in many Maine towns to survive. Maine leads the country with the 
fastest growing poverty rate, tied with Arkansas and Mississippi; 
poverty-related enrollment in Medicaid rose from 24,100 to 48,400 from 
1997 to 2002, with the biggest jump from 2000 to 2001, when enrollment 
doubled, according to the Kaiser Family Foundation; Federal dollars for 
rural rental assistance have declined as need rises: in 1993, Maine 
received $22.7 million and in 2002, $17.9 million. Federal dollars for 
rural home construction fell during the same time period, as did 
Federal spending on Section 8 vouchers, another source for rental 
assistance, and many of the state's Section 8 housing vouchers--a 
primary source of rental assistance for poor people--were frozen for 
most of 2003, because of overwhelming demand, according to housing 
officials; the Maine State Housing Authority turned away hundreds of 
families needing help to pay rent; communities in sparsely populated 
counties are as well struggling to keep their professionals, dentists, 
and doctors: for example, 4,000 people remain on a waiting list at 
Penobscot Community Health Center to see a dentist. Since 1993, credit 
outstanding as a percent of disposable income has risen sharply from 15 
percent to well over 21 percent. Not surprisingly, bankruptcy filings 
have also surged. Growth in installment credit has outpaced income 
growth in 8 of 10 years. And in addition to bankruptcy filings, another 
indicator of the number of people in Maine who are living on the edge 
is the number of people on food stamps; this figure has been growing 
since 2000 and is now near 1993's (last recession) peak.
    The need for Maine to look to a vision of small business and 
entrepreneurship has never been greater. As well for our nation, the 
troubles in Maine--rising poverty and persistent job loss--mirror a 
national trend spreading across the Great Plains, Appalachia, Wyoming 
and other states with sprawling tracts of undeveloped land far from 
metropolitan areas. ``It's important to understand what Maine is 
witnessing, clearly other places are experiencing,'' according to Mark 
Lapping, a professor of planning and community development at our 
University of Southern Maine's Muskie School of Public Service. Maine, 
along with other rural states, suffers from neglect. ``The economy and 
much of society has made rural America peripheral to the mainstream,'' 
Lapping asserts. ``Government and the business world are increasingly 
discounting families and businesses'' in rural areas, ``considering 
them not necessary.''
    However, notwithstanding Lapping's observation, increasingly small 
business and entrepreneurship are being seen as solutions to Maine and 
others' economic difficulties. There is growing understanding that 
economic development strategies founded primarily on business 
recruitment are not in rural America's best interests and that there 
needs to be a greater emphasis on homegrown development, according to a 
2004 jointly published report from the W. K. Kellogg Foundation and the 
Corporation for Enterprise Development. The report points out that many 
observers see entrepreneurship as being a critical, if not major piece 
of rural economic development and that there is a compelling argument 
that creating an entrepreneurial climate where all kinds -of 
entrepreneurs can succeed, lays the groundwork for the five out of 100 
small businesses that evolve into the fast-growing drivers of the 
national economy. The report goes on to say that entrepreneur-focused: 
systems thinking is required to align the plethora of training, 
technical assistance, and financing programs to meet the variety of 
needs of entrepreneurs and their different levels of education, skills, 
and maturity. Thinking, as Madame Chair and the Committee knows, that 
has been led by America's Small Business Development Center Network for 
the past twenty-five years.
    It seems it's just not rural entrepreneurship that is important, 
fostering the creation of entry-level businesses . . . is crucial to 
the revitalization of poor, urban neighborhoods, according to a study 
issued by the Center for Urban Entrepreneurship (CUE) at the Pioneer 
Institute for Public Policy Research. The Institute points out that 
businesses started by inner-city residents tend to have a more lasting 
commitment to their communities. Moreover, as these businesses grow, 
they are more likely to hire local residents and spur further local 
business development. CUE asserts business ownership can also be a path 
to wealth creation for low-income individuals and their families; it 
can enable residents of distressed urban areas to share in the benefits 
of revitalization, rather than become victims of gentrification: Who 
will help these rural and inner-city businesses grow but for a proven 
network of technical assistance service providers, America's Small 
Business Development Center Network, given the proper resources?
    Now, taking a serious look at the nations overall jobs picture, 
2004 was the first year since 1999 that saw job growth in every single 
month, and it was also the first year since 2000 that the jobless rate 
declined. The nations unemployment rate in January of 2004 was 5.6 
percent. The jobless rate last month fell to 5.2 percent. On the 
surface, that would be very encouraging news. However, it would appear 
that the decline in the unemployment rate was primarily due to a fall 
in the Labor Force Participation Rate (LFPR) from 66.0 percent to 65.8 
percent. This represents the lowest Labor Force Participation Rate 
since May 1988. The LFPR is currently 1.5 percentage points below its 
most recent peak of 67.3 percent achieved in April 2000. In other 
words, the unemployment rate declined last month because hundreds of 
thousands of Americans, gave up looking for work in January. 
Specifically, unemployment fell because the labor force fell by 
224,000, while employment grew by only 85,000.
    The number of jobs created since the last recession ended in 
November 2001 has been the lowest of any economic recovery in the 
United States since World War II. The total number of jobs in the 
economy last month was only 62,000 more than existed in March of 2001. 
Currently private sector employment remains approximately 700,000 jobs 
below what it was in March 2001. Government entities may be creating 
new jobs but the private sector is not. Private sector employment in 
January was 0.6 percent below what it was 46 months ago. This is a 
particularly disturbing statistic. Overall, we have fewer people 
employed today than the President's Council of Economic Advisors 
predicted in January of 2002 that the Nation would have in January of 
2003.
    Clearly, this has been an unusual recovery. Virtually every 
prediction in recent years relating to job growth has been missed. When 
the President's tax package was approved, the Council of Economic 
Advisors (CEA) projected 5.5 million new jobs would be created from 
July 2003 through the end of 2004. As of December 31 of 2004, it became 
apparent that those projections would fall short by nearly 3 million 
jobs. Fortunately, 2.2 million jobs were added during this past year, 
thereby bringing the year-end employment levels to 132.3 million 
employed.
    In January, manufacturing employment, (which we know is of 
particular concern to you Madame Chair in your capacity as Co-Chair of 
the Senate Manufacturing Taskforce) declined by 25,000 jobs. That is 
the fifth consecutive monthly decline in factory jobs. From March 1 
through August of 2004 the economy created 85,000 new manufacturing, 
jobs. From September 1,2004 to February 1, 2005 the manufacturing 
sector has lost 61,000 jobs.
    This loss of manufacturing jobs is taking its toll on the Maine's 
economy. Like the U.S., Global markets have battered Maine, but even 
more so. By the early 1990's, Maine's decline in manufacturing 
employment started accelerating. While the U.S. has lost 25-30 percent 
of its manufacturing jobs from peak to trough, Maine has lost closer to 
50 percent. This is of particular concern because it hits Maine's rural 
areas the hardest as these rural places have the highest concentration 
and dependence on industrial jobs. York and Sagadahoc are also 
vulnerable, particularly with the BRAC process restarting. As Maine 
loses manufacturing jobs, they are being replaced by lower paying jobs 
with fewer benefits. The percent of jobs in Maine that pay a livable 
wage has been stuck at approximately 66 percent for 8 years; far below 
Maine's desired benchmark of 85 percent.
    The national economic data which we have seen coming from the 
Department of Commerce and the Department of Labor continue to give 
mixed signals about the future of the economy, as well those from the 
Maine State Planning Office. We are relatively confident that the 
overall economy will continue to expand throughout fiscal year 2005 but 
at a slower pace than in fiscal year 2004. The real economic issue that 
faces us all is job creation. Can this economy produce the number of 
jobs necessary to provide older Americans caught by downsizing and 
young Americans graduating from high school and college with the 
employment opportunities they must have to provide for themselves and 
their families? Can we create enough jobs to ensure that consumer 
spending will continue to drive economic growth? What will be the 
impact of higher interest rates on housing starts, consumer spending 
and in turn job creation?
    The robust growth of 2004 is not likely to be repeated. Consumer 
spending will likely be unable to continue to fuel growth if inflation 
increases, wages remain relatively stagnant, and energy prices 
increase. Private sector job creation will be uncertain if we do not 
pay more attention to the well-being of our nations small businesses. 
One measure of whether we are paying attention is resource allocation. 
Resources for SBA have declined roughly 40 percent since 2000. This 
budget continues that downward spiral. ASBDC believes the economy has 
paid a price over the last 4 years as resources for management and 
technical assistance to small business owners and aspiring 
entrepreneurs has declined, certainly in real dollar terms.
    Administrator Barreto has done what he could with what he has. 
Nevertheless, his field staff is strained, his resource partners are 
strained and small business owners are not getting the depth of service 
and adequate access to services that they need and deserve in light of 
the fact that over 40 percent of Treasury receipts come from small 
businesses.
    Neither the SBDC national network nor I is unmindful of what is 
occurring in the world and the responsibilities throughout the world 
that our Nation is trying to meet. We recognize that we are fighting a 
worldwide war against terrorism and that we are engaged in Nation 
building in Iraq, and Afghanistan. We fully appreciate that Nation 
building does not come cheap and that we must provide for our troops 
abroad.
    We understand that to meet these new worldwide obligations requires 
resources. That is why we have voiced concern about the lag time of 
this recovery in comparison to earlier post recession recoveries, the 
slow growth in business startups and the slow growth in employment. 
These factors have contributed to a decline in Treasury receipts in 3 
of the last 4 years. If there is not robust activity in the 
entrepreneurial sector, job creation will suffer, consumers will have 
less to spend, government will spend more on public assistance programs 
and we will have to borrow more to meet our obligations as we have for 
the past 4 years.
    We are concerned that continued erosion of overall SBA resources is 
having an adverse impact on the small business sector of the economy. 
The key to lowering the deficit is economic growth stimulated by 
entrepreneurial activity and job formation. We cannot expect to 
stimulate job growth if we do not assist small businesses that are 
struggling to survive or grow. And I hope we will always be mindful 
that small businesses create roughly 70 percent of the new jobs in our 
economy and 53 percent of our nations Gross Domestic Product.
    As to the specific recommended funding for the SBDC program, I am 
sure there was a collective sigh of relief at every SBDC nationwide 
when it was learned that the President's budget recommended $88 million 
for the SBDC program for fiscal year 2006. We would appear ungrateful 
if we did not acknowledge that, in actual dollar terms, the SBDC 
program has been recommended for the same level of funding that the 
White House proposed last year. And that recommendation comes at a time 
when hundreds of programs are being eliminated or are being cut. And we 
are, indeed, grateful.
    However, this committee and your colleagues in the Senate and House 
should understand that years of level funding are gnawing at the very 
marrow of the SBDC national program, seriously impacting its ability to 
help the 23 million small businesses in this country, whether they are 
manufacturing concerns with 500 employees or a mother operating a home-
based business to help her family get by.
    And our government's obligations abroad in terms of Nation building 
and in terms of the war on terror are creating major problems for 
thousands of small businesses here at home. When our Nation sends 
National Guard and Reserve Units abroad, as it understandably must do, 
it is sending abroad many owners and key employees of small businesses. 
What do we say to the men and women who return after serving in uniform 
in Iraq and Afghanistan to find the business they owned or the business 
that employed them no longer open for business? Additional resources 
are desperately needed to enable SBDCs to assist small businesses 
impacted by the call up of owners and key employees to active duty 
service in the Guard and Reserve.
    And where are the SBDC resources to assist the tens of thousands of 
new immigrants particularly in the Hispanic community who are seeking 
to start a new business so that they too can enjoy the American dream?
    I mentioned earlier the growing number of jobs lost to downsizing 
and mergers. These realities in the economy have resulted in an ever-
increasing number of Americans over 50 in the unemployment lines. A 
recent article in USA Today focused on new research that shows 5.6 
million workers age 50 and older are now self-employed, a 23 percent 
jump from 1990. As a result of corporate downsizing and mergers, tens 
of thousands of workers over 50 have faced loss of employment in recent 
years. Many of these workers, after months of unsuccessfully searching 
for new employment, turn to self-employment. And where are they to find 
the necessary training to develop the wide range of skills required to 
run a small business successfully? Many of them are turning to their 
local SBDC. Where are the resources to enable SBDCs to serve what the 
Rand Corporations research for the AARP says will be an ever-increasing 
number of baby boomers turning to self-employment to sustain their 
families in 2005, 2006 and beyond?
    Dr. Graham at the Office of Information and Regulatory Affairs at 
the White House and Small Business Advocate Tom Sullivan are doing a 
remarkable job in their efforts to slow the ever-growing regulatory 
burden on America's small businesses. Their efforts have resulted in 
billions in regulatory compliance cost savings. But the number of new 
regulations grew substantially in 2003 and 2004. Where are the 
resources needed to enable SBDCs to assist millions of small 
businesses, your constituents, who are struggling to understand and 
comply with the ever-growing regulatory burden on small businesses?
    Recognizing your concerns Madame Chair with the State of 
manufacturing in the U.S., ASBDC commissioned Dr. James Chrisman of 
Mississippi State University last summer to analyze the impact of SBDC 
services on SBDC long-term counseling clients who were manufacturers. 
Dr. Chrisman completed that study in September of 2004. Dr. Chrisman 
estimates that SBDC long-term counseling clients who received services 
in 2002 generated 9,251 new jobs during 2002 and 2003. Based on client 
assessments, Dr. Chrisman estimates that as a result of SBDCS 
counseling, 185,321 manufacturing jobs were saved in 2002 and 2003. Dr. 
Chrisman further estimates that SBDC 2002 long-term counseling clients 
who were manufacturers generated an increase in tax revenues of $58 
million of which $34.8 million went into the Federal Treasury. And 
those manufacturing firms who received long-term counseling represented 
a little less than 12 per cent of SBDC long-term counseling clients in 
2002. With the continued difficulties facing American manufacturing, 
where are the additional resources that SBDCS will need to address the 
growing needs of our nation's small manufacturers?
    The more comprehensive 2004 economic impact study of all SBDC long-
term counseling clients conducted by Dr. Chrisman, reported that SBDC 
long-term counseling clients generated 56,258 new jobs in 2003 as 
compared to 46,688 new jobs created by SBDC long-term counseling 
clients in 2001. The 2004 Chrisman Study also reported that an 
additional 59,489 jobs were saved in 2003 as a result of SBDC long-term 
counseling compared to 34,215 jobs saved in 2001. The 2004 Chrisman 
Study reveals that the average change of employment rate for SBDC 
established business clients was a positive 10.2 percent--over twenty-
five times the rate of the average U.S. business. The average change in 
sales for an SBDC long-term counseling client was 17 percent compared 
to 2 percent for the average U.S. firm. Nearly 53 percent of SBDC pre-
venture clients who received long-term counseling (five hours or more) 
during 2002, actually started new businesses during 2002 and 2003.
    The same Chrisman Study points out in Maine:
    <bullet> A job is created or saved by Maine SBDC business assisted 
clients every . . . 9 hours.
    <bullet> $10,000 in new sales are generated by Maine SBDC business 
assisted clients every . . . 64 minutes.
    <bullet> $25,000 in financing is obtained by Maine SBDC business 
assisted clients every . . . 17 hours.
    Existing business owners score Maine SBDC Counselors 4.3 out of 5 
on knowledge and expertise.
    <bullet> 92.1 percent of existing business owners would recommend 
Maine SBDC services to other business owners.
    Despite the positive numbers reported by Chrisman, there is one 
very disturbing piece of data in the most recent SBDC productivity 
numbers. For the first time in recent years the average hours per 
counseling client declined as overall counseling hours declined. This 
decline in the overall number of counseling hours occurred in the face 
of an increase in the overall number of counseling clients. We believe 
this is primarily due to the fact that the SBDC national network has 
experienced a reduction in the number of counselors available 
nationwide to serve an expanding number of clients seeking counseling 
services. The reduction in available counselors is clearly due to a 
decline in available Federal financial resources in actual and real 
dollar terms in recent years.
    For example, SBDC programs in low population states such as Madame 
Chair's State of Maine, Senator Enzi's State of Wyoming, Senator Burns' 
State of Montana, or Senator Thune's State of South Dakota (which get 
base grants of $500,000) have had no increase in Federal funding since 
1998. Inflation alone has eroded their ability to serve their state's 
small businesses. To have the purchasing power that they had in fiscal 
year 1998, low population states would each need grants of $603,000 in 
fiscal year 2006.
    SBDCs in many larger population states experienced severe cuts as a 
result of the 2000 census. Many of these states now have some of the 
highest unemployment levels in the nation. Madame Chair, the SBDC 
program in Senator Bond's State of Missouri under the President's 
recently proposed fiscal year 2006 budget would receive $61,000 less in 
actual dollars in fiscal year 2006 than it did in fiscal year 2001. The 
SBDC program in Senator Kerry's State of Massachusetts would receive 
$132,000 less in fiscal year 2006 than it did in fiscal year 2001. The 
SBDC program in Senator Bayh's State of Indiana would receive $60,000 
less in fiscal year 2006 than it did in fiscal year 2001. The SBDC 
program in Senator Levin's State of Michigan would receive nearly 
$130,000 less in fiscal year 2006 than it did in fiscal year 2001, 
Senator Vitter and Senator Landrieu's State of Louisiana would receive 
$91,000 less in fiscal year 2006 than it did in fiscal year 2001, 
Senator Coleman's State of Minnesota would receive $13,000 less in 
fiscal year 2006 than it did in fiscal year 2001 and Senator 
Lieberman's State of Connecticut would receive $100,000 less in fiscal 
year 2006 than it did in fiscal year 2001 and Senator Pryor's State of 
Arkansas would receive $42,000 less in fiscal year 2006 than it did in 
fiscal year 2001. And these numbers reflect actual dollars with no 
adjustment for inflation.
    To provide SBDCs in low population states with sufficient funds to 
restore their purchasing power to fiscal year 1998 levels and to 
restore states impacted by the census to the actual funding levels of 
fiscal year 2001 would require an appropriation for SBDCs in fiscal 
year 2006 of $109 million, still well below the programs authorized 
level of $135 million. Madame Chair, Senator Kerry, Honorable Members 
of the Committee, on behalf of America's small businesses, we 
respectfully ask for an appropriation of $109 million for the SBDC 
program.
    If that level of appropriation cannot be accommodated, then no one 
on this committee should be surprised when SBDC counselors in their 
State are laid off or service centers are closed. And no one should be 
surprised when counseling hours per client decline again in fiscal year 
2006. Reduced hours per client results in reduced economic impact. And 
many of our counselors believe that maximum economic impact is attained 
when clients receive between 5 and 12 hours of counseling. It is 
impossible for the SBDC program to give an increasing number of clients 
the attention they need and deserve with the level of decline in 
resources that has occurred since 1998 as I have outlined above.
    Think of this decline in hours of consulting per client in terms of 
your own health care. What if you were experiencing a variety of 
concerning health symptoms and went to your family practitioner or 
internist seeking medical attention? Suppose the doctor came into the 
examining room, looked at you briefly without a meaningful discussion 
with you of your symptoms, without ascertaining whether you were 
running a fever, without checking your blood pressure, without a 
urinalysis or blood test and then prescribed a treatment regimen. I 
seriously question whether you would make a return visit to that 
particular physician or have any confidence that his or her prescribed 
regimen would do much to improve your health. That is the type of 
reduced service and response that many SBDC clients may have to expect 
in the future if demand for SBDC services continues to increase and 
resources continue to decline. And when the quality of services 
declines, the beneficial economic impact of our consulting services, 
that is increased client sales, increased job creation and increased 
revenues to State and Federal treasuries will likely decline.
    Madame Chair, in Maine this year, we would have had to reduce staff 
if it were not for a State assisted CDBG allocation of some 200K that 
enabled our SBDC to maintain level staffing. The prospect of a CDBG 
grant for next year is slim to none and we are staring in the face of 
an 18 percent reduction of counseling staff, come next January, should 
we not get the resources needed.
    The latest SBA figures for the SBDC national program show that SBDC 
counseling cases and training attendees combined increased from 685,000 
in fiscal year 2003 to nearly 726,000 in fiscal year 2004. Training 
attendees increased from 408,000 in 2003 to nearly 446,000 in 2004. 
These figures clearly demonstrate that America's small business owners 
and aspiring entrepreneurs are aware that they need management and 
technical assistance to enhance their likelihood of business success. 
They are increasingly seeking that assistance from the experienced, 
capable, and dedicated men and women who are consultants and trainers 
in America's Small Business Development Center Network. In Maine, 
nearly 3000 nascent entrepreneurs and existing business owners sought 
one-on-one business, assistance in Calendar 2004 with a similar number 
in attendance at 180 Maine SBDC sponsored workshops, notwithstanding 
yet another similar amount served with SBA termed information 
transfers. Clearly, in Maine and nationally demand is enormous.
    Looking even closer at the SBDC client base, SBA's latest figures 
show that in 2004, 40 percent of SBDC counseling clients nationwide 
were women (in Maine: 47 percent). SBDCs serve more women than all 
other Federal management and technical assistance programs combined. 
And the increase in entrepreneurial activity among women is dramatic. 
Entrepreneurial activity is also rapidly increasing among minorities. 
Seventeen percent of SBDC clients are African American, over 10 percent 
are Hispanic and 4 percent are Asian-Americans. Over 9 percent of SBDC 
counseling clients are self-identified veterans (in Maine: 12 percent). 
Sixteen percent of our counseling clients were engaged in retail. 
Thirty-eight percent were engaged in service, 8 percent were engaged in 
manufacturing (in Maine 12.4 percent), 3 percent were engaged in 
wholesale, and 4 percent were engaged in construction. Forty-four 
percent of our training seminar attendees were women, twenty-four 
percent were minorities and 7 percent were self-identified veterans.
    And these SBDC clients and firms are not simply statistics. They 
are our neighbors, our relatives and our fellow church congregants, who 
have children in our children's schools and businesses in our 
communities. They are individuals like Mark Awalt of JSI Store Fixtures 
in Milo, Maine, Susan Giguire of Care & Comfort in Waterville, Maine 
(recognized by the SBA as 1 of 15 nationally acclaimed Women 
Entrepreneurs), and Martin Grohman of the tech-savvy company Correct 
Building Products in Biddeford, Maine, makers of CorrectDeck; and 
Christine Henriques with her partners, Gabe Linden and Jason Mark, of 
Gravity Switch, a multimedia development firm in Northampton, 
Massachusetts; and Mark Hanudel of R & H Quality Refractory Service, 
Inc who was the 2004 SBA Small Business person of the year from 
Sulphur, Louisiana; Merrie and Tom Ellsberry and their mobile document 
shredding business in Cheyenne, Wyoming; Dawn and Rod Nimtz and their 
Cracked Egg Omelette Shoppe in Bay City, Michigan; and thousands and 
thousands of others. These men and women from all types of communities, 
educational backgrounds, ethnicity, etc., are building and growing 
companies. And the companies they are building and growing are 
providing work for others in their communities. Those workers and the 
companies that employ them are paying local, State and Federal taxes. 
And the tax revenues resulting from the increased economic activity of 
SBDC clients exceeds the Federal outlays for the SBDC program. The 2004 
Chrisman Study of SBDC long-term clients who received assistance in 
2002 found that the incremental performance improvements of these 
clients resulted in $210. 3 million in additional tax revenues from 
established businesses and $264.8 million from pre-venture clients who 
started new businesses. This amounted to a total of approximately 
$475.1 million in additional tax revenues of which $211.6 million went 
to the Federal Government and $263.5 million went to the states. In 
Maine the report shows that $2.00 is returned to Maine the very next 
year through State tax revenues for each State dollar invested in the 
Maine SBDC every year, and $2.60 is returned through Federal tax 
revenues to the U.S. for each Federal dollar invested.
    Madame Chair, very shortly now, you will be submitting a letter to 
the Senate Budget Committee regarding the needs of programs under this 
committees jurisdiction. In his inaugural address last month, the 
President told the Nation he wanted to enhance opportunities for 
business ownership. We share his vision of an opportunity society. But 
just as opportunities are foreclosed for millions of young people who 
drop out of school or do not attain education past high school, so are 
opportunities lost to millions of small business owners or aspiring 
entrepreneurs if they cannot access resources that will enable them to 
manage their businesses effectively and profitably or start a new 
business.
    We believe that if the SBDC program is to meet the growing needs of 
women, minorities, baby boomers, and small manufacturers, or businesses 
impacted by National Guard and Reserve call-ups; the SBDC program must 
have additional resources. To restore states like Missouri, 
Massachusetts, Michigan, Indiana, Minnesota, Louisiana, etc., to the 
actual dollar funding they had in fiscal year 2000 and to restore low 
population states like Maine, Montana, Wyoming and South Dakota to the 
real dollar funding they had in 1998 will require an appropriation of 
$109 million. We trust, Madame Chair, that when you write to the 
Chairman of the Senate Budget Committee on which you serve, that your 
recommendation will take into account the real needs of this nation's 
small business sector for management and technical assistance. We hope 
you will consider asking the Budget Committee to include in the budget 
a level of funding for the program that will begin to restore the real 
loss of resources that this program has experienced over the last 8 
years. We hope you will encourage the Budget Committee to take into 
account that the job creation and increased sales that the SBDC program 
helps to generate for its small business clients, in turn generates 
tens of millions more in revenues for the Treasury than the program 
receives from the Treasury. We hope that when you write your letter, 
you will recall the President telling the Congress in his State of the 
Union address that ``small business is the path of advancement, 
especially for women and minorities.'' We hope that you will ask for a 
$109 million for the SBDC program.
    Additionally Madame Chair, we are concerned with the elimination of 
SBA's FAST program, which a number of SBDC's directly or indirectly 
participate in as to assist new technology related business with the 
process of commercialization of products. In Maine, the Maine SBDC 
through its tech-focus program, the Maine Small Business & Technology 
Development Centers (Maine SBTDC), works in partnership with the Maine 
Technology Institute (MTI) to drive the vitality, competitiveness and 
clustering of tech-based small businesses across Maine. Funding through 
FAST enables MTI along with its partners, such as the Maine SBTDC, to 
create a statewide entrepreneurship network, facilitating access to 
business expertise, markets and capital. Maine currently has a strong 
commercialization-assistance program with funding accessed from fiscal 
year 2004. The FAST award accounts for $95,000, with $157,000 in 
matching State funds. An ROP award worth $49,000, with $25,000 in 
matching State funds, adds to the overall budget. The integration of 
these awards helps MTI and the Maine SBDTC achieve management 
efficiencies in the development, promotion, execution and performance-
measurement of high-quality commercialization services. Similarly, 
other states are able to mobilize resources for tech-commercialization 
using FAST dollars as a basis for composition of meaningful results-
oriented activities such as the following currently in Maine, which 
include:
    <bullet> Improving the quantity and quality of SBIR proposals to 
Federal agencies.--Since the inception of Maine's SBIR technical-
assistance program in 1997, SBIR investment in the State has increased 
steadily, growing from $1.5 million in 1997 to more than $4 million 
last year. Similarly, the number of SBIR projects awarded to Maine 
firms has grown from five in 1997 to 23 in 2004. For 2005, Maine will 
commit more than 2,700 hours of outreach and consulting time to 
businesses submitting SBIR proposals. The organization anticipates that 
this assistance will return approximately 30 awards and an investment 
in Maine of $6 million.
    <bullet> Producing an intensive 10-week series of commercialization 
workshops.--The workshop series cultivates the marketing and sales of 
tech-based products and services developed by Maine entrepreneurs. 
Designed to promote interaction within a small group, the workshops 
provide hands-on and practical knowledge to support go-to-market 
activities. The series challenges firms to think strategically and 
analytically while facilitating exploitation of the business 
opportunity. Since inception of the series in 2002, 40 firms have 
completed the coursework. This year's series, starting in the spring, 
will feature increased use of the Internet. Live ``web streaming'' will 
encourage participation by firms in rural areas, and on-line 
``threaded'' discussions will enable a continuing exchange of ideas 
outside the physical workshop.
    <bullet> Growing small businesses with the Maine Tech Trackers.--
Maine Tech Trackers are Maine's volunteer technology business advisors. 
Motivated by an interest in playing a role in Maine's economic 
development, Tech Trackers provide short-term and targeted assistance 
to MTI/SBTDC portfolio companies. Recruited statewide, Trackers are 
entrepreneurs, senior managers in large firms, and venture capitalists. 
They volunteer a small portion of their time to help technology 
business clients overcome specific business challenges, including 
accounting, engineering tests for patent applications, and business 
valuation for the purposes of a sale. In their role as mentors, they 
support small businesses by providing encouragement, critique and 
advice.
    We believe the elimination of the FAST appropriation to be 
imprudent in the face of lost manufacturing jobs discussed earlier. 
According to the Council for Competitiveness, ``Innovation fosters the 
new ideas, technologies, and processes that lead to better jobs, higher 
wages and a higher standard of living. For advanced industrial nations 
no longer able to compete on cost, the capacity to innovate is the most 
critical element in sustaining competitiveness. The United States 
stands apart from the rest of the world in its record of sustained 
innovation over decades, across industries, and through economic 
cycles. But the United States now finds itself at a potential 
inflection point--facing new realities that pose significant challenges 
to our global innovation leadership. How the United States responds to 
these realities is critically important and is the goal of the National 
Innovation Initiative.'' Elimination of FAST funding appears to fly 
directly in the face of this initiative, as outlined in a very recent 
report, entitled Innovate America, published by the Council.
    The Administrations budget also seeks to eliminate the SBA Micro-
loan program--30 percent of micro-loan borrowers are African American, 
11 percent are Hispanic, 37 percent are women, and 30 to 40 percent are 
rural. Needless-to-say, our concern is that access to capital will be 
severely limited to our Nation's underprivileged, and even though the 
SBA claims it is being replaced by the Community Express program, that 
method of business capital access is little more than ``credit card'' 
debt, fraught with all the dangers of that type of business or, for 
that matter, personal financing. I know it is of particular import to 
Maine.
    We ask that the Committee consider working toward restoration of 
FAST and the SBA Micro-loan Program.
    Finally Madame Chair, we want to call your attention to proposed 
fiscal year 2006 legislation by the SBA, Title II: Entrepreneurial 
Development--Sec. 201: Small Business Development Center Competition, 
which proposes authorization of outside competition based on 
performance (FY 2005) as allegedly to improve performance results and 
provide a more cost effective and responsive SBDC program. We ask you, 
Senator Kerry and the Committee to vehemently oppose this needless 
change.
    With all due respect, to our partner, the, SBA, we believe such a 
legislative change would far from improve performance overall, or in 
any way, improve results, or possibly suggest a more cost-effective 
methodology for the SBDC program, quite the contrary. Frankly, the 
Agency has numerous tools at its disposal to manage the SBDC program 
including program reviews, financial audits, diversity audits, DC-based 
program managers, locally-based project officers and district 
directors, client surveys, annual work plan negotiation, statistical 
measurement, generally additional state oversight because of matching 
requirements, most importantly ASBDC peer review accreditation, and, if 
necessary, protocol to re-bid an individual program when all fails. We 
suggest if that is not enough to assure outstanding performance results 
than perhaps Congress has been placing false trust in the Agency's 
ability to manage. We certainly hope not.
    This year, the ASBDC celebrate twenty-five years of serving 
America's small business community: twenty-five years of continuous 
improvement, twenty-five years of helping small businesses succeed, and 
twenty-five years of proven results. As the members of this Committee 
know, the SBDC program is a program that works exceptionally well in 
Maine and in states throughout the country. It is a program with a 
proven track record of creating new businesses, jobs, sales and 
economic development by leveraging Federal, State, university, regional 
and private resources. It makes no sense for the SBA to propose changes 
to the SBDC program that will weaken its ability to fulfill its 
mission.
    We believe hidden in this SBA suggested legislation, the SBA is 
again proposing to repeal the law's requirement that applicants to host 
SBDC networks must be institutions of higher learning. SBA would make 
any non-profit organization eligible to apply for an SBDC grant, 
regardless of whether it had any expertise in entrepreneurship or the 
delivery of management and technical assistance to small businesses. We 
believe such would severely damage the SBDC program.
    Institutions of higher learning bring academic pedigree and 
stability to State SBDC networks, because such institutions are built 
on solid financial and community foundations. In addition, institutions 
of higher learning help to ensure the quality and educational mission 
of a state's SBDC services to small business owners and aspiring 
entrepreneurs. The University of Southern Maine (USM) was an original 
pilot project participant in the creation of the forerunner to today's 
SBDC program and since has an over twenty-five year history of 
successfully assisting Maine's small businesses. Throughout those 
years, the University in collaboration with Maine's SBA District Office 
and Maine Department of Economic and Community Development has nurtured 
and leveraged the Maine SBDC program to be a statewide motivating force 
in developing the entrepreneurial spirit of Maine people.
    USM is proud of its more than 25-year role as the administrative 
unit for the Maine SBDC. Moreover, hosting SBDC provides opportunities 
for an ongoing, mutually beneficial relationship with the USM School of 
Business, its Center for Entrepreneurship and business research 
centers, and other campus entities that can create real-world solutions 
to business issues while complementing the University's mission of 
cultivating partnerships in support of the region's economic and social 
development.
    The SBA's proposed legislative changes come at a time when 
Institutions of Higher Education's importance in economic development 
strategies are at an all time high. Witness:
    <bullet> ``In Cleveland's heyday, . . . proximity to water or rail 
mattered a lot. Today, proximity to a university campus matters a 
lot.'' (Tim Ferguson, Forbes)
    <bullet> In his new book, ``The Rise of the Creative Class'', 
Richard Florida refers to colleges and universities as ``. . . a huge 
potential source of competitive advantage.'' And he says that colleges 
and universities are today ``. . . a basic infrastructure component . . 
. and far more important than traditional infrastructures such as ``. . 
. the canals, railroads and freeway systems of past epochs . . .''
    <bullet> States such as Georgia have recognized the fundamental 
role of higher education so clearly that its former Governor, now U.S. 
Senator Zell Miller, publicly declared that higher education was the 
infrastructure of Georgia's new economy.
    <bullet> ``Much of the burden of transforming Mississippi's economy 
will fall squarely upon the capable shoulders of the state's economic 
developers and our higher education system.'' (Economic Development 
through Higher Education, a report from the Mc Coy Working Group).
    <bullet> ``A strong partnership with government, business, and 
higher education is critical to overcome the challenges of the 
transition to the new global, knowledge-based economy. There are 
increasing expectations from legislative and executive leadership in 
the State that the University of North Carolina assume a more direct, 
active role in economic development. . . . In its growing role in 
economic development, UNC is building on a strong record of service and 
support for communities and entrepreneurs, including those in rural 
areas . . . Seventeen Small Business and Technology Development Centers 
play a key role in entrepreneurial development, offering services to 
existing businesses and industries and supporting strategic economic 
development initiatives.'' (The Role of the University in Economic 
Development, The University of North Carolina Board of Governors Long 
Range Plan 2004-2009)
    An SBDC program that is supported by an institution of higher 
learning like the USM or UNC or UMass or Wharton for that matter, 
benefits from both the resources and the high standards of that 
institution typical to standards set by accreditation bodies, actively 
engaged trustees and in the case of public institutions, the rigors of 
legislative scrutiny. Most institutions of higher learning have 
business schools that contribute the expertise of faculty, business 
student interns, academic crossover, MBA students, Centers for Family 
Business and/or Entrepreneurship and other resources. SBDC programs 
are, as a matter of course and design, educational programs; as such, 
it is only logical that institutions of higher learning should host 
them. It makes no sense, as the SBA seems to be proposing, to solicit 
SBDC grant applications from non-profit organizations that have no 
background or expertise in providing entrepreneurship, management and 
technical assistance to small businesses. And even if some non-profits 
do have some limited experience in these areas, their focus is usually 
limited; they cannot possibly bring the broad prospective that 
institutions like the University of Southern Maine bring to the 
responsibilities associated with facilitating economic progress through 
small business creation, growth and development.
    In Maine, we do use some community and/or community development 
corporations as sub-hosts, but it is well documented in the SBA that 
such requires very keen oversight, can only operate effectively on a 
regional basis within the State, and need the overarching 
infrastructure of State support and University contractual oversight to 
be effective. And it is only since this State director has taken charge 
that there is consistency of program. To expect that any one of them 
could operate on a statewide basis is wishful thinking. In fact, the 
Women's Business Center, now administered by a CDC, has entered into a 
strategic alliance with the SBDC, as to garner systems, efficiencies, 
professional development and statewide outreach.
    SBDC business management assistance counselors are qualified small 
business professionals who have diverse educational and business 
experience. Many hold MBA's and have owned and operated their own 
businesses. Often they bring diverse corporate experience to bear on 
seeking solutions for small business, especially in the areas of 
marketing, management and operations. Each counselor is required to 
participate in a professional development program, which administers 
core competency standards, personal professional development plans and 
counselor certification for SBDC personnel. Additionally ASBDC 
professional development is mandatory for many SBDC programs.
    Three years ago, Maine Small Business Development Centers received 
the Margaret Chase Smith Maine State Quality Award. This award 
recognizes organizations for performance excellence, based on criteria 
corresponding to the Malcolm Baldrige National Quality Award. The 
criteria for the award examine a wide range of qualities, from 
leadership to business results, and evaluate how well an organization's 
systems support its goals and objectives. Last year, the Maine SBDC 
underwent its peer accreditation review--perhaps the toughest 
management review, I have undergone as a professional manager. It too 
is based on Baldrige criteria and it takes seriously the idea of pass 
or fail in its process of review with the opportunity for non-
accreditation and loss of SBA funding to occur.
    This track record of quality within staff and the organization as 
outlined in the preceding two paragraphs has been honed with time and 
in the context of a University with a 125-year-old tradition of public 
service. Not to seek ways to build on such consistency and context in 
my opinion is risible on the part of the SBA.
    Additionally, the SBA's request to require SBDC grants to be re-
competed every 5 years would discourage institutions such as the 
University of Southern Maine from participating in the SBDC program, 
because such institutions would not want to invest significant matching 
resources in a program that might be available to them for only a short 
period of time. For example, in the past 5 years, the University of 
Southern Maine has invested nearly $550,000 in the Maine SBDC and over. 
1 million dollars in cost share for the privilege of administering the 
Maine SBDC. In all likelihood, such an investment would not have been 
made if the potential to lose the program because of what possibly 
could be construed as politics, even marginally existed.
    Moreover, requiring host institutions to re-compete for SBDC grants 
every 5 years would not add to the accountability or quality of SBDC 
programs. Under current law, the SBA can already revoke an SBDC grant 
if the grant recipient is under-performing, and under current law the 
SBDC program is already required to have an accreditation program, that 
ensures quality among grant recipients. Accreditation, more than any 
SBA scrutiny, is a most productive mechanism for continuous improvement 
of the SBDC program because it is done in the context of constructive 
criticism and is absent any political influence, but rather reflects 
the goals of the ASBDC, the SBA and the states to assure the Congress 
it is getting what it is paying for.
    In addition, SBDC hosts in every State undergo reviews by SBA 
auditors every 2 years; and as well, they receive regular program, 
audits from SBA project directors, and also must supply titanic amounts 
of information, often duplicative, to the SBA. It is inherently unfair, 
absent a showing of mismanagement or wrongdoing, to pull a grant from a 
host institution that has made a significant contribution of resources 
to a program in the form of matching funds, in-kind contributions, 
training and development and other resources. There simply is no way 
the momentum it takes in organizational development, resource 
development, and relationship management, etc. should be broken for the 
sake of supposed competition. If there is improvement to be made, let a 
progressive system take care to define objectives and have the SBA and 
SBDC hosting organizations and other important stakeholders work 
together to get it done. When and where and if there is a failure in 
the system, let the accreditation process handily solve the problem 
through methods already available for assuring consistency and success 
of individual SBDC programs.
    Notwithstanding all of the above, the SBA by way of its yearly 
program announcement insists the SBDCs through a negotiated process 
develop, annually the extent to which SBDC statutory and program duties 
are to be delivered to address the needs of states' small business 
communities. In doing so, SBDCs and their partnering organizations must 
ensure that statutory and regulatory duties are met. SBDCs then 
annually operate under an annual plan, approved by the SBA, to provide 
ongoing small business assistance, and thereby must employ their best 
efforts to ensure that economic development and technical assistance 
services are available, as defined by statue, to all small business 
populations where critical success factors apply, including but not 
limited to SBA's special emphasis groups: Minority-, Veteran-, Women-
owned (ex: Native Americans, Hispanic Americans, Black American, 
Reservists, Women, etc.). It seems to me the SBA has ample opportunity 
to reasonably define their wants and needs for any SBDC program within 
such a vehicle and that within one which already exists.
    Members of the Committee, the Maine SBDC is a partnership program 
that combines the resources of the Federal Government, the Maine 
Department of Economic and Community Development, the University of 
Southern Maine, and leading economic and community development 
organizations. For 27 years the Maine SBDC has provided comprehensive 
business management assistance, training and information services to 
Maine's micro-, small-, and now technology-based business communities. 
The effectiveness of this partnership, and the delivery of services to 
Maine's small businesses, depends on good faith, stability and 
cooperation among the partners. This partnership, and the resources 
that each of these partners brings to the SBDC program, more than 
likely State participation, could be destroyed by the SBA's proposal to 
recompete SBDC grants every 5 years. It simply makes no sense. It takes 
from 6 to 8 years for a counselor in New England to progress from 
rookie to seasoned even with the rigorous hiring requirements we place 
on the position. The SBDC network values longevity as do the people who 
are part of it, many with over 10 years experience who simply wouldn't 
stay around if they knew their benefits and or retirement could be 
jeopardized every 5 years; they simply are too good and generally too 
entrepreneurial to deal with the kind of bureaucracy re-competing could 
bring. Ernesto Sirolli, the renowned author and principal of enterprise 
facilitation, suggests good business counselors to be somewhat gray 
haired and having been there and done it. If you subscribe to his 
theory (and I see myself as a living example, having over thirty years 
of business experience including that of a Founding Officer of 
Staples), these folks want to concentrate on the person of the client 
and not the pottage. Please let them.
    Let's not forget our State partners either. In Maine, the State 
puts in nearly 500,000 dollars additional cash over and above the 
250,000 dollars cash required by the SBA; the in-kind is well provided 
for as well; and additional cash and leverage come from a myriad of 
partners. These partners including the SBA and the State all are 
working together in a coordinated fashion with an understanding that 
both State and Federal needs have to be met in coordination with one 
another. One-sided control is yesterday's theory. A statewide newspaper 
article excerpted below demonstrates collaborative realities in Maine:

          Maine Small Business Development Centers serve thousands of 
        small business owners each year through. one-on-one business 
        counseling and comprehensive training programs. Most Maine SBDC 
        services are offered at no cost to clients and delivered by a 
        team of highly qualified professionals who bring 
        entrepreneurial experience, advanced business education, and 
        corporate know-how to their role in advising small businesses. 
        Maine SBDC is frequently asked how it is able to provide the 
        level of service it does at little or no cost to its clients, 
        who have often invested every financial resource they have into 
        their businesses. The answer is collaboration.
          By working in partnership with business assistance service 
        providers throughout the State, the Maine SBDC can give clients 
        access to the best talent and resources available. In addition 
        to funding from SBA, the State of Maine, and the University of 
        Southern Maine, the Maine SBDC is fortunate to have many 
        longstanding partnerships. Maine SBDC services to small 
        businesses get a boost from collaborative relationships such as 
        those with Maine Technology Institute, Market Development 
        Center, Maine Women Work & Community, and others whom support 
        customized services for specific industries and/or communities.
          Through effective collaboration with many organizations that 
        serve small business, and coordinated missions including those 
        of other SBA funded partners, the Maine SBDC fosters the 
        entrepreneurial spirit upon which the future of the State's 
        economy depends. (MaineBiz)

    As the members of the Committee know, all is not always rosy with 
the small business sector. The small business sector's need for 
management and technical assistance is greater than ever as America 
looks to it to fuel job growth. And so, it is more important than ever 
that the Committee reject SBA's proposed legislative changes to the 
SBDC program--such that they would weaken the SBDC network's ability to 
serve America's small business owners and aspiring entrepreneurs.
    As Madame Chair knows, Maine's economy is based on small business. 
More than 98 of Maine businesses employ fewer than 100 employees and 
more than 92 percent employ fewer than 20 employees. The services that 
the Maine SBDC provides to aspiring and current business owners are 
clearly critical to the success of Maine's economy. These services 
should not be put in jeopardy to serve the interests of the bureaucracy 
that administers the SBDC grants in Washington, DC.
    The national SBDC network, including the Maine SBDC, has a proven 
record of creating jobs and generating growth for America's small 
businesses as outlined in previous testimony. With such a record of 
accomplishment, both in Maine and across the nation, there is no 
justification for the SBA's proposal to radically restructure and put 
at risk the effectiveness of America's Small Business Development 
Center Network.
    Chair Snowe, we sincerely appreciate your strong support for the 
Maine SBDC and America's Small Business Development Network; I urge 
you, Senator Kerry and the members of this Committee to reject the 
SBA's SBDC legislative proposal. Rather, I ask that the Committee focus 
on ways to enhance entrepreneurial development in our great country by 
building on the success of the SBDC program and by developing 
improvement activities through increased funding, collaboration and 
quality-related legislative activities to help get and keep America's 
economy moving forward with small business at the core as it has been 
and continues to be!
    Thank you again for allowing me to appear before the committee 
today. It has been an honor and a privilege. At this time, I will be 
glad to respond to any questions that you, Madame Chair, or other 
members of the committee may have.

    Chair Snowe. Thank you, John.
    Well, you give us a good idea--not about the head. That is 
an interesting point, in terms of administrative costs. That is 
something we certainly should look at.
    I appreciate your views and the startling numbers regarding 
Maine. That is something we have known, how difficult the 
economic environment is, but compounded with all the other 
challenges as well. So I thank you.
    Mr. Tuvin.

        STATEMENT OF EDWARD ``EDDIE'' TUVIN, FIRST VICE 
  PRESIDENT OF COMMUNITY SOUTH BANK ON BEHALF OF THE NATIONAL 
                   ASSOCIATION OF GOVERNMENT 
                       GUARANTEED LENDERS

    Mr. Tuvin. Thank you, Madame Chairwoman.
    I am Eddie Tuvin, First Vice President with Community South 
SBA lending. We are an active SBA lender with lending 
operations all along the Eastern seaboard and a member of the 
National Association of Government Guaranteed Lenders, a trade 
association for lenders and other participants who make about 
80 percent of the Small Business Administration Section 7(a) 
loans.
    Commonly called the SBA's flagship program, the 7(a) 
program has proven to be an excellent public-private sector 
partnership, in my opinion probably the best in the world. Over 
the last decade, the SBA has approved roughly 500,000 loans for 
approximately $100 billion. We thank the Committee for the 
opportunity to provide NAGGL's written testimony on the SBA 
fiscal year 2006 budget request and other current issues facing 
the SBA 7(a) program.
    And Madame Chair, I would like to submit my testimony for 
the record.
    Chair Snowe. Without objection, so ordered. And we will do 
that for all the other panelists, as well.
    Mr. Tuvin. Madame Chair, we concur with your thinking and 
your perception and views of how the SBA 7(a) actually operates 
and what the fiscal year 2006 budget might do and recognize 
this in connection with Ranking Member Kerry's comments 
earlier.
    With that, I would like to present five points that we are 
focusing on and then I will move into the comments that we 
would like to make relative to these five points.
    First of all, we support at least a $17 billion program for 
fiscal year 2006.
    Second, we feel that a thorough review of the 7(a) credit 
subsidy model and the changes in fiscal year 2006 program 
estimates should be made.
    Third, we support the reinstatement of piggyback or 
combination loans through legislation, if necessary.
    Fourth, we support the establishment of what is known as a 
National PLP Lender Approval to eliminate these lenders going 
back and forth from State to State trying to get PLP, which we 
thought was a great program at the SBA when they delegated more 
authority outside of their offices and became more efficient. 
We think there is another level for that.
    And finally, fifth, we oppose granting SBA the authority to 
levy an unneeded secondary market fee.
    Last year at this time representatives testified about the 
many challenges facing the 7(a) program and many of us here 
today met with staff to work through the issues. Thanks to the 
efforts of the Small Business Committees and the SBA officials, 
the problem was resolved and fiscal year 2004 lending set 
records for both numbers of loans originated and dollars 
loaned.
    Fiscal year 2005 is also off to a record start, with almost 
$3.6 billion lent in the first fiscal quarter alone. As part of 
the compromise worked out at the end of the 108th Congress, the 
7(a) program received $16 billion in lending authority for 
fiscal year 2005, which should be sufficient to meet the 
lending needs.
    The Administration has requested a $16.5 billion program 
level in fiscal year 2006. Fiscal year 2004 usage was about 
$13.5 billion and some forecast that all $16 billion of 
available lending authority will be used this fiscal year. 
Given the growth rate in the program, we would request that the 
Committee support at least a $17 billion program. This would 
match the authorization level passed in the Omnibus 
Appropriations Bill that was in December 2004 and will probably 
lessen the risk of future program caps or restrictions.
    About the fees. From the start of fiscal year 2004 to 
fiscal year 2006 we heard testimony earlier that the increases 
were 118 percent, if the increase proposed is put into effect. 
The latest increase would be within the compromise worked out 
in the 108th Congress. The trend of higher and higher feeds 
needs really to be reversed. It is disturbing that months after 
a compromise deal was established that we are back talking 
about the issue again.
    In addition, the Administration reports in table 8 of the 
Federal Credit Supplement to the fiscal year 2006 budget, page 
54, that the subsidy rate established for fiscal year 2004 was 
excessive. The original rate for fiscal year 2004 was 0.78. It 
has now been reestimated and reduced, as we discussed, to 0.24.
    Now the Administration is recognizing the fee increases, 
which they demanded in the start of fiscal year 2005 be imposed 
upon the lenders and borrowers to lower the subsidy rate to 
zero, should actually lower the rate to a substantially 
negative number. We believe that given the downward subsidy 
reestimate for fiscal year 2004, the subsidy rate should have 
actually declined in fiscal year 2006, resulting in a lower 
lender fee.
    We encourage the Committee to ask the Administration, as we 
heard the the Committee request earlier, for a thorough 
explanation of the changes made in the subsidy and reestimate 
models.
    The Administration also is requesting authority to charge 
lenders a fee for loans sold in the secondary market. The 
fiscal year 2006 budget, in table 6, does not provide any 
income from a proposed fee. So thus, the proposed fee must be 
zero and is unnecessary.
    With that, I rest my comments, I thank you, and would be 
willing to answer any questions that you have.
    [The prepared statement of Mr. Tuvin follows:]

          Statement of the National Association of Government 
                        Guaranteed Lenders, Inc.

    The National Association of Government Guaranteed Lenders, Inc. 
(NAGGL) is a trade association for lenders and other participants who 
make approximately 80 percent of the Small Business Administration 
(SBA) section 7(a) loans. Commonly called SBA's ``flagship'' program, 
the 7(a) program has proven to be an excellent public/private sector 
partnership. Over the last decade, the SBA has approved roughly 500,000 
loans for approximately $100 billion. We thank the Committee for the 
opportunity to provide written testimony on the SBA fiscal year 2006 
budget request and other current issues facing the SBA 7(a) program 
community.

                             ONE YEAR LATER

    Last year at this time, the 7(a) lending program was in the middle 
of a crisis. Lack of adequate funding at the start of fiscal year 2004 
led to a variety of problems, including an unprecedented ``lending 
holiday'' and subsequent program caps and limitations. Thanks to the 
efforts of the Small Business Committees and SBA Officials, that 
problem was resolved and fiscal year 2004 lending set records for both 
numbers and dollars loaned. Fiscal year 2005 is also off to a record 
pace, with almost $3.6 billion lent in the first fiscal quarter. As 
part of the compromise worked out at the end of the 108th Congress, the 
7(a) program received $16 billion in lending authority for fiscal year 
2005, which should be sufficient to meet the net lending demands of 
small businesses.

                               STATISTICS

    The SBA loan programs are the largest source of long-term capital 
for small business in this country. Based upon bank ``call'' reports, 
the SBA Office of Advocacy reports there are $485 billion in 
outstanding small business loans. From FDIC data, only about 20 percent 
of those loans (approximately $95 billion) have an original maturity 
over 3 years. The average original maturity of an SBA 7(a) loan is 
about 14 years, and the SBA 504 average is even longer. The balance of 
the outstanding 7(a) portfolio is approximately $40 billion or a 
significant percentage of all outstanding long-term small business 
loans. Small businesses rely upon the SBA 7(a) program to be a major 
source of long-term debt capital.

                             FY 2006 Budget

                          FY 2006 LOAN DEMAND

    The Administration has requested a $16.5 billion program level in 
fiscal year 2006. Fiscal year 2004 usage was approximately $13.5 
billion, and some forecast that all $16 billion of available lending 
authority will be used this fiscal year. Given the growth rate in the 
program, NAGGL requests that this Committee support at least a $17 
billion program for fiscal year 2006. A $17 billion program would match 
the authorization level passed in the Omnibus Appropriation bill in 
December 2004, and would lessen the risk of future program caps or 
restrictions.

                               MORE FEES

    From the start of fiscal year 2004 to the start of fiscal year 
2006, lender fees will have increased 116 percent if the increase 
proposed in the fiscal year 2006 budget is put into effect. Although 
the latest increase would be within the compromise worked out in the 
108th Congress, the trend of higher and higher fees must be reversed.
    It is disturbing that the 7(a) program faces further fee increases 
considering that the compromise deal establishing fee levels was signed 
into law just 2 short months ago. In addition, the Administration 
reports, in table 8 of the Federal Credit Supplement to the fiscal year 
2006 Budget (on page 54), that the subsidy rate established for fiscal 
year 2004 was excessive. The original subsidy rate for fiscal year 2004 
was 0.78 percent, but this has now been reestimated and reduced to 0.24 
percent. Thus the Administration is now recognizing that the fee 
increases which they demanded be imposed upon lenders and borrowers to 
lower the subsidy rate to zero should have actually lowered the rate to 
a substantially negative number. We believe that given the downward 
subsidy re-estimate for fiscal year 2004, the subsidy rate should have 
actually declined in fiscal year 2006, resulting in a lowering of the 
lender fee.
    NAGGL encourages this Committee to ask the Administration for a 
thorough explanation of the changes made in the subsidy and re-estimate 
models.

                          SECONDARY MARKET FEE

    The Administration also is requesting authority to charge lenders a 
fee for loans sold in the secondary market. In the fiscal year 2006 
budget, in Table 6 on page 23, the Administration does not provide any 
income from a proposed fee. Thus the proposed fee must be zero and is 
unnecessary.
    NAGGL is opposed to granting the authority to impose secondary 
market fee for several reasons. First, the SBA has not documented a 
need for such a fee. The secondary market and the master reserve fund 
have operated smoothly and efficiently for some 20 years. What 
variables has the Administration used to calculate a subsidy rate for 
this program? The Administration took some administrative actions last 
year. What impact did those changes have on the subsidy rate? What 
other administrative changes could be made so that charging an 
additional fee could be avoided? Until these and other questions have 
been answered and there has been a full disclosure of the subsidy rate 
calculation, NAGGL opposes granting SBA the authority to charge this 
additional fee.

                         NATIONAL PLP AUTHORITY

    As part of the compromise reached in December, a national Preferred 
Lenders Program or PLP should have been included in the legislation. 
Today, lenders who lend in multiple districts spend an inordinate 
amount of resources dealing with the multitude of district offices in 
establishing or renewing their PLP status. The new program would have 
established guidelines for the SBA to grant national PLP status to 
those lenders meeting the benchmarks. Unfortunately, due to a clerical 
error, the provisions were not included in the final legislative 
package, which was enacted as Division K of the Omnibus Appropriations 
Act (P.L. 108-447). NAGGL requests that this provision be included in 
the near future in any appropriate legislative package, particularly in 
any technical corrections bill, which SBA has said it will submit.

                  PIGGYBACK RESTRICTION STILL IN PLACE

    A lender generally utilizes the 7(a) program because an applicant 
has a credit deficiency or needs a longer term loan than could be 
provided without the 7(a) program. In other instances an applicant has 
a need that is larger than the maximum loan size allowed under the 7(a) 
program. To accommodate this higher financing need, a lender 
historically has utilized a piggyback structure or a combination loan 
to meet the borrowers' financing needs.
    For example, assume an applicant needs to borrow $2.5 million, or 
$500,000 more than the 7(a) limit. A lender could have provided a 
$500,000 conventional loan in a first lien position, and a $2,000,000 
SBA 7(a) loan in second lien position. Unfortunately, however, SBA 
administratively prohibits the use of piggyback financing and the 
statutory provisions permitting combination loans expired at the end of 
fiscal year 2004. Thus the financing needs in excess of the 7(a) 
program limit cannot be met.
    Ironically, this piggyback or combination loan structure is similar 
to the loan structure provided in the SBA 504 program, with two key 
differences. With a 504 loan the SBA has 100 percent of the credit risk 
on the second mortgage loan. With a 7(a) loan, under the piggyback 
structure, the originating private sector 7(a) lender has at least a 25 
percent pro-rata share of the second lien loan, and thus the lender is 
sharing in the credit risk. The second difference is that the 
government collects substantially more fees on a 7(a) loan than it does 
a 504 loan.
    NAGGL has met with Administration officials, and subsequently 
submitted a proposal to them to reinstate piggyback lending. We are 
awaiting a response.
    With the piggyback prohibition, many applicants have no solution to 
their need to find larger loan packages. We request that this Committee 
work with the Administration to reinstate the use of piggyback loans so 
that lenders again would have a vehicle to serve those small businesses 
that need larger loan packages.

                               CONCLUSION

    In conclusion, NAGGL requests that this Committee:
    1. Support at least a $17 billion program for fiscal year 2006;
    2. Conduct a thorough review of the 7(a) credit subsidy model 
changes in the fiscal year 2006 program estimate;
    3. Support the reinstatement of piggyback or combination loans, 
through legislation if necessary;
    4. Support the establishment of a National PLP Lender approval and 
renewal process through legislation; and
    5. Oppose granting SBA the authority to levy an unneeded secondary 
market fee.
    Thank you for the opportunity to submit our written testimony.

    [GRAPHIC] [TIFF OMITTED] T1350.014
    
    [GRAPHIC] [TIFF OMITTED] T1350.015
    
    [GRAPHIC] [TIFF OMITTED] T1350.016
    
    [GRAPHIC] [TIFF OMITTED] T1350.017
    
    Chair Snowe. Thank you, Mr. Tuvin. Thank you.
    I know, Mr. Betancourt, you have to leave at noon, so I 
will quickly get to you in a couple of questions. You have a 
plane to catch.
    Ms. Sands.

     STATEMENT OF PATRICIA SANDS, OWNER OF SPILL-GUARD AND 
           PARTICIPANT OF THE SBA'S WOMEN'S BUSINESS 
                         CENTER PROGRAM

    Ms. Sands. Good morning, Madame Chairwoman Snowe.
    Chair Snowe. Who by the way is the only small business 
owner here; right? Welcome. Now you can tell us the practical 
applications of all of this.
    Ms. Sands. Thank you for inviting me to speak about my 
business in regard to the Women's Business Center of Northern 
Virginia.
    I am Patricia Sands, the CEO of Spill-Guard. Spill-Guard is 
a one-member, women-owned, home-based LLC that is located in 
Arlington, Virginia. My product is Spill-Guard male urinal and 
my storefront is the Internet. It is the only hands-free male 
urinal on the market that tests 500 percent improved over 
typical products. I am proud to say that Spill-Guard is 
American-made and produced in Leominster, Massachusetts.
    I am sure you are wondering why a person would design a 
urinal and no doubt it was an unusual endeavor for a low-income 
mother of three.
    My product and business idea came from seeing a need in my 
life. In the years past, I cared for severely ill family 
members. As a military war widow, I cared not only for my 
husband, but also for my father that had a 10-year stroke 
recovery. I did not know it at the time, but I was gathering 
great market research in the field of incontinence. I know the 
patient, the problems, the cost and the exhaustion of 
caregivers.
    From this bank of experience as a caregiver and my training 
in design, I put my mind to the task of exploring a more stable 
urinal. With several paper mache prototypes and revisions, the 
design came together quite quickly.
    However, the patent, the engineering, the manufacturing and 
the distribution has taken 5 years to be at the startup. It has 
taken all of my efforts and funds. I believe in it for I know 
it will help others.
    My family knows that this seemingly insignificant product 
has the ability to enhance the health of the patient by 
drastically reducing the incidence of urine spills and bed 
sores. Right now that product choices for severely ill patients 
are limited to typical urinals, adult diapers and internal and 
external catheters. There is no product like mine on the market 
for price and performance.
    Spill-Guard will lower the labor and material costs for 
facilities. And yes, this product will benefit Medicare with 
the baby boomer generation entering their golden years. For 
example, incontinence is the No. 1 reason for admission into a 
nursing home. The fact is, this one simple product can 
positively impact an $11 billion a year industry in the U.S. 
and $175 billion worldwide, according to the S&P.
    But it is not enough to have a good idea. I am a middle-
aged woman with a low-income and an art degree and that is 
strike three in the business world. That is why I am here 
before you today. I took classes with the Women's Business 
Center of Northern Virginia and with sustained advice and 
services, I wrote a business plan and learned the basic skills 
on how to structure the future of my business.
    I have had to readjust my plan almost on a monthly basis. 
What I thought would unfold did not, characteristic of most 
entrepreneurial adventures. With the Women Business Center of 
Northern Virginia, I have had magnificent professionals that 
have helped me make wise choices and new plans.
    For example, last year I had a series of crushing events 
that could have ended my business. The largest event was I was 
not notified of my factory in New Hampshire closing without 
honoring my purchase orders. I lost all of my customers. Yet, 
with encouragement planning, I kept going.
    Right after the move to the new molder, it was apparent 
that my mold needed a modification. This modification was both 
costly in time and money and I was wondering about the 
feasibility of my business and the endless string of delays and 
costs.
    Once again I turned to the Women's Business Center of 
Northern Virginia and discussed options. Within a short time 
period we came up with a workable strategy to recover from this 
upset and unexpected cost. And the Women's Business Center did 
not stop there as a source of report. I received a do not give 
up, you are almost there from the entire staff. As you can 
tell, I value their expertise, but their friendship as well.
    The caliber of their classes and expertise brought 
credibility to my venture. Spill-Guard has won many awards. 
Spill-Guard was awarded the Business Plan of the Year Award, 
the Rising Star Award, and the Most Valuable Player for 
Microenterprise. My business and my association with the 
Women's Business Center has been documented in such 
distinguished publications as the Chronicle of Philanthropy.
    The reason I am here today is because of their continued 
support. They are committed to my success. And when you are 
associated with so many people that want you to succeed, you 
are already a winner.
    Where is my business now? It is shipping. After a year of 
delays and setbacks, my product started shipping in July. I 
have had 100 percent outstanding customer satisfaction. Yet I 
had a problem. I lacked the marketing budget due to the cost of 
modifications and several kids that required food. I knew I 
needed to find another way to get the sales moving.
    To view my competition, I went to MedTrade. MedTrade is a 
National products convention in Orlando. At first I was 
overwhelmed by the size and cash-flow of my competitors. But 
after I caught my breath, I visited each of them and realized I 
had no competition. I clearly had the better product. What I 
needed was to attach an engine to my business and associate 
with a distributor.
    I then approached McKesson Surgical and Medical in 
Richmond, Virginia. Without hesitation, I was offered a 
distribution agreement. The product managers knew instantly the 
benefit of my design. Can you imagine the feeling of taking an 
idea from a paper mache model to the board room of a Fortune 16 
company for health care and they say yes? It is the American 
dream all over again.
    And it does not end there. McKesson has indicated they want 
to deepen our association with the dialog of a private label 
for this and other products that will follow.
    You can be assured I will stay in touch with the Women's 
Business Center of Northern Virginia, as well as my lawyer, for 
each step that is unfolding. I am excited about the future and 
still watching my step. Truly, I am at a critical point and no 
one is more aware of the fact than I am.
    I plan on moving ahead and am expecting this product to 
bring in steady revenue with my association with McKesson. I am 
in their catalog and I am stocking their warehouses at this 
time. But it is a leap of faith.
    For example, in working with a small business, an industry 
giant like McKesson needs to be sensitive and pay on the agreed 
30-day net in order for my company to build. I have no doubt 
that they will honor their word, as I pick my associations 
carefully. But as the owner, I will bare my soul here and tell 
you what I am facing. The shipping alone for this small order 
could be close to $10,000. And there are no deep pockets behind 
me ready to save the day.
    Another concern is keeping my design safe from other 
businesses that would attempt to prey on my small business 
status and infringe on my patent as I gain in the marketplace. 
Again, it is a critical time to manage the risk and plan the 
growth.
    In fact, I am utilizing the Women's Business Center again 
to plan for this growth and have started a dialog for a 
potential second short-term loan. You see, the Women's Business 
Center is not only able to give invaluable information and 
support for startup, but their expertise lends itself to the 
second stage of development and planning.
    As recently as last week I met with an expert there that is 
counseling me through the steps of 8(a) small disadvantaged 
business certification. Is a daunting and detailed task that we 
are breaking into sections. She is troubleshooting my data and 
advising me on how to proceed for I fully understand the 
benefit in leveling the playing field to sell products to the 
Federal Government.
    As you can imagine, as a military widow, my preferred 
customer will be the Veterans Administration. I want Spill-
Guard available and affordable to those who truly needed. I 
would say to any listening, I would be grateful to any 
connections, introductions or suggestions you might have to 
make this happen with haste.
    I am an example of the positive impact of the Women's 
Business Center program. It is imperative that this service, 
support and program be available to others. The American people 
need affordable training to be able to learn new skills. I did 
not have the luxury of time and money to pursue an MBA. But I 
needed the skills to go to the next level and pursue my idea.
    Why is this important? Historically, ideas and innovation 
come from small businesses. The strength and backbone of 
America is with its small business. Jobs are created through 
small business. It is worth investing in.
    Worried about the deficit? No. Worry about the drain of 
untrained and unemployed workforce in the future. The cost in 
so many directions will be high if we do not pull our center 
and get our grass roots economy growing again. Our presence is 
being felt around the world, but will our children have the 
freedom and opportunity to thrive here?
    Think about it. Only in America could a low-income widow 
with three kids have the nerve and the opportunity to find a 
place in the billion-dollar medical field. The decisions you 
make in the Senate and the Government at large impact those 
opportunities.
    True, I am not there yet. I have many turns to make and 
pitfalls to avoid. But I made it to the marketplace. I have no 
doubt that I will move from a low-income status to paying a 
whole lot of taxes because I am wealthy.
    This can happen with other potential businesses as well, if 
we continue to support the Women's Business Center. Over and 
over again we have heard concerns about the economy, concerns 
about our labor force not having skills, concerns about the 
takeover of big business and concerns about jobs leaving our 
country. They are valid concerns. How can we build a solid 
business structure here with our foundation in another country? 
We cannot. It will fall. We have to invest in growing our 
businesses and strength here.
    In conclusion, it is exciting to hear a good story about 
your next-door neighbor trying to forge ahead. It is the 
American dream unfolding again. Right now, I am being watched 
and lifted up as an example to thousands of kids and low-income 
people. They see it can still be done. I hope to be in a 
position to help others in the future and give back what has 
been so generously given to me. It is a ripple effect.
    Funding the Small Business Administration programs like the 
Women's Business Center of Northern Virginia is like planting 
seeds for the future growth of our country. It is a small 
investment in comparison to the whole of our budget that reaps 
great and positive returns. With the funding being cut, I am 
afraid you will hear fewer success stories in the future. Maybe 
it is time for America to revise its business plan. It is not 
too late.
    Thank you for inviting me here. I am honored to be in your 
presence and have the opportunity to express my thoughts. I 
know I speak for all the American people in thank you for your 
fine service and powerful decisions that keep America strong.
    [The prepared statement for Ms. Sands follows:]

 Statement of Patricia Sands, Owner of Spill-Guard, Arlington, Virginia

    Good Morning, Madame Chairwoman Snowe, Ranking Member Kerry, and 
distinguished Members of this Committee. Thank you for inviting me to 
speak about my business in regard to my association with the Women's 
Business Center of Northern Virginia. I am Patricia Sands, the CEO of 
Spill-Guard. Spill-Guard is a one member, woman-owned, home-based LLC 
that is located in Arlington, Virginia. My product is Spill-Guard Male 
Urinal and my storefront is the Internet. It is the only hands-free 
male urinal on the market that tests 500 percent improved over typical 
products. I am proud to say Spill-Guard is American made and produced 
in Leominster, Massachusetts.
    No doubt, it was an unusual endeavor for a low-income mother of 3. 
My product and business idea came about from seeing a need in my life. 
In the years past, I cared for my severely ill family members. As a 
military war widow I cared not only for my husband, but also for my 
Father that had a 10-year recovery from a stroke. I did not know it at 
the time, but in caring for them; I also was gathering great market 
research in the field of incontinence. I know the patient, the 
problems, the cost and the exhaustion of the caregivers.
    From this bank of experience as a caregiver and my training in 
design, I put my mind to the task of exploring how to create a more 
stable male urinal. With several paper mache prototypes and revisions . 
. . the design came together quite quickly. However, the patent, the 
engineering, the manufacturing and the distribution has taken almost 5 
years to be just at the startup phase! It has taken all my efforts and 
funds. I believe in it, I know it will help others. My family knows 
that this seemingly insignificant product has the ability to enhance 
the health of the patient by drastically reducing the incidence of 
urine spills and bedsores. Right now, the product choices for a 
severely ill patient are limited to typical urinals, adult diapers and 
internal and external catheters. There is no product like mine on the 
market for price and performance. Spill-Guard will lower the labor and 
material costs to the facilities. Yes, this product will benefit 
Medicare with the growing baby boomer generation entering their golden 
years. For example, incontinence is the No. 1 reason for admission into 
a nursing home. Spill-Guard can assist in keeping a patient in his own 
home longer by effectively managing his care with dignity. The fact is, 
this one simple product can positively impact an $11 billion a year 
industry in the U.S. . . . $175 billion worldwide according to S & P.
    But it is not enough to have a great idea. I am a middle-aged woman 
with a low income and an art degree . . . that is strike three in the 
business world! I needed a plan and I needed business skills. That is 
why I am here before you today. I took classes with the Women's 
Business Center of Northern Virginia. With the sustained advice and 
services of the Women Business Center of Northern Virginia, I wrote a 
business plan and learned the basic skills on how to structure the 
future of my business. I have had to readjust and change my plan almost 
on a monthly basis. What I thought would unfold . . . did not; 
characteristic of all entrepreneurial ventures. With the Women's 
Business Center of Northern Virginia, I had magnificent professionals 
that helped me make wise choices and new plans.
    For example, last year I had a series of crushing events that could 
have ended my business. The largest event was that I was not notified 
of my factory in New Hampshire closing without honoring my purchase 
orders. I lost all my customers at that time. Yet, with encouragement 
and planning I kept going. Right after the move to the new molder, it 
was apparent that my mold needed a modification. This modification was 
both costly both in time and money.
    Truly, I was wondering about the feasibility of my business and 
whether the seemingly endless string of delays and costs would ever 
end. Once again I turned to the Women's Business Center of Northern 
Virginia and we discussed options. Within a short period of time, we 
came up with a workable strategy to recover from this upset and address 
any unexpected costs. And, the WBC didn't stop there, as another source 
of support, I received a ``Don't give up . . . you are almost there,'' 
from the entire staff of the Women's Business Center. As you can tell, 
I value not only their expertise, but their friendship as well.
    The caliber of their classes and expertise bring credibility to the 
venture. Spill-Guard has won many awards. Spill-Guard was awarded the 
Business Plan of the Year Award, the Rising Star Award and the Most 
Valuable Player for Micro Enterprise Award. My business and association 
with the Women's Business Center has been documented in such 
distinguished publications such as the Chronicle of Philanthropy. The 
reason I am here today is because of the continued support of the 
Women's Business Center. They are committed to my success. When you are 
associated with so many people that want you to succeed . . . you are 
already a winner.
    Where is my business now? Shipping! After a year of delays and 
setbacks, my product started shipping last July. I have had 100 percent 
outstanding customer satisfaction. Yet, I had a problem. I lacked the 
marketing budget due to the cost of the modifications and several kids 
that required shoes and food etc. I knew I needed to find another way 
to get the sales moving. To view my competition, I went to MedTrade. It 
is the national medical products convention in Orlando. At first I was 
overwhelmed by the size and cash-flow of my competitors. After I caught 
my breath . . . I visited each of my competitors and realized I have NO 
competition. I clearly had the better product. What I needed was to 
attach an engine to my business and associate with a distributor. I 
then approached McKesson Medical Surgical in Richmond, Virginia. 
Without hesitation, I was offered a distribution agreement. The product 
managers knew instantly the benefit of my design. Can you imagine the 
feeling of taking an idea from a paper mache model to the boardroom of 
a Fortune 500 Company and they say . . . YES! It is the American dream 
all over again. It doesn't end there. McKesson has indicated they want 
to deepen our association and begin a dialog about the creation of a 
private label for this and my other products that will follow. You can 
be assured that I stay in touch with The Women's Business Center of 
Northern Virginia as well as my lawyer for each step that is unfolding. 
I am excited about the future and am still closely watching my step . . 
. so l don't fall. I have come too far. Truly, I am at a critical point 
and no one is more aware of that fact than I am.
    I plan on moving ahead and expecting this product to bring steady 
revenue with my association with McKesson. I am in their catalog and 
will be stocking their warehouses at this time. It is a leap of faith 
of sorts. For example, in working with a small business, an industry 
giant like McKesson needs to be sensitive and pay on the agreed 30-day 
net in order for my company to build. I have no doubt that they will 
honor their word. But as the owner, I will bare my soul here as an 
example of what I am facing in the near future . . . the shipping ALONE 
for this order could be close to 10K. There are no deep pockets behind 
me ready to save the day. Again, this is a critical time to manage the 
risk and plan the growth for my business.
    In fact, I am utilizing the Women's Business Center again to plan 
for this growth and start a dialog for a potential second short-term 
loan. You see the Women Business Center is not only able to give 
invaluable information and support to a startup business, but their 
expertise lends itself to the second stage of development and planning. 
As recently as last week, I met with an expert there that is counseling 
me thorough the steps of applying for 8a and Small Disadvantaged 
Business certification. It is a daunting detailed task that we are 
breaking into sections. She is troubleshooting my data and advising me 
on how to proceed. I fully understand the benefit in leveling the 
playing field to sell products to the Federal Government. As you can 
imagine, as a military widow, my preferred customer will be the 
Veterans Administration. I want Spill-Guard available and affordable to 
those that truly need it. I would say to those listening, that I would 
be grateful to any connections, introductions or suggestions you might 
have to make this process happen with haste. I am very grateful that so 
much of our government works to serve the public good.
    I am an example of the positive impact of the funding of the 
Women's Business Center program. It is imperative that this service, 
support and program be available to others. The American people need 
affordable training to be able to learn new skills. I did not have the 
luxury of time and money to pursue an MBA. But I needed the skills to 
go to the next level and pursue my idea. Ideas and innovation comes 
from small business. The strength and backbone of America is with its 
small businesses. Jobs are created through small business. It is worth 
investing in. Worried about the deficit? No--worry about the drain of 
an untrained and unemployed work force in the future. The cost in so 
many directions will be high if we don't pull center and get our grass 
roots economy growing strong again. Our presence is being felt around 
the world, but will our children have freedom and opportunity to thrive 
HERE?
    Think about it . . . only in American could a low-income widow with 
3 kids have the nerve and the opportunity to find a place in the 
billion-dollar medical products field. The decisions you make in the 
Senate and government at large impact the opportunities given to its 
tax paying citizens. True, I am not there yet--I have many turns to 
make and pitfalls to avoid . . . but I made it to the marketplace and I 
am being taken darn seriously. I have no doubt that I will move from 
low-income status to paying a whole lot of taxes because I am wealthy! 
This can happen with other potential businesses as well if we continue 
to support the Women Business Center program. Over and over again we 
have heard concerns voiced over the economy, concerns about our labor 
force not having skills, concerns about the takeover of big businesses 
and concerns about jobs leaving our country. These are valid concerns. 
How can we build a solid business structure here with our foundation in 
another country? We can't. It will fall. We have to invest in growing 
our own businesses and strengths here.
    In conclusion, it is exciting to hear a good story about your next-
door neighbor trying to forge ahead . . . isn't it? It is the American 
dream unfolding again. Right now, I am being watched and lifted up as 
an example to thousands of kids and low-income people. They see it can 
STILL be done. I hope to be in a position to help others in the future 
myself and give back what has been so generously given to me. It is a 
ripple effect. Funding the Small Business Administration programs like 
the Women's Business Center of Northern Virginia is like planting seeds 
for future growth of our country. It is a small investment in 
comparison to the whole of our budget that will reap great and positive 
returns. With the funding being cut I am afraid you will hear fewer 
success stories in the future. Maybe it is time for America to revise 
ITS business plan? It is not too late.
    Thank you for inviting me here today. I am honored to be in your 
presence and to have the opportunity to express my thoughts. I know I 
speak for all the American people in thanking you for your fine service 
and your powerful decisions that will keep America strong.
    I am happy to answer any questions you may have.

    Chair Snowe. Thank you, Ms. Sands. That is certainly a 
powerful statement and a powerful example.
    [Applause.]
    Chair Snowe. American ingenuity and courage, as well.
    Ms. Sands. Thank you.
    Chair Snowe. No, thank you for a fine example. I wish the 
Administrator had the opportunity to hear your testimony. We 
will send it over to him and we will make connections for you. 
It is the least we can do.
    Mr. Betancourt, I know you have to leave.
    Mr. Betancourt. I would be happy to stay until 1:00, just 
so you know. There is no rush.
    Chair Snowe. I will start with you, in case you have to 
leave.
    On the Microloan program, I think it is important to 
clarify some of the issues that were raised here. We know the 
7(a) Community Express program will not serve to fill that 
vacuum without the Microloan program. Do we agree on that? 
Based on the statistics that you have given, what did you say, 
how many States does it operate in? There are very few lenders. 
There are zero in Maine, for example, a small business State.
    Mr. Betancourt. Rural is one big issue. It is obvious it is 
not achieving its objective in the rural areas. Less than 6 
percent are reaching rural areas.
    Chair Snowe. There is less than 6 percent rural areas at a 
time when rural areas desperately need support.
    Mr. Massaua. Senator, if I may, he is looking for the 
number, one of the problems with Community Express as it is 
supposed to provide some technical assistance. However, most of 
the banks want the technical assistance providers, like the 
SBDC or the Women's Business Center, to indemnify them of 
anything. That is an impossibility.
    Mr. Betancourt. It is 5.7 percent in rural areas for 
Community Express.
    Chair Snowe. It is clear that the 2,400-plus participants 
in the Microloan program are not going to be able to be served, 
for example, by the 7(a) Community Express program. Obviously, 
I gather there are different criteria too, as well. These are 
people who are probably not going to be able to be eligible 
with conventional lenders are they? It is more difficult to 
qualify for borrowing.
    Mr. Betancourt. It is more difficult to qualify for 7(a). 
The credit is an issue. If you look at the application process, 
there is no technical assistance other than helping you with 
the application. If you are a business owner, like she 
mentioned over here, if you need help with a business plan, 
that is not going to happen. You just will not get the 
application. We are talking about two different borrowers.
    Chair Snowe. I gather that. If you are saying only 5.7 
percent serves rural areas and 40 percent of Microloans go to 
rural areas, then obviously it is a totally different goal.
    Mr. Betancourt. I think where the statistics do not show it 
for Community Express is that they will tell you that they do X 
amount of loans under $35,000 in the thousands. And it is true. 
But they are still not reaching Microloan borrowers. You can do 
loans under $35,000, but these are not startups. These are not 
rural areas. These are not folks with credit. These are not 
people of color. It is a totally different borrower. It is 
pretty clear.
    Chair Snowe. I know he mentioned that it is duplicative 
with the Microloan program, but they are both going to be 
eliminated in that budget.
    [Laughter.]
    Chair Snowe. There will not be any duplication there.
    Mr. Betancourt. Let us talk about PRIME for the moment. One 
of the issues that we are talking about in Microloan is access 
to capital. PRIME is providing access to training. Especially, 
very low-income borrowers.
    It is great to have--in-lending, because we are a 
microlender, but there are a lot of folks that may not need 
lending, because lending is not the end goal necessary; the end 
goal is helping them have a stronger business through technical 
assistance. And that is what PRIME does. The fact that they 
restricted it last year just to 16 States, and our 
organization, AEO, opposed. They crippled that program and now 
they want to eliminate it.
    Chair Snowe. Mr. Coit, tell me about the SBIC. You 
mentioned the Participating Securities and it is obvious from 
the budget recommending--as you said in your testimony, closing 
the negotiations on this issue, at least that has been the 
proposal--not to move forward because they have not provided 
any leverage within the budget for Participating Securities.
    What would be the impact of all of that for small 
businesses? Where will the disparity and the equity gap that 
you referred to occur, do you think? Would it be more 
pronounced in rural America or anywhere as a result of not 
having access to this venture capital?
    Mr. Coit. Yes. The simple answer is probably rural America, 
the smaller size investments, the gap between angel investors, 
and the rest of the institutional venture capital industry. 
There really is a gap in there in terms of the size of 
investments. And by industry. There are just some industries 
that the venture capital industry does not finance. I think the 
statistics are particularly strong for manufacturing and 
consumer and retailing. So those gaps would exist.
    Chair Snowe. You were mentioning in your testimony that you 
thought, at least estimated, that it would require about $80 
million on the part of SBA between 2006 and 2010?
    Mr. Coit. No.
    Chair Snowe. For leverage? For leverage in the 
Participating Securities? You did not give an estimate?
    Mr. Coit. Oh, for the existing licensees, yes.
    Chair Snowe. For the existing licensees.
    Mr. Coit. That is a separate problem that the existing 
licensees who really built their business plans around having 
access to leverage, that has not been authorized either. So 
that is a problem for existing licensees.
    Chair Snowe. I understand, there are two issues there.
    Mr. Coit. Just to get back to your earlier question, we are 
concerned to have a more specific answer for your question 
about this equity gap. And we have hired the Tuck Center for 
Private Equity and Entrepreneurship and they are working, 
actually in part with SBA, to try to come up with some more 
statistical data that actually defines the gap. As part of my 
written testimony I submitted a letter from NVCA--this is the 
National Venture Capital Association--making a very strong case 
for the SBIC program. This is a letter to the President of the 
United States saying that this gap exists.
    So there is no argument from the rest of the industry about 
the gap. There is the need for some specificity and we are 
going to try to be more specific and more quantitative in our 
analysis and hope to have that report to you by March.
    Chair Snowe. That would be great. We will be looking 
forward to it. I think it is important to illustrate. I think 
so often talking in numbers, there is no question that many of 
these programs have worked well, as the Administrator has 
indicated. But we are sort of moving in the wrong direction in 
terms of the trend.
    But more than that is that we have not looked at how many 
more can be served. We are looking at how many we are serving, 
but what is the need, especially in rural America. And I get 
back to that.
    I know I represent a rural State, but so much of America is 
rural. And even, as you mentioned, the urban areas. We need to 
do something more than just sort of have a benign approach to 
this. So many rural economies, so many economies, are suffering 
in America. We are going to have to serve as a catalyst.
    So it seems to me that we ought to be infusing those 
programs that work well. It does not make sense to me. These 
numbers sound large. They are great. They are wonderful. I 
would like to be able to compare it to what would be the 
capacity to do more and want we could do more to serve a lot 
more of America than we are doing now because we are moving in 
a contrary direction.
    It is counterintuitive in my view. If it is working well, 
why are we cutting it? Especially with the need. There is a 
great need in America. Everybody loves those macroeconomic 
numbers, but my eyes glaze over because it does not tell the 
story for all of the individual areas of America. That is true 
overall, but there is so many parts of America, and I know that 
is true in Maine, as John was just describing, is the fact that 
many areas are suffering and they need help.
    These are the programs that help. Look at the HUBZone. They 
want to fold that into something else. And that helps an 
economically distressed area in my State in Northern Maine that 
did suffer from base closings. This is not the time to be 
pulling the rug out from underneath them.
    So in any event, that is what this is all about. I do not 
know why we are putting the reins on a program rather than not 
allowing it to foster more growth. That is the issue here.
    So that would be very useful if we could show regionally 
how many areas are being underserved.
    I think to see it on a map, to see what areas are not being 
served that otherwise would be served, the SBIC, for example, 
how it is has been able to help those areas that otherwise 
would be overlooked and there is nothing available for them.
    I think is crucial to this debate, it is central, because 
it is so easy to get into all these big numbers and 
percentages. It gets lost about, well, who is not being served? 
I think we will see the enormity of the problem. Especially in 
so many parts of the country that are not participating in this 
economic growth.
    Mr. Coit. We will certainly make sure that the Tuck study 
addresses that issue.
    Chair Snowe. I think it would be very important. If there 
is any way of doing it and calculating it, it would be very 
helpful.
    Ms. Sands, you certainly are an eloquent example of the 
value of the Women's Business Center. You are referring to the 
Northern Virginia Women's Business Center which is in the 
sustainability mode, which is to say that, according to the 
budget that we just were presented from the Administration, 
that that would essentially be zeroed out. They would have to 
find alternative funding.
    That is one of the issues because as you heard the 
Administrator, he wanted to talk about creating new centers. 
And I think that that is important, to create new centers 
across America.
    By the same token, for the last 9 years we have made 
enormous investments in these 49 centers that we would like to 
continue and ensure they can.
    Obviously, just listening to your story, you depended on 
that center at various points during your trial and error 
process of being a women business owner. So they could have 
been there 1 year, but gone another time, and you might not 
have had the opportunity to have the benefit of their help and 
support at a key moment in time.
    Ms. Sands. That is correct. That is correct.
    I understand he was saying the model was 5 years, but I 
think that needs to be revised because the program is working 
and there are people like me that are depending on centers just 
like that. And to eliminate it and create it in another area 
would take so much effort that it would just completely leave a 
huge community of business owners in Northern Virginia without 
services and programs.
    I agree new centers need to open, but I definitely would 
keep the existing ones where they are.
    Chair Snowe. What was your time period from the time you 
started until now? How long have you been a business owner? You 
started Spill-Guard, for example.
    Ms. Sands. I started the provisional patent in 2000. I 
incorporated in 2003, LLC. So it is been a 5-year almost 
process, four-and-a-half year process. And it has been a long 
one.
    The Women's Business Center made me look credible to large 
companies. I was not just a widow with three kids. I definitely 
had a good firm plan and it was just enough to get me in the 
door.
    Chair Snowe. It is amazing with what you had to deal with 
personally, and also having your children, to muster the 
wherewithal to also start your own business. That is a lot of 
perseverance.
    I congratulate you. Just the enormity of your personal 
challenges, your family challenges, the loss of your husband. 
That is remarkable. I certainly applaud you. I am very 
impressed by your story. Thank you for your contribution here 
today. We want to help you and we will continue to do that and 
have you work with my staff.
    Ms. Sands. Wonderful. Thank you. I appreciate it.
    Chair Snowe. Mr. Tuvin, in the 7(a) program, you heard the 
Administrator this morning. I think one of the surprises 
recently was about the fact they recalculated the subsidy rate 
for the fee that now we find is just a third of what it was 
originally. You are absolutely right, now we are calculating a 
higher fee for the future, based on the miscalculation?
    Mr. Tuvin. We are waiting for SBA to provide for us sort of 
a cross-walk that they promised us, just to tell us what it is 
all about, so that we can compare what 2005 is going to look in 
comparison to 2006 and why they seem to feel this is necessary.
    Chair Snowe. You saw the chart that I had up there on the 
118 percent over the last 3 years. It seems to me that is the 
trend they are embracing, more fees, zero subsidy rates. I 
think it really does point to the fact that it is going to 
create the haves and have-nots in the business community, in 
the small business community because there are a lot of 
businesses that may not be able to do it or be eligible because 
of paying for these high rates and the lenders and so on.
    It could have, I think, a counter-impact. That seems to be 
the trend among all of these programs as we have seen with the 
zero subsidy rate and the higher fees. Obviously it is a 
greater dependency.
    Mr. Tuvin. I concur, that there does not seem to be common 
sense associated with the decision process of how they are 
thinking and the direction that they are moving with the 
program. It is a unique program. It is not filled by other 
private lending needs in the marketplace. And the demand is 
obvious. Just basic economics tells us that there is a supply 
and demand. There is a huge demand for it and it is way more 
than what we are providing in the first place.
    Chair Snowe. They underestimated the demand last year, 
which I and others told them as well, that they were 
underestimating the demand of the 7(a). And they did, by 33 
percent, last year.
    Mr. Tuvin. I was here. I heard you try to give them more 
money. They did not want it.
    Chair Snowe. They did not want it. That is right. They did 
not want it. I asked them that question, very directly, that 
they were just underestimating the demand. And they did not. We 
went through all of those travails, regrettably, and the small 
business community and the lenders really felt the brunt of 
that.
    So, with all the suspensions and everything for the whole 
appropriations process, it was just really regrettable because 
it clearly could have been avoided. So I think that now we have 
to be concerned about the accuracy of these fees and how they 
are calculated and what they are calculating for the future.
    Mr. Tuvin. Please. We are looking forward to seeing what 
they have to say and hoping that we can regain the trust of the 
marketplace and some of the credibility that was lost from the 
whipsaw motions of the programs opening and closing and 
changing and so on. That would really help us in the 
marketplace.
    Chair Snowe. That is a good point, too, in terms of 
confidence and credibility in the community. That is a very 
good point.
    Mr. Tuvin. I would be good and interested in this report, 
not only from a geographic context of where these loans are 
benefiting or where there are gaps, but also by industry as 
well. Because, as you know, the programs that are provided 
through the SBA do not only provide reasonable access to 
capital on reasonable terms, but in fact, long-term capital 
that would not otherwise be available. And to the extent that a 
person starting a business does not see conventional debt 
offerings, which--you know, conventional lenders and banks take 
money in on short-term deposits so they tend to loan out on 
short-term loans and bullets and these sorts of structures, 
which we consider to be ineligible and unreasonable under SBA 
provisions. So that what we are really concerned about is where 
the gaps are filled. And there are a lot of places where the 
SBA loan programs fill gaps. These people come to me. They have 
been turned down before. I am the one in the field. They did 
not come to me because they had five other options. They came 
down because they have been all over the country, in some 
cases, looking for loans they could not get elsewhere.
    Chair Snowe. Good point. That is exactly right and that is 
the purpose. That is a very good point. That is exactly right. 
Otherwise, you were mentioning about China--that is the other 
thing. We are in a competitive world, I guess John was 
mentioning that, when you are talking about these research 
programs, the technology research programs that we have, the 
STTR and the innovation research in the competitive world that 
we live in, we have to be trying to nurture that base, as well.
    You are right, it fills a need that otherwise would not be 
filled. That is the interest of Government. that is why we have 
the Small Business Administration. It fills that need a way 
that cannot be done solely in the private sector. So you have 
this public-private partnership to make it work.
    It is undeniable. The need is there and the demand. The 
question is to what extent we can get them to fulfill that 
because I think it would help the entire Nation's economy. It 
would, no doubt, especially manufacturing jobs.
    I mentioned Maine. We have lost 18,000 jobs almost in the 
last 4 years. It is been devastating. China is a giant in the 
marketplace and it has dwarfed a lot of our manufacturing 
industries, as we know with the trade deficit. So it clearly is 
ever more important. It does not take a lot to make these 
programs work, and work well.
    Mr. Tuvin. It is a lot of common sense.
    Chair Snowe. That is the problem, too much common sense on 
Capitol Hill. It does not compute.
    John, just some final questions. You made very good points 
and it is really critical for the SBDC program where you are 
saying level funding of $88 million simply is not going to work 
because inflation has eroded your ability to do the work.
    Mr. Massaua. It will not work. We have been able to 
maintain our clients increasingly. I suspect when we do our 
research this year, we are probably not going to see the 
corresponding economic development because the push on SBA is 
to get people in, get people in, see more numbers. Where our 
push is to get economic impact, create jobs, get capital 
formation.
    With a decline in hours across the country, which is the 
beginning of the trend which will continue to happen if we 
cannot get enough dollars. Centers are closing, and we are 
going to see an adverse effect very readily in the economic 
numbers.
    Chair Snowe. You were saying that generally you would serve 
clients 7 to 15 hours?
    Mr. Massaua. For the clients that we typically see economic 
success with, it takes 7 to 15 hours of intensive counseling 
with them.
    Chair Snowe. What is that reduced to now, or at least what 
do you anticipate?
    Mr. Massaua. What it would be reduced to, if we are trying 
to keep the same client numbers in, we are down below 5 hours 
on average, 3 hours. That is not enough time. In many cases, it 
is just an hour. ``Here it is, thank you very much.'' We just 
cannot do that.
    And where we are working with technology companies, where 
there is patent and intellectual property, it typically takes 
30 to 50 hours of intensive counseling.
    We just need to be able to reach a common sense of 
funding--if you will--which is why we are only asking to put us 
back where we were in 1998.
    Chair Snowe. To have that purchasing power, as I understand 
it, in 1998 you essentially need grants of $603,000?
    Mr. Massaua. We would need $603,000 to have 1998 purchasing 
power.
    Chair Snowe. So $109 million is what you are calculating 
now?
    Mr. Massaua. It is what we need for the SBDC program 
Nationwide to get the big flat States to the $600,000, which is 
1998. Otherwise, we will have to cut the program.
    Chair Snowe. So that is going to reduce the number of 
hours, reduce the number of people you are going to serve and 
counsel, which is important to the success?
    Mr. Massaua. It is extremely important in Maine because 
where do you cut? The size of the State is huge.
    Chair Snowe. I know. Exactly. It gets back to this whole 
dichotomy in America or in any event, and all the stories that 
have been written about rural America in general and the 
outlying or urban areas. What the case is, there is a huge 
need. What better way to serve it?
    Also, in helping even with the income gap in America. That 
is the other part of it is helping people to have better paying 
jobs or income. Many people are self-employed. They have gone 
that route when they have lost their jobs with companies, which 
many people have had to do in Maine. We know that. People take 
their own--as you have, Ms. Sands--take your destiny in your 
own hands and said I have an idea and I am going to go with it. 
So it is important to all of us to make sure that can happen.
    Does anybody else have anything to say? I have heard your 
comments and I think they are well taken. We will continue this 
discussion, obviously.
    I truly appreciate all of your input and insights. I thank 
you for your time in traveling here today. I truly appreciate 
it. I thank you all for joining us.
    The Committee is going to continue to work with SBA with 
all of you who represent the small business community to make 
sure that we rightfully apply the appropriate amount of money 
to these programs that have served our Nation's small 
businesses so well.
    I thank you for all the great work that you do. It is 
extraordinary.
    The record for this hearing will remain open for an 
additional 2 weeks, until noon on March 3. In addition, any 
written questions for Administrator Barreto must be submitted 
to the Committee by noon on February 24 and we will forward 
them to Mr. Barreto for written responses.
    Again, thank you all for joining us here this morning.
    This hearing is adjourned.
    [Whereupon, at 12:35 p.m., the hearing was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1350.018
    
    [GRAPHIC] [TIFF OMITTED] T1350.019
    
    [GRAPHIC] [TIFF OMITTED] T1350.020
    
    [GRAPHIC] [TIFF OMITTED] T1350.021
    
    [GRAPHIC] [TIFF OMITTED] T1350.022
    
    [GRAPHIC] [TIFF OMITTED] T1350.023
    
    [GRAPHIC] [TIFF OMITTED] T1350.024
    
    [GRAPHIC] [TIFF OMITTED] T1350.025
    
    [GRAPHIC] [TIFF OMITTED] T1350.026
    
    [GRAPHIC] [TIFF OMITTED] T1350.027
    
    [GRAPHIC] [TIFF OMITTED] T1350.028
    
    [GRAPHIC] [TIFF OMITTED] T1350.029
    
    [GRAPHIC] [TIFF OMITTED] T1350.030
    
    [GRAPHIC] [TIFF OMITTED] T1350.031
    
    [GRAPHIC] [TIFF OMITTED] T1350.032
    
    [GRAPHIC] [TIFF OMITTED] T1350.033
    
    [GRAPHIC] [TIFF OMITTED] T1350.034
    
    [GRAPHIC] [TIFF OMITTED] T1350.035
    
    [GRAPHIC] [TIFF OMITTED] T1350.036
    
    [GRAPHIC] [TIFF OMITTED] T1350.037
    
    [GRAPHIC] [TIFF OMITTED] T1350.038
    
    [GRAPHIC] [TIFF OMITTED] T1350.039
    
    [GRAPHIC] [TIFF OMITTED] T1350.040
    
    [GRAPHIC] [TIFF OMITTED] T1350.041
    
    [GRAPHIC] [TIFF OMITTED] T1350.042
    
    [GRAPHIC] [TIFF OMITTED] T1350.043
    
    [GRAPHIC] [TIFF OMITTED] T1350.044
    
    [GRAPHIC] [TIFF OMITTED] T1350.045
    
    [GRAPHIC] [TIFF OMITTED] T1350.046
    
    [GRAPHIC] [TIFF OMITTED] T1350.047
    
    [GRAPHIC] [TIFF OMITTED] T1350.048
    
    [GRAPHIC] [TIFF OMITTED] T1350.049
    
    [GRAPHIC] [TIFF OMITTED] T1350.050
    
    [GRAPHIC] [TIFF OMITTED] T1350.051
    
    [GRAPHIC] [TIFF OMITTED] T1350.052
    
    [GRAPHIC] [TIFF OMITTED] T1350.053
    
    [GRAPHIC] [TIFF OMITTED] T1350.054
    
    [GRAPHIC] [TIFF OMITTED] T1350.055
    
    [GRAPHIC] [TIFF OMITTED] T1350.056
    
    [GRAPHIC] [TIFF OMITTED] T1350.057
    
    [GRAPHIC] [TIFF OMITTED] T1350.058
    
    [GRAPHIC] [TIFF OMITTED] T1350.059
    
    [GRAPHIC] [TIFF OMITTED] T1350.060
    
    [GRAPHIC] [TIFF OMITTED] T1350.061
    
    [GRAPHIC] [TIFF OMITTED] T1350.062
    
    [GRAPHIC] [TIFF OMITTED] T1350.063
    
    [GRAPHIC] [TIFF OMITTED] T1350.064
    
    [GRAPHIC] [TIFF OMITTED] T1350.065
    
    [GRAPHIC] [TIFF OMITTED] T1350.066
    
    [GRAPHIC] [TIFF OMITTED] T1350.067
    
    [GRAPHIC] [TIFF OMITTED] T1350.068
    
    [GRAPHIC] [TIFF OMITTED] T1350.069
    
    [GRAPHIC] [TIFF OMITTED] T1350.070
    
    [GRAPHIC] [TIFF OMITTED] T1350.071
    
    [GRAPHIC] [TIFF OMITTED] T1350.072
    
    [GRAPHIC] [TIFF OMITTED] T1350.073
    
    [GRAPHIC] [TIFF OMITTED] T1350.074
    
    [GRAPHIC] [TIFF OMITTED] T1350.075
    
    [GRAPHIC] [TIFF OMITTED] T1350.076
    
    [GRAPHIC] [TIFF OMITTED] T1350.077
    
    [GRAPHIC] [TIFF OMITTED] T1350.078
    
    [GRAPHIC] [TIFF OMITTED] T1350.079
    
    [GRAPHIC] [TIFF OMITTED] T1350.080
    
    [GRAPHIC] [TIFF OMITTED] T1350.081
    
    [GRAPHIC] [TIFF OMITTED] T1350.082
    
    [GRAPHIC] [TIFF OMITTED] T1350.083
    
    [GRAPHIC] [TIFF OMITTED] T1350.084
    
    [GRAPHIC] [TIFF OMITTED] T1350.085
    
    [GRAPHIC] [TIFF OMITTED] T1350.086
    
    [GRAPHIC] [TIFF OMITTED] T1350.087
    
    [GRAPHIC] [TIFF OMITTED] T1350.088
    
    [GRAPHIC] [TIFF OMITTED] T1350.089
    
    [GRAPHIC] [TIFF OMITTED] T1350.090
    
    [GRAPHIC] [TIFF OMITTED] T1350.091
    
    [GRAPHIC] [TIFF OMITTED] T1350.092
    
    [GRAPHIC] [TIFF OMITTED] T1350.093
    
    [GRAPHIC] [TIFF OMITTED] T1350.094
    
    [GRAPHIC] [TIFF OMITTED] T1350.095
    
    [GRAPHIC] [TIFF OMITTED] T1350.096
    
    [GRAPHIC] [TIFF OMITTED] T1350.097
    
    [GRAPHIC] [TIFF OMITTED] T1350.098
    
    [GRAPHIC] [TIFF OMITTED] T1350.099
    
    [GRAPHIC] [TIFF OMITTED] T1350.100
    
    [GRAPHIC] [TIFF OMITTED] T1350.101
    
    [GRAPHIC] [TIFF OMITTED] T1350.102
    
    [GRAPHIC] [TIFF OMITTED] T1350.103
    
    [GRAPHIC] [TIFF OMITTED] T1350.104
    
    [GRAPHIC] [TIFF OMITTED] T1350.105
    
    [GRAPHIC] [TIFF OMITTED] T1350.106
    
    [GRAPHIC] [TIFF OMITTED] T1350.107
    
    [GRAPHIC] [TIFF OMITTED] T1350.108
    
    [GRAPHIC] [TIFF OMITTED] T1350.109
    
    [GRAPHIC] [TIFF OMITTED] T1350.110
    
    [GRAPHIC] [TIFF OMITTED] T1350.111
    
    [GRAPHIC] [TIFF OMITTED] T1350.112
    
    [GRAPHIC] [TIFF OMITTED] T1350.113
    
    [GRAPHIC] [TIFF OMITTED] T1350.114
    
    [GRAPHIC] [TIFF OMITTED] T1350.115
    
    [GRAPHIC] [TIFF OMITTED] T1350.116
    
    [GRAPHIC] [TIFF OMITTED] T1350.117
    
    [GRAPHIC] [TIFF OMITTED] T1350.118
    
    [GRAPHIC] [TIFF OMITTED] T1350.119
    
    [GRAPHIC] [TIFF OMITTED] T1350.120
    
    [GRAPHIC] [TIFF OMITTED] T1350.121
    
    [GRAPHIC] [TIFF OMITTED] T1350.122
    
    [GRAPHIC] [TIFF OMITTED] T1350.123
    
    [GRAPHIC] [TIFF OMITTED] T1350.124
    
    [GRAPHIC] [TIFF OMITTED] T1350.125
    
    [GRAPHIC] [TIFF OMITTED] T1350.126
    
    [GRAPHIC] [TIFF OMITTED] T1350.127
    
    [GRAPHIC] [TIFF OMITTED] T1350.128
    
    [GRAPHIC] [TIFF OMITTED] T1350.129
    
    [GRAPHIC] [TIFF OMITTED] T1350.130
    
    [GRAPHIC] [TIFF OMITTED] T1350.131
    
    [GRAPHIC] [TIFF OMITTED] T1350.132
    
    [GRAPHIC] [TIFF OMITTED] T1350.133
    
    [GRAPHIC] [TIFF OMITTED] T1350.134
    
    [GRAPHIC] [TIFF OMITTED] T1350.135
    
    [GRAPHIC] [TIFF OMITTED] T1350.136
    
    [GRAPHIC] [TIFF OMITTED] T1350.137
    
    [GRAPHIC] [TIFF OMITTED] T1350.138
    
    [GRAPHIC] [TIFF OMITTED] T1350.139
    
    [GRAPHIC] [TIFF OMITTED] T1350.140
    
    [GRAPHIC] [TIFF OMITTED] T1350.141
    
    [GRAPHIC] [TIFF OMITTED] T1350.142
    
    [GRAPHIC] [TIFF OMITTED] T1350.143
    
    [GRAPHIC] [TIFF OMITTED] T1350.144
    
    [GRAPHIC] [TIFF OMITTED] T1350.145
    
    [GRAPHIC] [TIFF OMITTED] T1350.146
    
    [GRAPHIC] [TIFF OMITTED] T1350.147
    
    [GRAPHIC] [TIFF OMITTED] T1350.148
    
    [GRAPHIC] [TIFF OMITTED] T1350.149
    
    [GRAPHIC] [TIFF OMITTED] T1350.150
    
    [GRAPHIC] [TIFF OMITTED] T1350.151
    
    [GRAPHIC] [TIFF OMITTED] T1350.152
    
    [GRAPHIC] [TIFF OMITTED] T1350.153
    
    [GRAPHIC] [TIFF OMITTED] T1350.154
    
    [GRAPHIC] [TIFF OMITTED] T1350.155
    
    [GRAPHIC] [TIFF OMITTED] T1350.156
    
    [GRAPHIC] [TIFF OMITTED] T1350.157
    
    [GRAPHIC] [TIFF OMITTED] T1350.158
    
    [GRAPHIC] [TIFF OMITTED] T1350.159
    
    [GRAPHIC] [TIFF OMITTED] T1350.160
    
    [GRAPHIC] [TIFF OMITTED] T1350.161
    
    [GRAPHIC] [TIFF OMITTED] T1350.162
    
    [GRAPHIC] [TIFF OMITTED] T1350.163
    
    [GRAPHIC] [TIFF OMITTED] T1350.164
    
    [GRAPHIC] [TIFF OMITTED] T1350.165
    
    [GRAPHIC] [TIFF OMITTED] T1350.166
    
    [GRAPHIC] [TIFF OMITTED] T1350.167
    
    [GRAPHIC] [TIFF OMITTED] T1350.168
    
    [GRAPHIC] [TIFF OMITTED] T1350.169
    
    [GRAPHIC] [TIFF OMITTED] T1350.170
    
    [GRAPHIC] [TIFF OMITTED] T1350.171
    
    [GRAPHIC] [TIFF OMITTED] T1350.172
    
    [GRAPHIC] [TIFF OMITTED] T1350.173
    
    [GRAPHIC] [TIFF OMITTED] T1350.174
    
    [GRAPHIC] [TIFF OMITTED] T1350.175
    
    [GRAPHIC] [TIFF OMITTED] T1350.176
    
    [GRAPHIC] [TIFF OMITTED] T1350.177
    
    [GRAPHIC] [TIFF OMITTED] T1350.178
    
    [GRAPHIC] [TIFF OMITTED] T1350.179
    
    [GRAPHIC] [TIFF OMITTED] T1350.180
    
    [GRAPHIC] [TIFF OMITTED] T1350.181
    
    [GRAPHIC] [TIFF OMITTED] T1350.182
    
    [GRAPHIC] [TIFF OMITTED] T1350.183
    
    [GRAPHIC] [TIFF OMITTED] T1350.184
    
    [GRAPHIC] [TIFF OMITTED] T1350.185
    
    [GRAPHIC] [TIFF OMITTED] T1350.186
    
    [GRAPHIC] [TIFF OMITTED] T1350.187
    
    [GRAPHIC] [TIFF OMITTED] T1350.188
    
    [GRAPHIC] [TIFF OMITTED] T1350.189
    
    [GRAPHIC] [TIFF OMITTED] T1350.190
    
    [GRAPHIC] [TIFF OMITTED] T1350.191
    
    [GRAPHIC] [TIFF OMITTED] T1350.192
    
    [GRAPHIC] [TIFF OMITTED] T1350.193
    
    [GRAPHIC] [TIFF OMITTED] T1350.194
    
    [GRAPHIC] [TIFF OMITTED] T1350.195
    
    [GRAPHIC] [TIFF OMITTED] T1350.196
    
    [GRAPHIC] [TIFF OMITTED] T1350.197
    
    [GRAPHIC] [TIFF OMITTED] T1350.198
    
    [GRAPHIC] [TIFF OMITTED] T1350.199
    
    [GRAPHIC] [TIFF OMITTED] T1350.200
    
    [GRAPHIC] [TIFF OMITTED] T1350.201
    
    [GRAPHIC] [TIFF OMITTED] T1350.202
    
    [GRAPHIC] [TIFF OMITTED] T1350.203

                                  <all>

</pre></body></html>
